<html>
<title> - ENERGY AND WATER DEVELOPMENT APPROPRIATIONS FOR FISCAL YEAR 2009</title>
<body><pre>[Senate Hearing 110-]
[From the U.S. Government Publishing Office]


 
    ENERGY AND WATER DEVELOPMENT APPROPRIATIONS FOR FISCAL YEAR 2009 

                              ----------                              

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.

                       NONDEPARTMENTAL WITNESSES

    [Clerk's note.--At the direction of the subcommittee 
chairman, the following statements received by the subcommittee 
are made part of the hearing record on the Fiscal Year 2009 
Energy and Water Development Appropriations Act.]

                      DEPARTMENT OF DEFENSE--CIVIL

                         Department of the Army

                       Corps of Engineers--Civil

   Prepared Statement of the National Corn Growers Association (NCGA)
    The National Corn Growers Association (NCGA) appreciates the 
opportunity to share with the subcommittee our Energy and Water 
Development Appropriations priorities for fiscal year 2009. In general, 
our appropriations priorities include an overall increase in U.S. Army 
Corps of Engineers' funding to address the needs of our failing inland 
waterways system; securing $50 million in the Fiscal Year 2009 Energy 
and Water Development Appropriations bill for the Upper Mississippi 
River System (UMRS)--Navigation Ecosystem Sustainability Program (NESP) 
authorized by H.R. 1495, the Water Resources Development Act 2007, 
title VIII, secs. 8001-8005; and continued support for the Department 
of Energy's Biomass Technologies Program.
    NCGA's mission is to create and increase opportunities for corn 
growers. NCGA represents more than 33,000 members and 48 affiliated 
State organizations and hundreds of thousands of growers who contribute 
to State checkoff programs.
                      u.s. army corps of engineers
    Our country's inland navigation system plays a critical role in our 
Nation's economy, moving more than a billion tons of domestic commerce 
valued at more than $300 billion. Each year, more than 1 billion 
bushels of grain (over 60 percent of all grain exports) move to export 
markets via the inland waterways system. Inland waterways relieve 
congestion on our already over-crowded highways and railways that run 
through cities. One jumbo barge has the same capacity as 58 trucks or 
15 rail cars. A typical 15-barge tow on our Nation's rivers is 
equivalent to 870 trucks.
    Additionally, navigation offers transportation with unparalleled 
environmental benefits. Barges operate at 10 percent of the cost of 
trucks and 40 percent of the cost of trains, while releasing 20 times 
less nitrous oxide, 9 times less carbon monoxide, 7 times less 
hydrocarbons, and burning 10 times less high-price fuel.
    Unfortunately, investment in the inland waterways system has not 
kept pace with its needs and is deteriorating. In 2006, more than half 
of the 240 operational Corps-funded lock chambers in the United 
States--which handle over 625 million tons of freight each year--are 
over 50 years old and have exceeded their economic design lives. Many 
locks currently in use are too small for today's larger tows, 
susceptible to closures and long delays for repairs and unable to 
effectively deal with lines and wait times that result from their 
obsolescence. In recent years, several high-profile closures have 
raised reliability concerns among shippers, carriers, the U.S. Army 
Corps of Engineers, and ultimately consumers who pay increased costs 
for expensive transportation delays.
    Funding (in constant dollars) for Operations and Maintenance (O&M) 
on America's inland navigation system has remained flat for more than 2 
decades. During this period, an increasing amount of routine 
maintenance on waterways infrastructure has been deferred. This 
deferred maintenance has become unfunded maintenance, and the aging 
waterways infrastructure, combined with the growing O&M backlog, has 
created today's average of 30 unscheduled lock shutdowns per year.
    Tight O&M funding and the resultant ``fix-as-fail'' policy have led 
to a self-defeating cycle where routine maintenance dollars are now 
needed for emergency repairs. As critical maintenance needs grow, they 
become candidates for major rehabilitation--a trend that is not good 
for the waterways industry or for the Nation.
    NCGA is appreciative of the successful efforts made by this 
subcommittee in recent years to increase the budget for the U.S. Army 
Corps of Engineers. NCGA strongly supports continuing this trend with a 
significant increase over last year's funding levels to address the 
critically needed repairs and delayed construction schedules facing the 
Corps. It's important to get our inland waterways infrastructure back 
on track so we can meet the ever-increasing demands of the global 
marketplace.
           navigation ecosystem sustainability program (nesp)
    The Upper Mississippi River System (UMRS) includes the Upper 
Mississippi River and Illinois Waterway and tributary rivers, with 38 
lock and dam sites stretching from Minneapolis, Minnesota, and Chicago, 
Illinois, to just south of St. Louis, Missouri. The Upper Mississippi 
has 29 locks and 858 miles of commercially navigable waterway, and the 
Illinois Waterway has 8 locks and is navigable for 291 miles. Also part 
of the UMRS is the Missouri River, which has no locks along its 735 
navigable miles from Sioux City, Iowa, to St. Louis. There is one lock 
along the 26 navigable miles of the Kaskaskia River in southern 
Illinois.
    In 1986, Congress declared the UMRS ``a nationally significant 
ecosystem and a nationally significant commercial navigation system.'' 
The same waters that transport more than 60 percent of America's corn 
and soybeans are home to 25 percent of North America's fish species and 
are globally important as a flyway for 60 percent of North America's 
bird species. However, both the river transportation system and the 
river ecosystem are deteriorating. The locks that help tows to navigate 
the river are antiquated--increasing cost, safety risks and lost market 
opportunities. And from an ecological perspective, the floodplain is 
degraded, islands eroded, backwaters filled in and the river's natural 
flows disrupted.
    With enactment of the Water Resources Development Act 2007, 
Congress created a historic opportunity for the UMRS. Congress 
recognized the economic and ecological importance of what truly is 
America's River by giving the U.S. Army Corps of Engineers a new, dual-
purpose authority to integrate management of the river's habitats and 
navigation system in an unprecedented way. Corn growers are asking 
Congress to invest in the future of the UMRS by funding implementation 
of this new program.
    We request your support in securing $50 million in the Fiscal Year 
2009 Energy and Water Development Appropriations bill for the Upper 
Mississippi River System (UMRS)--Navigation Ecosystem Sustainability 
Program (NESP). Now is the time to build on the promise of the new 
authority for NESP by including funding for the program in the Corps' 
fiscal year 2009 construction general account. Congress has authorized 
NESP at $2.2 billion for navigation improvements; half of which is 
funded by the Inland Waterway Trust Fund, and $1.72 billion for 
ecosystem restoration, with an additional $10 million per year for 
monitoring. This will permit the Corps to begin implementing specific 
projects. NESP is a long-term vision, with the current authority 
providing for the first increment of that vision.
    Over approximately the next 15 years, NESP will improve navigation 
efficiency by constructing new 1,200-foot locks at Locks & Dams 20, 21, 
22, 24, and 25 on the Upper Mississippi River, and at LaGrange and 
Peoria on the Illinois Waterway. The plan also includes small-scale 
measures such as mooring facilities and switchboats and mitigation for 
the environmental effects of the lock construction and increased river 
traffic.
    Concurrently, NESP will also work to restore and preserve more than 
100,000 acres of habitat in a manner that is entirely compatible with 
current navigation practices. Restoration projects will range in size 
and complexity but will focus on restoring system-wide natural 
processes vital to the river's health. Examples include mimicking 
natural flow regimes by drawing down pools in the summer and restoring 
floodplain habitat in cooperation with willing landowners. Because the 
UMRS is a vast and ecologically complex system, NESP includes an 
adaptive management strategy, in which sound science, learning and 
monitoring guide the most efficient and effective allocation of 
resources.
    We appreciate this subcommittee's help in securing Pre-Construction 
Engineering and Design in years passed prior to authorization in the 
2007 Water Resources Development Act. Congress has provided for $13.5 
million in fiscal year 2005, $10 million in fiscal year 2006, $10 
million in fiscal year 2007 and $8.85 million in fiscal year 2008. 
Capability levels for PED were identified as $24 million for each 
fiscal year to achieve a 3-4 year pre-construction engineering and 
design phase.
    For continued success, U.S. farmers need efficient transportation 
networks, which is why we have been long-time advocates for 
improvements to our inland waterway system. Meeting future 
international demand for corn, soybean, and other grains will be 
impossible without a modernized river infrastructure.
    You have an opportunity to impact economic growth in our Nation. 
Your help in securing funds for NESP will allow the Nation to achieve 
the benefits of river infrastructure and ecosystem improvements as soon 
as possible.
                      biomass technologies program
    The United States needs to displace imported petroleum with 
domestically produced ethanol. Grain ethanol is the only economically 
viable solution today to reduce our reliance on foreign sources of 
energy. In order to achieve energy independence, the United States must 
capitalize on an abundance of domestic resources. Using starch from 
corn grain to produce ethanol is a proven, efficient way to reduce oil 
imports. Ethanol reduces green house gases, continues to spur economic 
development in rural communities, provides for a high-value co-product 
and stabilizes farm income. In 2007, strong commodity prices reduced 
Government spending by $6 billion. Over the next decade, corn grain 
will continue to meet the growing demands from livestock feed, human 
food, export sectors, and ethanol fuel.
    The current Federal biomass technologies program is focused on 
long-term cellulose research. Cellulose research will not have any 
meaningful economic impact for a decade or more. A successful research 
and development (R&D) portfolio always balances near-, mid- and long-
term goals, and biomass research should use a similar strategy.
    In the near term, R&D investments in corn grain ethanol production 
technology could have a strongly positive economic impact while 
immediately decreasing dependence on imported oil. Examples of R&D 
investment opportunities include improving production and utilization 
of animal feed (DDGS), co-production of biobased chemicals, utilization 
of corn kernel fiber, repowering ethanol facilities with biomass, water 
utilization, and decreasing natural gas use in ethanol plants. A 
sufficient supply of affordable ethanol will ensure the markets and 
infrastructure will be poised for the larger impacts coming in the mid 
to long-term.
    NCGA recommends the subcommittee commit at least 25 percent of the 
fiscal year 2009 allocation for the biomass technologies program 
towards near-term research of corn grain. A strong corn ethanol 
industry is the foundation for an expanding renewable fuels market. 
Agricultural residues, cobs, and fiber will serve as the bridge 
technologies to a second generation of renewable fuels.
    Thank you for the support and assistance you have provided to corn 
growers over the years.
                                 ______
                                 
  Prepared Statement of the Riverside County Flood Control and Water 
                         Conservation District

------------------------------------------------------------------------
                          PROJECT                              REQUEST
------------------------------------------------------------------------
MURRIETA CREEK FLOOD CONTROL PROJECT: Construction General.  $13,000,000
HEACOCK AND CACTUS CHANNELS: Special Authorization under      28,400,000
 WRDA......................................................
FUNDING FOR CERTIFICATION OF CORPS LEVEES: Inspection of       3,000,000
 Completed Works...........................................
SAN JACINTO & UPPER SANTA MARGARITA RIVER WATERSHEDS             355,000
 SPECIAL AREA MANAGEMENT PLAN (SAMP): General
 Investigations............................................
SANTA ANA RIVER--MAINSTEM: Construction General............  108,600,000
------------------------------------------------------------------------

murrieta creek flood control, environmental restoration and recreation 
                                project
    Murrieta Creek continues to pose a severe flood threat to the 
cities of Murrieta and Temecula. Overflow flooding from the undersized 
creek with a tributary watershed area of over 220 square miles 
continues to periodically wreak havoc on the communities. The winter 
storms in 1993 cost nearly $20 million in damages to the public and 
private sectors. Almost on a yearly basis, small to moderate storms 
cause localized damages at numerous locations requiring ongoing 
repairs. As the area continues to develop, the potential for damages 
(direct and indirect) continues to increase.
    In 1997 the U.S. Army Corps of Engineers initiated studies on the 
Creek. The final outcome of this endeavor was Congressional 
authorization in 2000 of the $90 million, multi faceted project known 
as the Murrieta Creek Flood Control, Environmental Restoration and 
Recreation Project. This project is being designed and will be 
constructed in four distinct phases. Phases 1 and 2 include channel 
improvements through the city of Temecula. Phase 3 involves the 
construction of a 250-acre detention basin, including the establishment 
of about 160 acres of new environmental habitat and over 50 acres of 
recreational facilities. Phase 4 will include channel improvements 
through the city of Murrieta. Equestrian, bicycle and hiking trails, as 
well as a continuous vegetated habitat corridor for wildlife are 
components of the entire 7.5 mile long project.
    The Omnibus Appropriations bill for fiscal year 2003 provided $1 
million for a new construction start for this critical public safety 
project and construction activities commenced in the Fall of 2003 on 
Phase 1. Appropriations for fiscal year 2004 and additional funds 
allocated allowed the Corps to continue construction on Phase 1, which 
was completed in December 2004. Phase 2 traverses Old Town Temecula, 
one of the hardest hit areas during the flooding of 1993. The Corps 
anticipates having a Phase 2 construction contract ready to award in 
the Winter of 2008. The District, therefore, respectfully requests the 
subcommittee's support of a $13 million appropriation in fiscal year 
2009 to allow the Corps to complete the Design Documentation Report, 
and initiate construction on Phase 2 of the long awaited Murrieta Creek 
Flood Control, Environmental Restoration and Recreation Project.
    heacock and cactus channels protection of march air reserve base
    Heacock and Cactus Channels are undersized, earthen channels that 
border the eastern and northern boundary of the March Air Reserve Base 
(MARB) located adjacent to the city of Moreno Valley, Riverside County, 
California. Substantial vegetation becomes established within both 
channels and impedes the conveyance of tributary storm flows to the 
existing ultimate outlet located downstream. Storm flows overtop Cactus 
Channel and traverse MARB causing major disruption of the Base's 
operation, including the fueling of airplanes and the transport of 
troops and supplies. The record rainfall of 2004/2005 also caused 
extensive erosion along Heacock Avenue jeopardizing existing utilities 
within the road right of way and cutting off access to about 700 
residences within the city of Moreno Valley.
    Under section 205 of the Continuing Authorities Program (CAP), the 
Corps received $100,000 in fiscal year 2005 and completed an Initial 
Appraisal Report which determined the feasibility of proceeding with a 
project to provide flood protection to this sensitive area. With the 
$546,000 received in fiscal year 2006 the Corps completed a Project 
Management Plan, executed a Feasibility Cost Sharing Agreement and is 
nearing completion of the Feasibility Study. However, this study found 
that MARB would receive approximately 75 percent of the benefits from 
constructing this project making the use of section 205 funds 
inappropriate. Therefore, the project will require Special Authorizing 
Language to approve and an appropriation of $28.4 million to provide 
flood protection to MARB.
    The District requests support from the subcommittee for Special 
Authorization approving the project and authorizing appropriations of 
$28.4 million to complete the design and construct the project 
providing this critical military installation flood protection.
               certification of corps constructed levees
    As part of the Federal Emergency Management Agency's (FEMA) Map 
Modernization Program, the District, as well as all other agencies, 
cities and counties in the Nation are being required to provide 
certification of the reliability of all levee structures providing 
flood protection to our citizens. Many of these projects were 
constructed by the U.S. Army Corps of Engineers and in these cases, 
FEMA is requesting that the certification be provided by the Corps. 
Certification involves an extensive amount of geotechnical analysis, 
including field and lab material testing, slope stability and seepage 
checks, hydrologic and hydraulic verification, and other costly and 
time consuming activities, as well as the review of operation and 
maintenance records. These projects have an established Federal 
interest. Therefore, a National Policy needs to be established 
addressing the need for these federally constructed projects to be 
certified by the Corps and authorizing the Corps to perform the 
required analysis. Furthermore, the Corps should also be authorized to 
provide Federal assistance for design and construction costs associated 
with any necessary rehabilitation, repair or reconstruction of projects 
that are found not to meet the CFR 65.10 FEMA and/or Risk and 
Uncertainty analysis criteria. Non-conforming levees put the public at 
risk and should be a Federal priority. Within our District, there are 
three Corps constructed levees requiring this Federal certification: 
Santa Ana River Levees constructed in 1958, Chino Canyon Levee 
constructed in 1972 and San Jacinto River Levee constructed in 1982.
    The District requests support from the subcommittee for the 
establishment of a National Policy addressing this issue and the 
authorization and funding needed for the Corps to meet its obligations 
to the numerous local sponsors of federally constructed levees 
throughout the country. The Los Angeles District needs an appropriation 
of $3.0 million for fiscal year 2009 under the Inspection of Completed 
Works--CA Operations and Maintenance Appropriation 3123 to accomplish 
the needed certification work.
  san jacinto and upper santa margarita river watersheds special area 
                            management plan
    In 2001 the Corps began development of a Special Area Management 
Plan (SAMP) for both the San Jacinto and Upper Santa Margarita 
Watersheds to address regional conservation and develop plans that 
protect the environment while allowing for compatible economic 
development. The final product of the SAMP will be the establishment of 
an abbreviated or expedited regulatory permitting process by the Corps 
under section 404 of the Clean Water Act to assist Federal, State and 
local agencies with their decisionmaking and permitting authority to 
protect, restore and enhance aquatic resources, while accommodating 
various types of development activities. This process will increase 
regulatory efficiency and promote predictability to the regulated 
public. The plan will also build on the protection of high value 
resource areas, as envisioned in the MSHCP. The District requests 
support from the subcommittee for a fiscal year 2009 appropriation of 
$355,000 to complete the work on the Nation's largest SAMP for the San 
Jacinto and Upper Santa Margarita Watersheds.
                       santa ana river--mainstem
    The Water Resources Development Act of 1986 (Public Law 99-662) 
authorized the Santa Ana River-All River project that includes 
improvements and various mitigation features as set forth in the Chief 
of Engineers Report to the Secretary of the Army. The Boards of 
Supervisors of Orange and San Bernardino Counties as well as the Board 
for the Riverside County Flood Control and Water Conservation District 
continue to support this critical project as stated in past resolutions 
to Congress.
    For fiscal year 2009, an appropriation of $108.6 million, is 
necessary to provide funding for Reach 9 of the Santa Ana River 
immediately downstream of Prado Dam, continue the construction of Prado 
Dam features and provide mitigation for the construction of Seven Oaks 
Dam. The District respectfully requests that the subcommittee support 
an overall $108.6 million appropriation of Federal funding for fiscal 
year 2009 for the Santa Ana River Mainstem Project.
                                 ______
                                 
      Prepared Statements of the Santa Clara Valley Water District
           statement of support--coyote creek watershed study
    Background.--Coyote Creek drains Santa Clara County's largest 
watershed, an area of more than 320 square miles encompassing most of 
the eastern foothills, the city of Milpitas, and portions of the cities 
of San Jose and Morgan Hill. It flows northward from Anderson Reservoir 
through more than 40 miles of rural and heavily urbanized areas and 
empties into south San Francisco Bay.
    Prior to construction of Coyote and Anderson Reservoirs, flooding 
occurred in 1903, 1906, 1909, 1911, 1917, 1922, 1923, 1926, 1927, 1930 
and 1931. Since 1950, the operation of the reservoirs has reduced the 
magnitude of flooding, although flooding is still a threat and did 
cause damages in 1982, 1983, 1986, 1995, and 1997. Significant areas of 
older homes in downtown San Jose and some major transportation 
corridors remain susceptible to extensive flooding. The federally-
supported lower Coyote Creek Project (San Francisco Bay to Montague 
Expressway), which was completed in 1996, protected homes and 
businesses from storms which generated record runoff in the northern 
parts of San Jose and Milpitas.
    The proposed Reconnaissance Study would evaluate the reaches 
upstream of the completed Federal flood protection works on lower 
Coyote Creek.
    Objective of Study.--The objectives of the Reconnaissance Study are 
to investigate flood damages within the Coyote Creek Watershed; to 
identify potential alternatives for alleviating those damages which 
also minimize impacts on fishery and wildlife resources, provide 
opportunities for ecosystem restoration, provide for recreational 
opportunities; and to determine whether there is a Federal interest to 
proceed into the Feasibility Study Phase.
    Study Authorization.--In May 2002, the House of Representatives 
Committee on Transportation and Infrastructure passed a resolution 
directing the Corps to ``. . . review the report of the Chief of 
Engineers on Coyote and Berryessa Creeks . . . and other pertinent 
reports, to determine whether modifications of the recommendations 
contained therein are advisable in the interest of flood damage 
reduction, environmental restoration and protection, water conservation 
and supply, recreation, and other allied purposes . . .''.
    Fiscal Year 2006 Administration Budget Request and Funding.--The 
Coyote Watershed Study was one of only three ``new start'' studies 
proposed for funding nationwide in the administration fiscal year 2006 
budget request. Congress did not include funding for the study in the 
final fiscal year 2006 appropriations bill.
    Fiscal Year 2008 Funding.--Congress did not appropriate any funding 
to the project in fiscal year 2008.
    Fiscal Year 2009 Funding Recommendation.--It is requested that the 
congressional committee support an appropriation add-on of $100,000 to 
initiate a multi-purpose Reconnaissance Study within the Coyote Creek 
Watershed.
 statement of support--upper penitencia creek flood protection project
    Background.--The Upper Penitencia Creek Watershed is located in 
northeast Santa Clara County, California, near the southern end of the 
San Francisco Bay. In the last two decades, the creek has flooded in 
1980, 1982, 1983, 1986, 1995, and 1998. The January 1995 flood damaged 
a commercial nursery, a condominium complex, and a business park. The 
February 1998 flood also damaged many homes, businesses, and surface 
streets.
    The proposed project on Upper Penitencia Creek, from the Coyote 
Creek confluence to Dorel Drive, will protect portions of the cities of 
San Jose and Milpitas. The floodplain is completely urbanized; 
undeveloped land is limited to a few scattered agricultural parcels and 
a corridor along Upper Penitencia Creek. Based on an August 2004 U.S. 
Army Corps of Engineers' (Corps) Economics Analysis, over 5,000 homes 
and businesses in the cities of San Jose and Milpitas are located in 
the 1 percent or 100-year flood area. Flood damages were estimated at 
$455 million. Benefit to cost ratios for the nine project alternatives 
range from 2:1 to 3.1:1.
    Study Synopsis.--Under authority of the Watershed Protection and 
Flood Prevention Act (Public Law 83-566), the Natural Resources 
Conservation Service (formerly the Soil Conservation Service) completed 
an economic feasibility study (watershed plan) for constructing flood 
damage reduction facilities on Upper Penitencia Creek. Following the 
1990 U.S. Department of Agriculture Farm bill, the Natural Resources 
Conservation Service watershed plan stalled due to the very high ratio 
of potential urban development flood damage compared to agricultural 
damage in the project area.
    In January 1993, the Santa Clara Valley Water District (District) 
requested the Corps proceed with a reconnaissance study in the 1994 
fiscal year while the Natural Resources Conservation Service plan was 
on hold. Funds were appropriated by Congress for fiscal year 1995 and 
the Corps started the reconnaissance study in October 1994. The 
reconnaissance report was completed in July 1995, with the 
recommendation to proceed with the feasibility study phase. The 
feasibility study, initiated in February 1998, is currently scheduled 
for completion in 2009.
    Advance Construction.--To accelerate project implementation, the 
District submitted a section 104 application to the Corps for approval 
to construct a portion of the project. The application was approved in 
December 2000. The advance construction is for a 2,600-foot long 
section of bypass channel between Coyote Creek and King Road. However, 
due to funding constraints at the District and concerns raised by 
regulatory agencies, the design was stopped and turned over to the 
Corps to complete.
    Fiscal Year 2008 Funding.--Congress appropriated $229,000 to the 
project in fiscal year 2008.
    Fiscal Year 2009 Funding Recommendation.--It is requested that the 
congressional committee support an appropriation add-on of $171,000, in 
addition to the $191,000 in the administration's fiscal year 2009 
budget request, for a total of $362,000 for the Upper Penitencia Creek 
Flood Protection Project to continue the Feasibility Study.
statement of support--san francisquito creek flood damage reduction and 
                     ecosystem restoration project
    Background.--The San Francisquito Creek watershed comprises 45 
square miles and 70 miles of creek system. The creek mainstem flows 
through five cities and two counties, from Searsville Lake, belonging 
to Stanford University, to the San Francisco Bay at the boundary of 
East Palo Alto and Palo Alto. Here it forms the boundary between Santa 
Clara and San Mateo counties, California and separates the cities of 
Palo Alto from East Palo Alto and Menlo Park. The upper watershed 
tributaries are within the boundaries of Portola Valley and Woodside 
townships. The creek flows through residential and commercial 
properties, a biological preserve, and Stanford University campus. It 
interfaces with regional and State transportation systems by flowing 
under two freeways and the regional commuter rail system. San 
Francisquito Creek is one of the last natural continuous riparian 
corridors on the San Francisco Peninsula and home to one of the last 
remaining viable steelhead trout runs. The riparian habitat and urban 
setting offer unique opportunities for a multi objective flood 
protection and ecosystem restoration project.
    Flooding History.--The creeks mainstem has a flooding frequency of 
approximately once in 11 years. It is estimated that over $155 million 
in damages could occur in Santa Clara and San Mateo counties from a 1-
percent flood, affecting 4,850 home and businesses. Significant areas 
of Palo Alto flooded in December 1955, inundating about 1,200 acres of 
commercial and residential property and about 70 acres of agricultural 
land. April 1958 storms caused a levee failure downstream of Highway 
101, flooding Palo Alto Airport, the city landfill, and the golf course 
up to 4 feet deep. Overflow in 1982 caused extensive damage to private 
and public property. The flood of record occurred on February 3, 1998, 
when overflow from numerous locations caused severe, record 
consequences with more than $28 million in damages. More than 1,100 
homes were flooded in Palo Alto, 500 people were evacuated in East Palo 
Alto, and the major commute and transportation artery, Highway 101, was 
closed.
    Status.--Active citizenry are anxious to avoid a repeat of February 
1998 flood. Numerous watershed based studies have been conducted by the 
Corps, the Santa Clara Valley Water District, Stanford University, and 
the San Mateo County Flood Control District. A grassroots, consensus-
based organization, called the San Francisquito Watershed Council, has 
united stakeholders including local and State agencies, citizens, flood 
victims, developers, and environmental activists for over 10 years. The 
San Francisquito Creek Joint Powers Authority was formed in 1999 to 
coordinate creek activities with five member agencies and two associate 
members. The Authority Board has agreed to be the local sponsor for a 
Corps project and received congressional authorization for a Corps 
reconnaissance study in May 2002. The Reconnaissance Study was 
completed in March 2005 and the Feasibility Study was initiated in 
November 2005.
    Fiscal Year 2008 Funding.--Congress did not appropriate any funding 
to the project in fiscal year 2008.
    Fiscal Year 2009 Funding Recommendation.--It is requested the 
congressional committee support an appropriation add-on of $700,000 to 
continue the Feasibility Study.
 statement of support--coyote/berryessa creek project, berryessa creek 
                            project element
    Background.--The Berryessa Creek Watershed is located in northeast 
Santa Clara County, California, near the southern end of the San 
Francisco Bay. A major tributary of Coyote Creek, Berryessa Creek 
drains 22 square miles in the city of Milpitas and a portion of San 
Jose.
    On average, Berryessa Creek floods once every 4 years. The most 
recent flood in 1998 resulted in significant damage to homes and 
automobiles. The proposed project on Berryessa Creek, from Calaveras 
Boulevard to upstream of Old Piedmont Road, will protect portions of 
the cities of San Jose and Milpitas. The flood plain is largely 
urbanized with a mix of residential and commercial development. Based 
on the U.S. Army Corps of Engineers (Corps) 2005 report, a 1-percent or 
100-year flood could potentially result in damages exceeding $179 
million. Benefit-to-cost ratios for the six project alternatives being 
evaluated range from 2:1 to 7.3:1.
    Study Synopsis.--In January 1981, the Santa Clara Valley Water 
District (District) applied for Federal assistance for flood protection 
projects under section 205 of the 1948 Flood Control Act. The Water 
Resources Development Act of 1990 authorized construction on the 
Berryessa Creek Flood Protection Project as part of a combined Coyote/
Berryessa Creek Project to protect portions of the cities of Milpitas 
and San Jose.
    The Coyote Creek element of the project was completed in 1996. The 
Berryessa Creek Project element proposed in the Corps' 1987 feasibility 
report consisted primarily of a trapezoidal concrete lining. This was 
not acceptable to the local community. The Corps and the District are 
currently preparing a General Reevaluation Report which involves 
reformulating a project which is more acceptable to the local community 
and more environmentally sensitive. Project features will include 
setback levees and floodwalls to preserve sensitive areas (minimizing 
the use of concrete), appropriate aquatic and riparian habitat 
restoration and fish passage, and sediment control structures to limit 
turbidity and protect water quality. The project will also accommodate 
the city of Milpitas' adopted trail master plan. Estimated total costs 
of the General Reevaluation Report work are $6.5 million, and should be 
completed in 2009.
    Fiscal Year 2008 Funding.--Congress appropriated $1.147 million to 
the project in fiscal year 2008.
    Fiscal Year 2009 Funding Recommendation.--Based on the continuing 
threat of significant flood damage from Berryessa Creek and the need to 
continue with the General Reevaluation Report, it is requested that the 
congressional committee support an appropriation add-on of $650,000, in 
addition to the $950,000 in the administration's fiscal year 2009 
budget request, for a total of $1.6 million for the Berryessa Creek 
Flood Protection Project element of the Coyote/Berryessa Creek Project.
     statement of support--south san francisco bay shoreline study
    Background.--Congressional passage of the Water Resources 
Development Act of 1976, originally authorized the San Francisco Bay 
Shoreline Study, and Santa Clara Valley Water District (District) was 
one of the project sponsors. In 1990, the U.S. Army Corps of Engineers 
(Corps) concluded that levee failure potential was low because the 
existing non-Federal, non-engineered levees, which were routinely 
maintained by Leslie Salt Company (subsequently Cargill Salt) to 
protect their industrial interests, had historically withstood 
overtopping without failure. As a result, the project was suspended 
until adequate economic benefits could be demonstrated.
    Since the project's suspension in 1990, many changes have occurred 
in the South Bay. The State and Federal acquisition of approximately 
15,000 acres of South Bay salt ponds was completed in early March 2003. 
The proposed restoration of these ponds to tidal marsh will 
significantly alter the hydrologic regime and levee maintenance 
activities, which were assumed to be constant in the Corps' 1990 study. 
In addition to the proposed restoration project, considerable 
development has occurred in the project area. Many major corporations 
are now located within Silicon Valley's Golden Triangle, lying within 
and adjacent to the tidal flood zone. Damages from a 1-percent high 
tide are anticipated to far exceed the $34.5 million estimated in 1981, 
disrupting business operations, infrastructure, and residences. Also, 
historical land subsidence of up to 6 feet near Alviso, as well as the 
structural uncertainty of existing salt pond levees, increases the 
potential for tidal flooding in Santa Clara County.
    In July 2002, Congress authorized a review of the Final 1992 Letter 
Report for the San Francisco Bay Shoreline Study. The final fiscal year 
2004 appropriation for the Corps included funding for a new start 
Reconnaissance Study.
    Project Synopsis.--At present, large areas of Santa Clara, Alameda 
and San Mateo Counties would be impacted by flooding during a 1-percent 
high tide. The proposed restoration of the South San Francisco Bay salt 
ponds will result in the largest restored wetland on the west coast of 
the United States, and also significantly alter the hydrologic regime 
adjacent to South Bay urban areas. The success of the proposed 
restoration is therefore dependent upon adequate tidal flood 
protection, and so this project provides an opportunity for multi-
objective watershed planning in partnership with the California Coastal 
Conservancy, the lead agency on the restoration project. Project 
objectives include: restoration and enhancement of a diverse array of 
habitats, especially several special status species; tidal flood 
protection; and provision of wildlife-oriented public access. A Corps 
Reconnaissance Study was completed in September 2004 and the 
Feasibility Study was initiated in September 2005.
    Fiscal Year 2008 Funding.--Congress appropriated $785,000 to the 
project in fiscal year 2008.
    Fiscal Year 2009 Funding Request.--It is requested that the 
congressional committee support an appropriation add-on of $2.8 million 
to continue the Feasibility Study to evaluate integrated flood 
protection and environmental restoration.
               statement of support--llagas creek project
    Background.--The Llagas Creek Watershed is located in southern 
Santa Clara County, California, serving the communities of Gilroy, 
Morgan Hill and San Martin. Historically, Llagas Creek has flooded in 
1937, 1955, 1958, 1962, 1963, 1969, 1982, 1986, 1996, 1997, 1998, 2002, 
and 2008. The 1997, 1998, and 2002 floods damaged many homes, 
businesses, and a recreational vehicle park located in areas of Morgan 
Hill and San Martin. These are areas where flood protection is 
proposed. Overall, the proposed project will protect the floodplain 
from a 1 percent flood affecting more than 1,100 residential buildings, 
500 commercial buildings, and 1,300 acres of agricultural land.
    Project Synopsis.--Under authority of the Watershed Protection and 
Flood Prevention Act (Public Law 566), the Natural Resources 
Conservation Service completed an economic feasibility study in 1982 
for constructing flood damage reduction facilities on Llagas Creek. The 
Natural Resources Conservation Service completed construction of the 
last segment of the channel for Lower Llagas Creek in 1994, providing 
protection to the project area in Gilroy. The U.S. Army Corps of 
Engineers (Corps) is currently updating the 1982 environmental 
assessment work and the engineering design for the project areas in 
Morgan Hill and San Martin. The engineering design is being updated to 
protect and improve creek water quality and to preserve and enhance the 
creek's habitat, fish, and wildlife while satisfying current 
environmental and regulatory requirement. Significant issues include 
the presence of additional endangered species including red-legged frog 
and steelhead, listing of the area as probable critical habitat for 
steelhead, and more extensive riparian habitat than were considered in 
1982.
    Until 1996, the Llagas Creek Project was funded through the 
traditional Public Law 566 Federal project funding agreement with the 
Natural Resources Conservation Service paying for channel improvements 
and the District paying local costs including utility relocation, 
bridge construction, and right of way acquisition. Due to the steady 
decrease in annual appropriations for the Public Law 566 construction 
program since 1990, the Llagas Creek Project had not received adequate 
funding to complete the Public Law 566 project. To remedy this 
situation, the District worked with congressional representatives to 
transfer the construction authority from the Department of Agriculture 
to the Corps under the Water Resources Development Act of 1999 (section 
501). Since the transfer of responsibility to the Corps, the District 
has been working with the Corps to complete the project. In November 
2007, Congress passed the Water Resources Development Act of 2007 
(Public Law 110-114, section 3022) revising the estimated total project 
cost for the remaining reaches of the project to $105 million with a 
Federal share of $65 million and a local share of $40 million. The bill 
language also directs the Corps to complete the construction of the 
project.
    Fiscal Year 2008 Funding.--Congress did not appropriate any funding 
to the project in fiscal year 2008.
    Fiscal Year 2009 Funding Recommendation.--Based upon the high risk 
of flood damage from Llagas Creek, it is requested that the 
congressional committee support an appropriation add-on of $1.8 million 
in fiscal year 2009 for planning, design, and environmental updates for 
the Llagas Creek Project.
             statement of support--guadalupe river project
    Background.--The Guadalupe River is a major waterway flowing 
through a highly developed area of San Jose, in Santa Clara County, 
California. A major flood would damage homes and businesses in the 
heart of Silicon Valley. Historically, the river has flooded downtown 
San Jose and the community of Alviso. According to the U.S. Army Corps 
of Engineers (Corps) 2000 Final General Reevaluation & Environmental 
Report for Proposed Project Modifications, estimated damages from a 1 
percent flood in the urban center of San Jose are over $576 million. 
The Guadalupe River overflowed in February 1986, January 1995, and 
March 1995, damaging homes and businesses in the St. John and Pleasant 
Street areas of downtown San Jose. In March 1995, heavy rains resulted 
in breakouts along the river that flooded approximately 300 homes and 
business.
    Project Synopsis.--In 1971, the local community requested that the 
Corps reactivate its earlier study. Since 1972, substantial technical 
and financial assistance have been provided by the local community 
through the Santa Clara Valley Water District in an effort to 
accelerate the project's completion. To date, more than $85.8 million 
in local funds have been spent on planning, design, land purchases, and 
construction in the Corps' project reach.
    The Guadalupe River Project received authorization for construction 
under the Water Resources Development Act of 1986; the General Design 
Memorandum was completed in 1992, the local cooperative agreement was 
executed in March 1992, the General Design Memorandum was revised in 
1993, construction of the first phase of the project was completed in 
August 1994, construction of the second phase was completed in August 
1996. Project construction was temporarily halted due to environmental 
concerns.
    To achieve a successful, long-term resolution to the issues of 
flood protection, environmental mitigation, avoidance of environmental 
effects, and project monitoring and maintenance costs, a multi-agency 
``Guadalupe Flood Control Project Collaborative'' was created in 1997. 
A key outcome of the collaborative process was the signing of the 
Dispute Resolution Memorandum in 1998, which modified the project to 
resolve major mitigation issues and allowed the project to proceed. The 
Energy and Water Development Appropriations Act of 2002 was signed into 
law on November 12, 2001. This authorized the modified Guadalupe River 
Project at a total cost of $226.8 million. Subsequent to the 
authorization, the project cost has been raised to $251 million. 
Construction of the last phase of flood protection was completed 
December 2004 and a completion celebration held in January 2005. The 
remaining construction consists of railroad bridge replacements and 
mitigation plantings. The overall construction of the project including 
the river park and the recreation elements is scheduled for completion 
in 2008.
    Fiscal Year 2008 Funding.--Congress appropriated $1.783 million for 
the project in fiscal year 2008.
    Fiscal Year 2009 Funding Recommendation.--It is requested that the 
congressional committee support an appropriation add-on of $10 million 
to continue construction of the final phase of the Guadalupe River 
Flood Protection Project.
          statement of support--upper guadalupe river project
    Background.--The Guadalupe River is one of two major waterways 
flowing through a highly urbanized area of Santa Clara County, 
California, the heart of Silicon Valley. Historically, the river has 
flooded the central district and southern areas of San Jose. According 
to the U.S. Army Corps of Engineers (Corps) 1998 feasibility study, 
severe flooding would result from a 100-year flooding event and 
potentially cause $280 million in damages.
    The probability of a large flood occurring before implementation of 
flood prevention measures is high. The upper Guadalupe River overflowed 
in March 1982, January 1983, February 1986, January 1995, March 1995, 
and February 1998, causing damage to several residences and businesses 
in the Alma Avenue and Willow Street areas. The 1995 floods in January 
and March, as well as in February 1998, closed Highway 87 and the 
parallel light-rail line, a major commute artery.
    Project Synopsis.--In 1971, the Santa Clara Valley Water District 
(District) requested the Corps reactivate an earlier study of the 
Guadalupe River. From 1971 to 1980, the Corps established the economic 
feasibility and Federal interest in the Guadalupe River only between 
Interstate 880 and Interstate 280. Following the 1982 and 1983 floods, 
the District requested that the Corps reopen its study of the upper 
Guadalupe River upstream of Interstate 280. The Corps completed a 
reconnaissance study in November 1989, which established an 
economically justifiable solution for flood protection in this reach. 
The report recommended proceeding to the feasibility study phase, which 
began in 1990 and was completed in 1998. Preconstruction Engineering 
and Design commenced in 1999 and currently several reaches are ready 
for construction.
    The Upper Guadalupe River Flood Protection Project was first 
authorized for Federal construction in the Water Resources Development 
Act of 1999 (section 101). This authorization was for a project cost of 
$140 million with an unfavorable cost-sharing formula. In November 
2007, Congress passed the Water Resources Development Act of 2007 
(Public Law 110-114, section 3037) for an estimated revised project 
cost of $256 million with a Federal share of $136.7 million and local 
share of $119.3 million.
    The project cooperation agreement was signed on July 21, 2007, and 
construction is planned to commence in July 2008.
    Fiscal Year 2008 Funding.--Congress appropriated $439,000 to the 
project in the fiscal year 2008.
    Fiscal Year 2009 Funding Recommendation.--It is requested that the 
congressional committee support an appropriation add-on of $12.5 
million in fiscal year 2009 to continue construction on the Upper 
Guadalupe River Flood Protection Project.
                                 ______
                                 
     Prepared Statement of the City of Los Angeles Board of Harbor 
                             Commissioners
    Chairman Dorgan and members of the subcommittee, thank you for the 
opportunity to submit testimony in support of full funding of the 
Channel Deepening Project at the Port of Los Angeles/Los Angeles 
Harbor, the largest and busiest container seaport in the United States 
and tenth largest in the world. Our testimony speaks in support of an 
fiscal year 2009 appropriation of $1.33 million for the final Federal 
share that will complete construction of the Channel Deepening Project. 
Proposed funding for the Channel Deepening Project was not included in 
the President's fiscal year 2009 budget. Construction of our Federal 
deep-draft navigation channels and ship berths is approximately 85 
percent complete. Your full appropriation of the requested $1.33 
million will enable the Army Corps of Engineers to finish construction 
of the remainder of the Project; the Corps has stated that it has the 
capability to fully obligate and spend this amount in fiscal year 2009. 
Dredging for the project began in early 2003 with construction 
originally scheduled for completion in 2006.
    The Port of Los Angeles is America's busiest seaport with record 
volumes of cargo moving through the 7,500-acre harbor. Its strong 
performance is attributed to a solid U.S. economy and the recovering 
Asian economies with a renewed manufacturing demand for American 
exports. The Port itself is a major reason for the remarkable cargo 
volumes. Its world-class facilities and infrastructure maximize the 
``one-stop shopping'' concept of cargo transportation and delivery 
favored by most shipping lines. Ocean carriers can send the majority of 
their west coast-bound cargo to Los Angeles with full confidence in the 
Port's modern cargo terminals and efficient train/truck intermodal 
network. The Channel Deepening Project is a critical Federal navigation 
improvement project, and is the underpinning of the ongoing confidence 
that shipping lines have in the Port of Los Angeles.
    In the fiscal year 2006 Energy and Water Development Appropriations 
Act, Congress authorized an increase in the total project cost to $222 
million from $194 million, representing a Federal share of $60.7 
million and a local share of $161.3 million in accordance with the Army 
Corps of Engineers' revision. This revision accounts for credits for 
in-kind services provided by the Port and other required project 
modifications, including adjustments for construction contract changes, 
adjustments to the disposal costs for the dredged material, and project 
administration costs. The cost-share amounts for the Channel Deepening 
Project is currently under review, as well as a Supplemental EIS/EIR 
that will evaluate and determine the best alternative for increased 
disposal capacity. Under consideration for placement of the remaining 
dredge material are the formation of additional lands for future Port 
development and environmental enhancements through the creation of 
improved submerged marine habitats. Upon completion of both reviews, 
the new cost-sharing amounts and the additional costs for disposal at 
the recommended site(s) will be established. The need for a 
Supplemental EIS/EIR has moved project completion to fiscal year 2009.
                        port navigation demands
    The evolving international shipping industry prompted a 
collaborative effort by the Port of Los Angeles and the Corps of 
Engineers to implement the Channel Deepening Project in the early 
1980s. With this project, the Port will deepen its main Federal channel 
and tributary channels by 8 feet, from -45 to -53 feet Mean Lower Low 
Water (MLLW), to accommodate the industry's shift to larger container 
vessels. The first of these deeper-draft ships began calling at the 
Port of Los Angeles in August of 2004, carrying 8,000 20-foot 
equivalent units of containers (TEUs) and drafting at -50 feet. 
Carriers are continuing to order these larger, post-Panamax vessels 
that range in size from 7,500 TEUs to 10,000 TEUs. These vessels are 
now in service in the international shipping trade and will continue to 
be delivered to shipping lines at a steady pace for the foreseeable 
future, which means that ports unable to accommodate the bigger ships 
will be left out of the surge in trade if they are unable to 
accommodate these vessels.
    As we have testified before, cargo throughput for the San Pedro Bay 
port complex, comprising the Ports of Los Angels and Long Beach--and 
the Port of Los Angeles in particular--has a tremendous impact on the 
U.S. economy. We at the Port of Los Angeles cannot overemphasize this 
fact. The ability of the Port to meet the spiraling demands of the 
steady growth in international trade is dependent upon the speedy 
construction of sufficiently deep navigation channels to accommodate 
the new containerships. These new ships provide greater efficiencies in 
cargo transportation, carrying one-third more cargo than most of the 
current fleet, and making more product inventory of imported goods 
available to American consumers at lower prices. In addition, exports 
from the United States have become more competitive in foreign markets. 
However, for American seaports to keep up, they must immediately make 
the necessary infrastructure improvements that will enable them to 
participate in this rapidly changing global trading arena.
    Mr. Chairman, as we have said before, these state-of-the-art 
container ships represent the new competitive requirements for 
international container shipping efficiencies in the 21st century, as 
evidenced by the increased volume of international commerce. As such, 
we ask your subcommittee to fully appropriate the $1.33 million for 
fiscal year 2009 that will enable the Army Corps of Engineers to 
complete construction of the Channel Deepening Project in fiscal year 
2009.
                           economic benefits
    The Port of Los Angeles is one of the world's largest trade 
gateways, and the scope of its economic contributions to the Southern 
California regional economy--and to the U.S. economy--is critically 
important. Currently, nearly 45 percent of containerized cargo entering 
the United States is handled at the San Pedro Bay port complex with the 
Port of Los Angeles, alone, handling a record 8.5 million TEUs just 
last year. This represents significant continued growth for any 
American seaport. The national economics of trade through the Port of 
Los Angeles is significant, touching every Congressional district in 
the country. Some 190 million metric revenue tons of cargo, valued at 
more than $238 billion, were handled at the Port in 2007, with $223 
billion in trade benefiting the national economy based on the $5.1 
billion it generated in State and local tax revenues.
    Locally, the Port is connected, directly or indirectly, with tens 
of billions of dollars in industry sales each year in Southern 
California. Those sales translate into hundreds of thousands of local 
jobs representing billions in wages, salaries, and tax revenues. 
Regional benefits from Port of Los Angeles trade include:
  --1.1 million jobs in California;
  --3.3 million permanent, well-paying jobs in the United States;
  --$89.2 billion in California trade value;
  --$223 billion in U.S. trade value;
  --$5.1 billion in State tax revenue; and
  --$21.5 billion in Federal tax revenue.
    This economic impact is a direct result of international waterborne 
trade flowing through the Port of Los Angeles. Clearly, the Channel 
Deepening Project is a commercial, Federal navigation project of 
tremendous national economic significance, and one that will yield 
exponential economic and environmental returns to the United States 
annually. Furthermore, the U.S. Customs Service reports that more than 
$12 million a day in customs duties are taken from the Port. The Los 
Angeles Customs District leads the Nation in total duties collected for 
maritime activities, collecting more than $6 billion in 2005 alone. The 
return on the Federal investment at the Port of Los Angeles is real and 
quantifiable, and we expect it to continue to surpass the cost-benefit 
ratio--as determined by the Army Corps of Engineers' project 
Feasibility Study--many times over.
    In closing, Federal investment in the Channel Deepening Project 
will ensure that the Port of Los Angeles, the Nation's busiest 
container seaport, remains at the forefront of the new international 
trade network well into this century. The Channel Deepening Project 
marks the second phase of the 2020 Infrastructure Development Plan that 
began with the Pier 400 Deep-Draft Navigation and Landfill Project. The 
Port of Los Angeles is moving forward with the 2020 Plan designed to 
meet the extraordinary infrastructure demands placed on it in the face 
of the continued high volume of international trade.
    Chairman Dorgan, the Port of Los Angeles respectfully urges your 
subcommittee to appropriate the full $1.33 million request for fiscal 
year 2009 that will enable the Army Corps of Engineers to complete 
construction of the Channel Deepening Project in fiscal year 2009.
    Thank you, Mr. Chairman, for the opportunity to submit this 
testimony for continued Congressional support of the Channel Deepening 
Project at the Port of Los Angeles. The Port has long valued the 
support of your subcommittee and its appreciation of the role the Port 
of Los Angeles plays in this country's economic strength and vitality.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 ______
                                 

                       DEPARTMENT OF THE INTERIOR

                         Bureau of Reclamation

   Prepared Statement of the Garrison Diversion Conservancy District
    Mr. Chairman, members of the subcommittee, my name is Dave Koland; 
I serve as the general manager of the Garrison Diversion Conservancy 
District. This is a request for a $102 million appropriation for the 
Pick-Sloan Missouri Basin Program/Garrison Diversion Unit, Bureau of 
Reclamation, Water and Related Resources, Department of the Interior. 
The mission of Garrison Diversion is to provide a reliable, high 
quality and affordable water supply to the areas of need in North 
Dakota. Over 77 percent of our State residents live within the 
boundaries of the district.
    The President's fiscal year 2009 budget request was pitifully 
inadequate in meeting the commitments the Federal Government has made 
to North Dakota. In return for accepting a permanent flood on 500,000 
acres of prime North Dakota river valley, the Federal Government 
promised the State and tribes that they would be compensated as the 
dams were built. The dams were completed over 50 years ago and still we 
wait for the promised compensation. At the rate of payment the 
President's budget proposes, the Federal Government will not even stay 
current with the indexing applied by law on their commitment to North 
Dakota.
    The Municipal Rural & Industrial (MR&I) program was started in 1986 
after the Garrison Diversion Unit (GDU) was reformulated from a 
million-acre irrigation project into a multipurpose project with 
emphasis on the development and delivery of municipal and rural water 
supplies. The statewide MR&I program has focused on providing grant 
funds for water systems that provide water service to previously 
unserved areas of the State. The State has followed a policy of 
developing a network of regional water systems throughout the State.
                      north dakota's success story
    Rural water systems are being constructed using a unique blend of 
local expertise, State financing, rural development loans and MR&I 
grant funds to provide an affordable rate structure; and the expertise 
of the Bureau of Reclamation (BOR) to deal with design and 
environmental issues. The projects are successful because they are 
driven by a local need to solve a water quantity or quality problem. 
The solution to the local problem is devised by the community being 
affected by the problem. The early, local buy-in helps propel the 
project through the tortuous pre-construction stages.
    The desperate need for clean, safe water is evidenced by the 
willingness of North Dakota's rural residents to pay water rates well 
above the rates EPA considers affordable. The EPA Economic Guidance 
Workbook states that rates greater than 1.5 percent of the median 
household income (MHI) are not only unaffordable, but also ``may be 
unreasonable''.
    The average monthly bill on a rural water system for 6,000 gallons 
of water is currently $59.21. The water rates in rural North Dakota 
would soar to astronomical levels without the 75 percent grant dollars 
provided by the MR&I program. For instance, current rates would have to 
average a truly unaffordable $134.19/month or a whopping 3.8 percent of 
the MHI. Rates would have ranged as high as $190.80/month or a 
prohibitive 5.3 percent of MHI without the assistance of the MR&I 
program.
               budget impacts on garrison diversion unit
    Let me begin by reviewing the various elements within the current 
budget request and then discuss the impacts that the current level of 
funding will have on the program.
    The President's budget request for fiscal year 2009 is $22.11 
million. This year, Garrison Diversion Conservancy District is asking 
Congress to appropriate a total of $102 million for the GDU. Attachment 
1 is a breakdown of the elements in Garrison Diversion's request. To 
discuss this in more detail, I must first explain that the GDU budget 
consists of several different program items. For ease of discussion, I 
would like to simplify the breakdown into three major categories. The 
first I would call the base operations portion of the budget request. 
This amount is nominally $18 million annually. However, as more Indian 
MR&I projects are completed, the operation and maintenance costs for 
these projects will increase and create a need that will need to be 
addressed.
    The second category of the budget is the MR&I program. This 
consists of both Indian and non-Indian funding. The Dakota Water 
Resources Act of 2000 authorized an additional $200 million for each of 
these MR&I programs. It is our intent that each program reaches the 
conclusion of the funding authorization at the same time. We believe 
this is only fair and have worked with the tribes toward this goal.
    The MR&I program consists of a number of projects that are 
independent of one another. They are generally in the $20 million 
category. Some are, of course, smaller and others somewhat larger; one 
that is considerably larger at $150 million is the Northwest Area Water 
Supply Project (NAWS). The first phase of that project is under 
construction. Several other projects have been approved for future 
funding and numerous projects on the reservations are ready to begin 
construction. These requests will all compete with one another for 
funding. It will be a delicate challenge to balance these projects. 
Nevertheless, we believe that once a project is started, it needs to be 
pursued vigorously to completion. If it is not, we simply run the cost 
up and increase the risk of incompatibility among the working parts.
    The third category of the budget is the Red River Valley Water 
Supply Project (RRVWSP) construction phase. The Dakota Water Resources 
Act of 2000 authorized $200 million for the construction of facilities 
to meet the water quality and quantity needs of the Red River Valley 
communities. Over 42 percent of North Dakota's citizens rely on the 
drought-prone Red River of the North as their primary or sole source of 
water. It is my belief that the final plans and authorizations could be 
expected in approximately 2 to 3 years. This will create a need for 
greater construction funding.
    This major project, once started, should also be pursued vigorously 
to completion. The reasons are the same as for the NAWS project and 
relate to good engineering and construction management. Although 
difficult to predict at this time, it is reasonable to plan that the 
RRVWSP features, once started, should be completed in approximately 3 
years. This creates the need for additional funding of $30 million/year 
starting in fiscal year 2011.
    Using these two projects as examples frames the argument for a 
steadily increasing budget. There is a need to accelerate the MR&I 
program now to assure the timely completion of the NAWS project and 
then to accommodate the need for additional construction funds when the 
RRVWSP construction is underway.
    It is simply good management to blend these needs to avoid drastic 
hills and valleys in the budget requests. By accelerating the 
construction of NAWS and tribal projects which are ready for 
construction during the next few years, some of the pressure will be 
off when the RRVWSP construction funding is needed. A smoother, more 
efficient construction funding program over time will be the result.
    It began with a $67 million budget in fiscal year 2008 and needs to 
gradually build to about $200 million when the RRVWSP construction 
could be in full swing (fiscal year 2011). Mr. Chairman, this is why we 
have supported a budget resolution that recognizes that a robust 
increase in the budget allocation is needed for the Bureau of 
Reclamation, Water and Related Resources Account in fiscal year 2009.
    The Bureau of Reclamation, Rural Development, Garrison Diversion 
Conservancy District, North Dakota State Water Commission and local 
rural water districts have formed a formidable alliance to deal with 
the lack of a high quality, reliable water source throughout much of 
North Dakota. This cost-effective partnership of local control, state-
wide guidance and Federal support has provided safe, clean, potable 
water to hundreds of communities and thousands of homes across North 
Dakota.
              attachment 1.--garrison diversion unit (gdu)
Justification for $102 million appropriation fiscal year 2009
    North Dakota's Municipal, Rural and Industrial (MR&I) water supply 
program funds construction projects State-wide under the joint 
administration of the Garrison Diversion Conservancy District (GDCD) 
and the State Water Commission (SWC).
    Northwest Area Water Supply Project (NAWS) is under construction 
after 18 years of study and diplomatic delay. Construction costs are 
estimated to be $150 million.
    Indian MR&I programs on four reservations are also under 
construction. Tribal and State leaders have agreed to split the MR&I 
allocation on a 50/50 basis.
    The SWC has advanced the MR&I program $21 million to allow 
construction to continue on several critical projects. One project is 
the $85 million South Central Regional Water District system currently 
under construction.

                        [In millions of dollars]
------------------------------------------------------------------------
                                                                  Amount
------------------------------------------------------------------------
OPERATION AND MAINTENANCE OF INDIAN MR&I SYSTEMS AND JAMESTOWN      5.61
 DAM (Provides for the O&M of the Tribal water systems and the
 Jamestown Dam.)...............................................
BREAKDOWN OF $96.39 MILLION CONSTRUCTION REQUEST:
    Operation and Maintenance of existing GDU system (Provides      5.24
     for the O&M of the Snake Creek Pumping Plant, McClusky and
     New Rockford Canals.).....................................
    Wildlife Mitigation & Natural Resources Trust (Provides for     3.96
     O&M of Arrowwood, Audubon, Kraft Slough, Lonetree and
     Canalside Lands.).........................................
    Red River Valley Water Supply (Provides for the work on the     0.22
     RRVWSP.)..................................................
    Indian and non-Indian MR&I (Provides funding for the State     84.00
     and tribal MR&I programs. Funding is split  50/50 between
     the two programs.)........................................
    Oakes Test Area and Miscellaneous (Provides for the O&M of      1.09
     the Oakes Test Area, Recreation Facilities, work for 28K
     unidentified acres.)......................................
    Standing Rock Irrigation (Provides for development on           1.88
     Standing Rock Reservation.)...............................
                                                                --------
      Total for Construction...................................    96.39
          Grand Total..........................................   102.00
------------------------------------------------------------------------

                                 ______
                                 
     Prepared Statement of the Irrigation and Electrical Districts 
                         Association of Arizona
    The Irrigation and Electrical Districts Association of Arizona 
(IEDA) is pleased to present written testimony regarding the fiscal 
year 2009 proposed budgets for the Bureau of Reclamation (Reclamation) 
and the Western Area Power Administration (Western).
    IEDA is an Arizona nonprofit association whose 25 members and 
associate members receive water from the Colorado River directly or 
through the facilities of the Central Arizona Project (CAP) and 
purchase hydropower from Federal facilities on the Colorado River 
either directly from Western or, in the case of the Boulder Canyon 
Project, from the Arizona Power Authority, the State agency that 
markets Arizona's share of power from Hoover Dam. IEDA was founded in 
1962 and continues to represent water and power interests of Arizona 
political subdivisions and their consumers.
                         bureau of reclamation
    IEDA has reviewed the testimony submitted by Susan Bitter Smith, 
the President of the Board of Directors of the Central Arizona Water 
Conservation District (CAWCD), the Arizona three-county special 
district charged with operation of the CAP. We support that testimony 
and urge the subcommittee to actively consider the suggestions made by 
President Smith. We are especially mindful that the Yuma Desalting 
Plant continues to remain underfunded and therefore not able to conduct 
the water conservation, water quality and water supply mission for 
which it was designed. The Yuma Desalting Plant is an integral element 
of the problem solving mechanisms being put in place for the Colorado 
River and especially the Lower Colorado River. Problem solving on the 
Lower Colorado River will be substantially impaired as long as the 
plant remains idle.
    We also wish to call to the subcommittee's attention the issue 
concerning increased security costs at Reclamation facilities post-9/
11. Legislation is pending before Congress addressing that issue and a 
budget approved for Reclamation for fiscal year 2009 should reflect the 
possibility that this legislation will become law and affect 
Reclamation operations in the next fiscal year.
                   western area power administration
    IEDA has reviewed the testimony submitted by Western's 
administrator, Tim Meeks. We note that both this subcommittee and the 
Senate Energy and Natural Resources Committee Water and Power 
Subcommittee have a concern, as did Administrator Meeks, over the $74 
million shortfall in construction funding proposed for fiscal year 
2009. We believe this shortfall is irresponsible. Western has over 
15,000 miles of transmission line for which it is responsible. It has 
on the order of 14,000 megawatts of generation being considered for 
construction that would depend on that Federal network. The existing 
transmission facilities cannot handle all of these proposals yet the 
region is projected, by all utilities operating in the region, to be 
short of available generation in the 10-year planning window utilities, 
including Western, use.
    Moreover, the $1,881,000 proposed for appropriation in this 
category cannot come even close to keeping existing transmission 
construction going. Repairs and replacements will have to be postponed 
and, considerable hardships to local utilities that depend on the 
Federal network are bound to occur. In Western's Desert Southwest 
Region, our region, over $20 million in work necessary just to maintain 
system reliability will have to be postponed.
    We would be the first to support additional customer financing of 
Federal facilities and expenses through the Contributed Funds Act 
authority under Reclamation law that is available to Western. However, 
programs utilizing non-Federal capital formation require years to 
develop. One such program being proposed by the Arizona Power Authority 
in a partnership with Western has been stuck in bureaucratic red tape 
at the Department of Energy for over 2 years. There is no way that 
Western customers can develop contracts, have them reviewed, gain 
approval of these contracts from Western and their governing bodies, 
find financing on Wall Street and have monies available for the next 
fiscal year. It is just impossible.
    There are impediments to using existing Federal laws in 
facilitating non-Federal financing of Federal facilities and repairs to 
Federal facilities and Congress should examine them. But dropping this 
bomb on us 9 months before the beginning of the fiscal year, when there 
just is not the time necessary to develop alternative capital 
formation, is bad public policy and should not be countenanced. We urge 
the subcommittee to restore a reasonable amount of construction funding 
to Western so it can continue to do its job in keeping its transmission 
systems functioning and completing the tasks that it has in the 
pipeline that are critical to its customers throughout the West.
                               conclusion
    Thank you for the opportunity to submit this written testimony. If 
we can provide any additional information or be of any other service to 
the subcommittee, please do not hesitate to get in touch with us.
                                 ______
                                 
Prepared Statement of the Oglala Sioux Rural Water Supply System, West 
 River/Lyman Jones Rural Water System, Rosebud Rural Water System, and 
                   the Lower Brule Rural Water System
                           mni wiconi project
Fiscal Year 2009 Request
    The Mni Wiconi Project beneficiaries respectfully request 
appropriations of $38.378 million for construction ($28.196 million) 
and operation and maintenance (OMR) activities ($10.182 million) for 
fiscal year 2009:

                        [In millions of dollars]
------------------------------------------------------------------------
                                                            Fiscal Year
                                                           2009 Request
------------------------------------------------------------------------
Construction............................................          28.196
OMR.....................................................          10.182
                                                         ---------------
      Total.............................................          38.378
------------------------------------------------------------------------

Construction Funds
    Construction funds would be utilized as follows:

------------------------------------------------------------------------
                      Project Area                            Amount
------------------------------------------------------------------------
Oglala Sioux Rural Water Supply System:
    Core................................................      $1,115,000
    Distribution........................................      14,775,000
West River/Lyman-Jones RWS..............................       5,133,000
Rosebud RWS.............................................       7,173,000
                                                         ---------------
      Total.............................................      28,196,000
------------------------------------------------------------------------

    As shown in the table below, the project will be 81 percent 
complete at the end of fiscal year 2008. Construction funds remaining 
to be spent after fiscal year 2008 will total $87.691 million within 
the current authorization (in October 2007 dollars). Extension of the 
project authorization from fiscal year 2008 through fiscal year 2013 
was accomplished by Public Law 110-161. Additional administrative and 
overhead costs of extending the project, additional construction costs, 
and accelerated inflation over the next 5 years are expected to 
increase project costs to $137.167 million after fiscal year 2008.

------------------------------------------------------------------------------------------------------------------------------------------------
Total Federal Construction Funding (Oct. 2007 dollars)..    $451,707,000
Estimated Federal Spent Through Fiscal Year 2008........    $364,016,000
Percent Spent through Fiscal Year 2008..................           80.59
Amount Remaining After 2008:
    Total Authorized (Oct. 2007 dollars)................     $87,691,000
    Overhead Adjustment for Extension to Fiscal Year        $109,851,000
     2013 and Other.....................................
    Adjustment for Annual Inflation.....................    $137,167,000
Completion Fiscal Year (Statutory Fiscal Year 2013;                 2013
 Public Law 110-161)....................................
Years to Complete.......................................               5
Average Annual Required for Finish......................     $27,433,000
------------------------------------------------------------------------

    Cost indexing over the last 5 years has averaged 7.89 percent for 
pipelines. Pipelines are the principal components yet to be completed 
(see chart below). Assuming an average 7.89 percent inflation in 
construction costs in the remaining 5 years to complete the project, 
average funding of $27.433 million is required. The President's budget 
of $16.24 million is grossly inadequate, departs significantly from 
recent budgets and threatens an undetermined delay in completing the 
project by 2013, the new date established by Congress in Public Law 
110-161 last year.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

Oglala Sioux Rural Water Supply System (OSRWSS)
            Core System
    The funding request will provide $1,115,000 for the OSRWSS core 
system. These funds will complete the project's transmission system 
that serves all sub-projects managed by separate entities, including 
the Pine Ridge Indian Reservation, Rosebud Indian Reservation, Lower 
Brule Indian Reservation and the 8-county service area of West River/
Lyman-Jones. Funds will be used to connect the northern portion with 
the southern portion of the transmission system and permit water 
delivery in either direction to accommodate a shutdown in the western 
part of the water transmission system.
    The completion of the OSRWSS core system is an historic milestone 
and permits greater focus in the remaining years of the project 
authorization on completion of the distribution systems.
            Distribution System
    The Pine Ridge Indian Reservation has not received water from the 
OSRWSS core system prior to fiscal year 2008. Over 40 percent of the 
project's population resides on the Pine Ridge Indian Reservation. The 
Reservation public has awaited delivery of project water from the 
Missouri River since 1994. Project funds in fiscal year 2009 will 
permit the completion of the on-Reservation transmission system between 
the connection with the OSRWSS core system (see discussion above) and 
the community of Kyle in the central portion of the Pine Ridge Indian 
Reservation. Delivery of Missouri River water at this location will 
allow distribution to OSRWSS project pipelines built earlier that serve 
the communities of Kyle, Sharps Corner, Rocky Ford, Red Shirt, 
Manderson, Evergreen and Porcupine and the large number of rural homes 
between the communities along these pipelines.
    The fiscal year 2009 request also funds additional on-Reservation 
transmission system that will advance the delivery of Missouri River 
water toward the largest community on the Reservation, Pine Ridge 
Village. Connection to Pine Ridge Village is scheduled in fiscal year 
2010. The request will connect the transmission system from Porcupine 
Butte to the community of Wounded Knee and serve rural homes south of 
Manderson. The request will fund an additional transmission system 
beyond Pine Ridge Village toward the community of Oglala and will 
connect with OSRWSS pipelines built in the early years of the project.
    As set forth above, the focus on the Pine Ridge Indian Reservation 
in fiscal year 2009 is to construct the transmission system that serves 
as the ``backbone'' of the project on the Reservation. This 
distribution system is now reliant upon groundwater exclusively. 
Groundwater will be retained where adequate and safe. Missouri River 
water will serve as a backup to groundwater supplies and as the sole 
supply in areas where groundwater is deficient.
    The Oglala Sioux Tribe is supportive of the funding request of 
other sponsors.
West River/Lyman-Jones Rural Water System
    Priority projects for the WR/LJ system include the Powell Area 
Project, service to new members within the system and distribution 
system storage. The Powell area, from Midland to Philip and from the 
Bad River to the Elbon service area, continues to be impacted by 
drought conditions that have persisted since 2001. Powell area users 
have patiently waited as the OSRWSS North Core pipeline was constructed 
through their area. With its completion their project area has a supply 
source from which distribution lines can be constructed.
    Projects in the Reliance area and Eastern Mellette County were 
constructed with emphasis on pipeline. Needed storage structures were 
deferred until additional funds were made available. Water use has 
increased each year since completion of these projects. Providing 
storage within those service areas increases system capability to meet 
peak demands and improves system reliability.
    The WR/LJ system receives new requests for service in completed 
project areas as stock ponds and wells go dry and as people move into 
those areas. Further additions are required as existing members request 
added connections to serve livestock in other locations. These 
additions are a demonstration of the need for this important project.
Rosebud Rural Water System (Sicangu Mni Wiconi)
    In fiscal year 2009 the Rosebud Sioux Tribe will complete the 
necessary infrastructure to supply surface water to portions of Todd 
County, which will reduce the need for summertime water restrictions 
that have resulted from overextending the interim groundwater supply. 
Work began on this series of projects in the summer of 2007 and the 
primary pipeline and pump stations will be completed in the summer of 
2008. The receiving reservoir at the end of this pipeline is partially 
funded with fiscal year 2008 funds as is the large diameter pipeline 
that will connect the town of Mission and eastern Todd County to the 
surface water supply. However, both of these projects require fiscal 
year 2009 funding for completion.
    Two additional projects are also scheduled for 2009. Phase I of the 
Old Rosebud project will replace corroded iron pipelines in the older 
portion of the Rosebud community with modern plastic pipe. This project 
is designed and ready to bid; however, to reduce costs and improve 
effectiveness, it is being bid and managed in conjunction with a Bureau 
of Indian Affairs street replacement project and an Indian Health 
Service sewer replacement project. Rural Development is also assisting 
with funding for the sewer work. By completing water, sewer and street 
improvements at the same time, the cost of excavation and reclamation 
for the water portion of the work is significantly reduced. Upgrading 
water and sewer lines concurrently with the paving project also 
prolongs the useful life of the new streets because the new pavement 
will not need to be disturbed (and then patched) to repair water main 
breaks.
    The other major project scheduled for 2009 will serve the rapidly 
growing Sicangu Village area. The existing wells and aquifer in this 
area are not capable of supplying the growing demands. A pipeline will 
connect the community to the existing well field several miles south of 
the town of Mission. Adequate capacity will be available in that well 
field after the Mission area is connected to the surface water supply.
    Other projects include a new well for the well field near St. 
Francis and the ongoing service line and connections installed by the 
tribal construction crew. The new well near St. Francis is needed 
because two of the existing wells currently run 24 hours a day during 
periods of peak demand in summer months. The third existing well does 
not have sufficient capacity to allow either of the two primary wells 
to recover. The St. Francis well field also supplies the Spring Creek 
and Grass Mountain areas.
Operation, Maintenance and Replacement Budget
    The sponsors have and will continue to work with Reclamation to 
ensure that their budgets are adequate to properly operate, maintain 
and replace (OMR) respective portions of the core and distribution 
systems. The sponsors will also continue to manage OMR expenses in a 
manner ensuring that the limited funds can best be balanced between 
construction and OMR. The project has been treating and delivering more 
water each year from the OSRWSS Water Treatment Plant near Fort Pierre. 
Completion of significant core and distribution pipelines has resulted 
in more deliveries to more communities and rural users. The need for 
sufficient funds to properly operate and maintain the functioning 
system throughout the project has grown as the project has now reached 
73 percent completion. The OMR budget must be adequate to keep pace 
with the system that is placed in operation. The administration's 
request for fiscal year 2009 is $9.374 million less than the 
administration's fiscal year 2008 request of $9.526 million despite the 
acknowledged increasing need for OMR funds.
    The supporting documentation for the Great Plains Region budget 
request prioritizes the OMR of the Tribal features of Mni Wiconi. 
However, it should be noted that the tribal features of Mni Wiconi do 
not participate in Reclamation's Replacement, Additions and 
Extraordinary (RAX) program for which $9.8 million has been requested 
by Reclamation for their non-tribal projects in the Great Plains 
Region. The tribal systems also have RAX needs.
    The Mni Wiconi Project tribal beneficiaries (as listed below) 
respectfully request appropriations for OMR in fiscal year 2009 in the 
amount of $10,182,000:

------------------------------------------------------------------------
                      Project Area                          OMR Amount
------------------------------------------------------------------------
Oglala Sioux Rural Water Supply System:
    Core................................................      $2,376,000
    Distribution........................................       2,808,000
Lower Brule.............................................       1,485,000
Rosebud RWS.............................................       2,121,000
Reclamation.............................................       1,392,000
                                                         ---------------
      Total.............................................      10,182,000
------------------------------------------------------------------------

                                 ______
                                 

                          DEPARTMENT OF ENERGY

    Prepared Statement of the National Congress of American Indians
    On behalf of the National Congress of American Indians, we are 
pleased to present testimony on the administration's fiscal year 2009 
budget request for transportation energy and water development 
programs. We look forward to working with this subcommittee to ensure 
that the critical programs and initiatives are funded at levels that 
will ensure their long term effectiveness.
                  tribal energy access and production
    The lack of access to energy resources and to participation in the 
energy market is still a persistent problem among Indian communities. 
According to the U.S. Census Bureau, 14.2 percent of reservation homes 
lack access to electricity, compared to the national average of less 
than 2 percent.\1\ When provided with innovative energy solutions, 
tribes are embracing them. For example, 350 Navajo Nation members 
recently began renting renewable energy units, which provide them with 
energy for the first time. Using wind technologies, members can power 
their televisions and a few lights. These improvements, while humble, 
can drastically improve the quality of life for Indian people.
---------------------------------------------------------------------------
    \1\ Energy Information Administration, Energy Use and Renewable 
Energy Development Potential on Indian Lands, 2000.
---------------------------------------------------------------------------
                     tribal water access and rights
    Water resources are, perhaps, the single most important natural 
resource that is at risk for tribes. Climate change and population 
growth forecasts place a large burden on rivers and reservoirs, 
especially in the west, and tribes play a key role in future management 
of these bodies of water. Tribes usually have priority water rights, 
but typically have not exercised their full rights. As water demands 
grow, more tribes will need to exercise their rights and work on 
developing water infrastructure for their communities. The current 
posture of requiring offsets in other Department of Interior programs 
to fund water settlements and projects is potentially harmful to tribal 
programs, and other sources must be utilized.
Specific Tribal Appropriations Requests; Energy & Water--Department of 
        Energy
    Title V--Indian Tribal Energy Development and Self-Determination 
Act Grants.--The Energy Policy Act of 2005 (Public Law 109-058) 
included Title V--Indian Tribal Energy Development and Self-
Determination Act of 2005, which authorized a competitive grant in the 
amount of $20 million from fiscal year 2006 to 2016 to assist Indian 
tribes in energy education, research and development, planning and 
management needs; and to provide a loan guarantee program to any Indian 
tribes for energy development. These initiatives have yet to be funded 
and again are not included in the President's request budget for the 
Department of Energy's fiscal year 2009.
  --NCAI recommends that the title V grants to Indian tribes be fully 
        funded in the amount of $20 million.
    Weatherization Assistance Programs.--The President proposed a 
significant decrease in funding for Indian programs in the Department 
of Energy. The administration proposes the elimination of the 
Weatherization Assistance Programs that provides weatherization 
assistance grants to Indian tribes for low-income and rural homes, and 
the training and technical assistance.
  --NCAI recommends that $22.7 million be made available in fiscal year 
        2009 for the Weatherization Assistance Programs, the same 
        amount appropriated for fiscal year 2008.
    Office of Indian Energy Policy and Programs.--The President 
requested a substantial decrease for tribal energy activities for 
fiscal year 2009, which would be funded at $1 million compared with 
$5.9 million in fiscal year 2008. The President also proposes no 
resources for the Office of Indian Energy Policy and Programs, which 
was authorized under the Energy Policy Act of 2005 but has never been 
funded. The Energy Policy Act of 2005 authorized this office to 
implement tribal energy initiatives and funding opportunities for 
Indian energy development and tribes have been fighting for even the 
most basic funding each year.
  --NCAI recommends that level funding of $5.9 million be made 
        available for fiscal year 2009 for the Office of Indian Energy 
        Policy and Programs (OIEPP).
    Renewable Energy Production Incentives.--Another program proposed 
for termination in the fiscal year 2009 President's budget is the 
Renewable Energy Production Incentive (REPI), which provides financial 
incentive payments to publicly owned utilities, not-for-profit electric 
cooperatives, and tribal governments and native corporations that own 
and operate qualifying facilities generating renewable energy. The 
justification for the elimination of REPI by the administration is the 
importance of this program has diminished over time due to reduced cost 
and competitiveness of renewable energy technology.
  --NCAI recommends that $8.5 million be made available for the 
        renewable energy and conservation programs and activities for 
        fiscal year 2009.
Bureau of Reclamation (Department of Interior)
    General--Tribal Water Projects and Settlements.--The Bureau of 
Reclamation (BOR) has a significant role in shaping the future of 
tribal water resources. Water rights settlements are often funded 
through BOR, as well as negotiated and implemented. However, the 
process is cumbersome and very tenuous as funding is often difficult to 
obtain. There are nearly 25 settlements nearing implementation that 
will need funding, and the current position of pushing it further down 
the timeline only increases the price. The budget committee needs to 
raise the ceiling.
  --NCAI recommends that the Bureau of Reclamation prioritize funds for 
        Indian water projects and water rights settlements.
    Reclamation Fund.--Tribes passed a resolution at the 2007 Annual 
NCAI Conference (No. DEN 07-069) that identifies the Reclamation Fund 
(Fund) as an appropriate vehicle for funding tribal water rights 
settlements. The Fund could be utilized as the primary source for 
funding settlements, which is desperately needed. The Fund was 
established in 1902 to fund water projects in the 17 western States, 
including on tribal lands. The Fund continues to have a growing 
balance, over $7 billion estimated in fiscal year 2007, with mineral 
development providing most of the increase.
  --NCAI recommends that the BOR Reclamation Fund be utilized as a 
        substantial source for tribal water projects and settlements.
Army Corps of Engineers (Department of Defense)
    Army Corps of Engineer projects can provide substantial 
opportunities for water infrastructure development in Indian Country. 
Specifically, the Water Resources Development Act authorizes municipal 
water supply and wastewater treatment projects. These projects are 
crucial for tribes, and funding needs to be increased to tribal 
projects. In the earlier part of this century when Congress invested 
heavily in Corps projects and WPA projects, Indian Country was often 
overlooked. Therefore, our infrastructure, particularly water 
infrastructure has usually never had even the most basic investment.
  --NCAI recommends a minimum of 10 percent of the civil works projects 
        that provide environmental infrastructure be set aside for 
        tribal specific projects.
                                 ______
                                 
  Prepared Statement of the Consortium for Fossil Fuel Science (CFFS)
production of transportation fuels from coal plus biomass with reduced 
                        carbon dioxide emissions
    Chairman Dorgan and members of the subcommittee, we request 
$2,000,000 in funding for a congressionally directed project in the 
budget of the Department of Energy in the Fuels Program of the Office 
of Fossil Energy, to continue a program of research to produce 
transportation fuels from coal plus biomass. This program, which was 
recently initiated with a $750,000 contract from the U.S. Department of 
Energy in fiscal year 2008, will focus on the conversion of coal plus 
waste biomass into ultra-clean transportation fuels by gasification and 
Fischer-Tropsch synthesis. This approach has the potential to minimize 
the amount of carbon dioxide emitted by the fuel conversion process to 
less than that produced by the production of similar transportation 
fuels from petroleum. Additionally, combustion of the biomass component 
of the carbon during fuel utilization in vehicles or planes will be 
carbon dioxide neutral.
Overview
    Traditional petroleum-derived fuels will continue to dominate 
transportation by vehicles and planes for at least the next 20 years. 
The United States currently imports over 10 million barrels of oil per 
day at a cost exceeding $470 billion/year, most of it from unstable 
regions of the world. Not only is this the biggest item in the U.S. 
trade deficit, it is also a serious threat to our national security. 
Increasing global demand, coupled with an expected peaking in the world 
oil supply, will undoubtedly cause shortages and markedly increased 
prices, possibly deepening the current economic recession and leading 
to more severe recessions in the future.
    It is therefore essential that we begin to produce transportation 
fuels from our own national resources, particularly our most abundant 
energy resource, coal. It is equally essential, however, that we do so 
without harming the environment. The Consortium for Fossil Fuel Science 
(CFFS), a research center of the University of Kentucky, has formed an 
integrated team of fossil fuel scientists from five universities 
(University of Kentucky, West Virginia University, Auburn University, 
University of Utah, and University of Pittsburgh) to conduct a basic 
research program focused on producing Fischer-Tropsch fuels using 
mixtures of coal and biomass as the feedstock. We believe that costs 
can be reduced, a superior transportation fuel can be produced, and 
carbon dioxide emissions can be minimized through such research.
    The CFFS has extensive experience and broad expertise in research 
on the conversion of coal into clean liquid transportation fuels and 
the conversion of coal into hydrogen. We have made significant 
breakthroughs in such areas as:
  --Catalysis of coal conversion reactions.
  --C1 chemistry processes, including Fischer-Tropsch (F-T) synthesis, 
        to produce transportation fuels from coal-derived syngas.
  --Conversion of coal and waste materials, including plastic, rubber, 
        and cellulose (biomass) into high value oil products.
  --Development of novel processes to produce hydrogen from fossil 
        fuels.
  --Environmental research focused on a number of pollutants derived 
        from coal (fine particulate matter (PM), toxic trace metals 
        (arsenic, chromium, mercury, etc.) and SO<INF>X</INF>).
    We are now focusing on a research program to develop processes that 
use biomass as a co-feed with coal for the production of clean 
transportation fuels with reduced carbon emissions. In this program, 
lignocellulosic waste materials will be used because they are not food 
feedstocks. Wood wastes and agricultural wastes (sawdust, bark, corn 
stover, etc.) will be emphasized because they reflect the lumber, 
paper, and farming industries in the CFFS States.
Goals
    Some of the research goals of the CFFS coal + biomass program are 
summarized below.
  --A pilot scale (3-30 lbs/hr) gasifier is under construction that 
        will be used to gasify coal + biomass feeds. It will be coupled 
        with a supercritical fluid (SCF) F-T synthesis reactor.
  --Biomass feedstocks (lignin, cellulose, hemicellulose, etc.) will be 
        reformed in supercritical water (SCW) to produce hydrogen for 
        F-T synthesis and fuel upgrading with no net carbon dioxide 
        emissions.
  --Iron-alloy nanoparticle catalysts will be used to dehydrogenate 
        gaseous alkanes produced by F-T synthesis, yielding pure 
        hydrogen to recycle to the coal + biomass syngas stream, 
        raising its hydrogen content to avoid carbon dioxide emissions 
        from the water-gas shift reaction.
  --A laboratory-scale fluid-bed gasifier will be designed and built to 
        convert coal + biomass into syngas with an adjustable 
        composition. Potassium and calcium will be tested as catalysts.
  --Novel catalysts (dual function catalysts, metallic nanoparticles on 
        carbon nanotube supports, xerogels, etc.) will be developed for 
        F-T synthesis using syngas typical of coal + biomass.
  --Systems engineering modeling will be used to optimize fuels 
        production from coal + biomass with regard to both economics 
        and carbon dioxide emissions.
Summary
    We request your support for $2,000,000 in funding for this program 
from the Fossil Energy budget for fiscal year 2009. This funding will 
be shared between the CFFS universities to support the second year of a 
3-year research program for the production of liquid transportation 
fuels from coal and biomass. The CFFS will provide $500,000 in cost-
sharing to support this important research on a topic that is critical 
to both our States and our Nation.
                                 ______
                                 
Prepared Statement of the National Research Center for Coal and Energy, 
                        West Virginia University
            fossil energy research and development programs
Summary
    The National Research Center for Coal and Energy submits this 
testimony in support of the Fossil Energy program and recommends the 
following modifications to the administration's budget request:
  --Carbon Capture and Storage (+$6 million for the Focus Area for 
        Carbon Sequestration Science)
  --Fuels Program (+$20 million for continuation of the coal, synthetic 
        natural gas, and coal-biomass liquid fuels programs)
  --Advanced Research (+$10 million to initiate a Focus Area for 
        Materials Science and +$5 million for the Focus Area for 
        Computational Energy Science)
  --Innovations for Existing Plants (+$10 million for criteria 
        pollutants and water programs)
  --Oil and Natural Gas Programs (+$30 million to restore programs for 
        small producers)
    We recommend a dual program strategy to Congress which includes 
supporting fundamental research for developing new concepts and also 
supporting larger scale projects to prove out and hasten the deployment 
of advanced technologies. A robust coal, oil, and natural gas research 
program is necessary if we are to meet our national energy needs.
Introduction
    Coal will continue to play a leading role in electrical power 
generation in the United States well into the future. Transforming coal 
into liquid fuels, synthetic natural gas, and/or chemicals can help to 
reduce petroleum imports, bring associated positive effects on our 
international balance of payments, and preserve jobs in this country. 
Concerns about the effect of greenhouse gases on global climate will 
require reducing emissions of CO<INF>2</INF> from all fossil fuel use. 
The successful deployment of cost-effective carbon capture and storage 
(CCS) technologies will ensure that America can continue to use its 
abundant domestic fossil fuel resources into the future. Given the 
projected global use of coal and other fossil fuels, leadership by the 
United States to implement low carbon emission technologies will set a 
positive example for the rest of the world. Deployment of U.S. owned 
low-carbon technologies would be an economic stimulus for developing 
new products that can be sold in global markets.
    Advanced low carbon fossil energy technologies will enable the 
world community to meet pressing environmental challenges driven by 
growing economies as both established and emerging nations are faced 
with diminishing resources. We recommend strong congressional support 
for fossil energy research, development, and technology deployment. We 
also call the subcommittee's attention to the critical shortage of 
energy technologists at all levels. We urge your support in particular 
for basic research in fossil energy that supports academic programs 
under which we can both develop breakthrough discoveries and also 
educate our future workforce of scientists and engineers to meet the 
challenges which face the energy sector.
Carbon Capture and Storage
    We recommend strong support for carbon storage research for 
injecting CO<INF>2</INF> into geologic formations. Given the variety of 
potential sinks, multiple projects are needed to prove out technologies 
such as injection into saline aquifers, depleted oil and natural gas 
reservoirs, and coal seams. States like West Virginia offer 
possibilities for demonstrating and deploying capture and storage 
technologies while offering opportunities for our State's coal 
resources to help meet electrical demands of the East Coast. We 
recommend congressional support for a diverse portfolio of investments 
in the National Energy Technology Laboratory (NETL) as the national 
center for carbon management research. NETL should also expand its 
programs on developing pre-and post-combustion CO<INF>2</INF> capture 
technology. Continued support for the collaborative research program 
with NETL and the Zero Emissions Technology Center is also recommended. 
Another promising area of research is to explore ways to utilize 
CO<INF>2</INF> in processes which do not require storage but result in 
useful products. In addition to supporting the base administration 
request, we recommend restoring the Focus Area for Carbon Sequestration 
Science to its fiscal year 2007 level of $13 million (+$6 million to 
administration request).
Fuels Program
    The administration request for fuels research includes only $10 
million for the development of hydrogen from coal. This program 
contributes to developing a national hydrogen economy. However, the 
administration program should also support projects which address the 
deployment of hydrogen technologies and the associated critical 
infrastructure issues. We need to demonstrate to the general public 
that hydrogen (from coal) is both economically viable and safe.
    We are also concerned that little attention is paid to developing 
transportation fuels, synthetic natural gas, and/or chemicals from 
alternative energy sources such as coal and coal-biomass blends. We 
recommend adding $20 million for continuation of the fuels programs 
added by Congress in fiscal year 2008. These funds would permit 
investments in fuels research to support programs such as the 
Consortium for Fossil Fuel Science and the Center for Advanced 
Separation Technology. These fundamental research programs educate coal 
chemistry and coal materials technologists who will be needed in the 
energy industry of the future as our aging scientists and engineers 
from the Synfuels Corporation era complete their careers. Other 
worthwhile investments which should be supported from these funds 
include the program conducted by the United States and China under 
Annex II of the Fossil Energy Collaborative Research Protocol to study 
the development of large scale coal liquefaction/carbon sequestration 
plants in China. Of the increased funding recommended, $1 million 
should be designated to continue the China program. Modest investments 
in the China program pay back big dividends in access to commercial-
scale results at a fraction of the cost of building such plants in the 
United States.
    We support the position that CCS must be integrated with the fuel 
production aspects of coal conversion technologies. Fundamental 
programs of research conducted with the additional funds recommended 
would develop new technologies that are cost effective with respect to 
both fuels production and CO<INF>2</INF> capture. Computational 
modeling, especially for polygeneration systems, should be an integral 
part of the work conducted under these programs.
Advanced Research
    Materials Research.--Advanced materials are needed in a variety of 
applications such as ultra supercritical power plants, high temperature 
gas-fired and hydrogen-fired turbines, sensor technology, catalysts for 
fuel conversion, high temperature materials for fuel cells, and new 
processes for carbon capture. We recommend the addition of $10 million 
to the Advanced Research account for the creation of a Focus Area for 
Materials Research at NETL to develop advanced materials for energy 
applications.
    Focus Area for Computational Energy Sciences.--Advanced computing 
capability enabled by newer, high speed computers and developments in 
computing science permit modeling of energy systems in scale ranges 
from molecular interactions to integrated operation of complex power 
plants. Given the high cost of testing and building large scale energy 
systems, computational modeling offers inexpensive advantages to design 
energy systems which will/must be deployed in the future. We are 
disappointed that the administration has again neglected this important 
area of research and recommend additional funding of $5 million for 
this account for fiscal year 2009.
Innovations for Existing Plants Program
    We support the request of the administration to provide increased 
funding to the Innovations for Existing Plants (IEP) program for CCS 
technologies. We are concerned however, that the administration request 
neglects other important areas such as particulate control, air toxics, 
combustion byproduct utilization, and research in technologies which 
minimize the use of water in energy systems. Continued research is 
needed in these areas in view of the new CAMR ruling calling for more 
stringent studies on mercury emissions. National concerns have arisen 
about the scarcity of water in many regions where electric power 
demands are increasing. We recommend an additional $10 million for the 
IEP program for these applications.
Oil and Natural Gas Programs
    The administration request zeros out funding for both the Oil and 
Natural Gas programs again this year. The core oil and natural gas 
programs under Fossil Energy are specifically authorized in Public Law 
109-58 (EPAct 2005). This authorization includes programs such as the 
Stripper Well Consortium, the Petroleum Technology Transfer Council, 
and the Enhanced Oil Recovery in Marginal Fields programs. All three of 
these programs are of major interest to areas such as Appalachia where 
small producers do not have sufficient funding or expertise to conduct 
research to recover the valuable resources remaining in the ground. 
These programs also support research which educates our geologists and 
petroleum engineers needed in the future to produce our existing 
resources and to manage our carbon storage programs for CO<INF>2</INF>. 
We recommend restoration of the Oil and Natural Gas program at NETL to 
a level of $30 million, which is considerably less than Congress 
provided in earlier times when we were not facing national economic 
challenges such as $118 per barrel oil and $4 dollar per gallon 
gasoline.
    Thank you for considering our testimony.
    Note.--Specific recommendations for the Consortium for Fossil Fuel 
Science ($2 million) were made in testimony submitted by Gerald 
Huffman. Roe-Hoan Yoon submitted testimony requesting support for the 
Center for Advanced Separations Technology ($3 million).
                                 ______
                                 
  Prepared Statement of the American Council for an Energy-Efficient 
                            Economy (ACEEE)
    The American Council for an Energy-Efficient Economy is an 
independent, non-profit organization dedicated to advancing energy 
efficiency to increase economic prosperity, enhance national security, 
and improve environmental quality. Founded in 1980, we are a leading 
source of unbiased information and policy analysis on energy 
efficiency.
    DOE's fiscal year 2009 budget request reflects a continuing decline 
in support for important energy efficiency programs at a time when 
expanded support for energy efficiency is needed more than ever to 
protect national energy security, save American jobs, control rising 
consumer bills, and stem air pollution and greenhouse gas emissions. 
For fiscal year 2009, the administration proposes to cut $204 million 
(29 percent) relative to the fiscal year 2008 appropriation. In order 
to better address many of America's energy needs, we recommend that the 
subcommittee increase funding for 11 especially high-priority programs 
for a total of $302 million above the administration's request but only 
$71 million above the fiscal year 2008 appropriation. These programs 
include several of DOE's most successful programs as well as a few new 
programs authorized in the Energy Independence and Security Act of 2007 
(EISA). Specific recommendations are described in the sections below.
                         buildings technologies
    Commercial Building Initiative.--CBI is a major new initiative 
established in EISA. The goal of the initiative is for all new 
commercial buildings to use zero energy on net by 2030 (i.e. they 
produce as much energy as they use) and all existing buildings to meet 
the same goal by 2050. These are very large savings that can have many 
positive impacts on the U.S. economy and environment. CBI combines 
research, development, and deployment, and will be run by DOE with 
input from an industry consortium. We recommend that funding of at 
least $20 million be appropriated for this important new program, an 
increase of $7 million relative to the Commercial Buildings Integration 
budget in DOE's request.
    Lighting and Appliance Standards.--DOE standards produce the 
greatest energy savings of any DOE program. DOE's analysis estimates 
that 12 standards to date have saved consumers about $25 billion, from 
a Federal investment of less than $10 million a year. DOE is under 
court order to complete many rulemakings that are years behind 
schedule, and also needs additional funding to address requirements 
added by EISA. The DOE request does not appear to address the new EISA 
requirements which include several new rulemakings, as well as new 
mandates to review and update existing test procedures and standards 
every 6 to 8 years. In order to address both old and new requirements, 
we recommend funding of $24 million for the standards program, an 
increase of $4 million relative to the fiscal year 2009 budget request 
but an increase of only $2 million relative to the fiscal year 2008 
appropriation. DOE should be permitted to spend a portion of this 
increase on staffing, as more DOE staff are needed to supervise 
increased contractor budgets made possible by the fiscal year 2008 
budget.
    Building Codes, Energy Star, and Residential Building 
Integration.--These are three of the most important programs at DOE and 
all three received significant funding increases in the fiscal year 
2009 request. We support these increases.
  --Many States are interested in revising their building codes as part 
        of efforts to save energy and address climate change. The DOE 
        codes program is an important source of funding for these 
        efforts. DOE is also supporting efforts by ASHRAE to reduce 
        permitted energy use in its model commercial building code by 
        30 percent.
  --The Energy Star program is probably the administration's most 
        effective climate change response program. Increased funding 
        will allow DOE to update existing specifications, expand the 
        program to several new products, and actively promote these 
        specifications in regions without significant State or utility 
        programs.
  --The Residential Building Integration program is the home of the 
        Building America program, a successful partnership with private 
        firms that is developing and promoting cost-effective design 
        approaches for reducing energy use of new homes by 40 percent 
        or more.
                        industrial technologies
    The 2009 request would cut the Industrial Technologies Program by 
$2.3 million, relative to fiscal year 2008, but much larger cuts in 
several very important programs are hidden in the budget details as is 
discussed below. The overall program activities are divided into two 
broad groupings: industry specific and cross cutting. We have 
identified several priorities in each of these areas.
    Industrial Assessment Centers.--The IAC is part of the cross-
cutting program budget. The IAC program helps small and medium 
industries identify and implement energy saving measures, while also 
helping to train the next generation of industrial energy engineers. 
The program operates centers at 31 universities nationwide and produces 
several hundred trained engineers annually while helping to reduce 
industrial energy use in small- and medium-sized facilities. This is 
one of DOE's most effective programs, and is presently saving more than 
$1 billion per year (including measures implemented in earlier years). 
The program should be substantially expanded in order to meet future 
needs for trained energy engineers--there is presently a shortage of 
skilled energy efficiency engineers. We recommend that the program be 
restored to fiscal year 2006 funding levels of $6.435 million in fiscal 
year 2009.
    Industries of the Future (Specific).--This program does cost-shared 
research with industry at major research institutions. The program 
focuses on key, energy-intensive manufacturing industries such as 
steel, aluminum, wood products, glass and metal casting. The most 
recent National Academy review found this to be among the most 
successful of Federal R&D efforts.\1\ In spite of this success, the 
program has seen its budget drop from $63 million in fiscal year 2002 
to $11 million in fiscal year 2008. DOE is proposing $11.4 million in 
fiscal year 2009, which may appear to be level funding, but in reality 
represents a further cut since most of the research funding is multi-
year, and funding from earlier years is now no longer being replaced 
and the pipeline is running dry. In EISA, Congress authorized an 
expanded Energy-Intensive Industries program (sec. 452), with an 
emphasis on industry-specific research in energy-intensive industries. 
This provision specifically authorized the successful industry-focused 
program format that has proven effective because it responds to the 
targeted needs of individual industries rather than to the more general 
and less focused topics covered under the cross-cutting program. To 
start implementing this new provision, we recommend fiscal year 2009 
funding of at least $24.2 million (which was the appropriation in 
fiscal year 2006), an increase of $12.8 million relative to the budget 
request.
---------------------------------------------------------------------------
    \1\ In 2005 the National Research Council reviewed DOE's Industrial 
Technology Program in their report Decreasing Energy Intensity in 
Manufacturing. The study characterized the program (at that point) as 
being ``well-managed and effective.'' In particular they indicated that 
the ``program's scope and depth of analysis and reporting are 
impressive. The ITP significantly leverages its resources through a 
large and growing number of partnerships with industry, industry 
associations, and academic institutions.'' Unfortunately, funding has 
been dramatically reduced since this evaluation, and a subsequent 
National Research Council report on DOE R&D, Prospective Evaluation of 
Applied Energy Research and Development at DOE (Phase Two) (2007), 
noted with respect to Chemical Industry research activities ``the 
budget decreased to $9 million in fiscal year 2005 and $7 million in 
fiscal year 2006. There is a clearly apparent contradiction between the 
ambitious goals of the program and the dwindling resources available to 
pursue them.''
---------------------------------------------------------------------------
    Distributed Energy (DE).--Over the past decade these efforts have 
played a key role in the development of high-efficiency clean 
technologies like combined heat and power (CHP) and technologies to 
recycle waste energy. Over the past few years these efforts have been 
shuffled between EERE and the Office of Electricity, and the program 
has received no funding for the past year. For fiscal year 2008, 
Congress provided $14.5 million, but DOE's fiscal year 2009 request is 
for only $1.5 million. The program is now part of the cross-cutting 
effort in the Industry program. We recommend the DE activities be 
funded at an overall level of no less than $20 million, an increase of 
$5.5 million relative to the fiscal year 2008 appropriation.
    Industries of the Future (Cross-Cutting).--The remainder of the 
industrial program budget request falls within the category of cross-
cutting programs. This includes the Industrial Assessment Centers and 
the Distributed Generation program discussed above. In addition, this 
program includes Best Practices and cross-cutting R&D, each of which we 
discus below.
  --Best Practices.--The OMB request proposes to increase the best 
        practices area from $8.8 to $15.5 million, though this 
        represents only a partial restoration of funding that was $19.8 
        million in fiscal year 2007. This increased funding will allow 
        the expansion of the successful Save Energy Now program, one of 
        the most successful energy savings programs undertaken at the 
        Federal level (e.g. savings underway of approximately $288 
        million since program inception in 2006). We recommend that the 
        program be funded at the requested level of $15.5 million.
  --Cross Cutting RD&D.--These activities are primarily for R&D on 
        technologies that benefit many industrial sectors, such as work 
        on sensors and controls. In addition, DOE is now proposing a 
        number of new efforts in energy-intensive process R&D, feed 
        stock flexibility and nanomanufacturing, and expanding the 
        industry focus to include datacenters and food processing. 
        While these are potentially worthy areas of efforts, DOE is 
        essentially proposing to fund these efforts by further cuts to 
        the successful industry-specific IOF efforts. In addition, EPA 
        has already been running a datacenter program for several 
        years, and a new DOE effort is potentially duplicative. If 
        budgets are tight, funding for these cross-cutting RD&D can be 
        reduced to fiscal year 2008 levels in order to free up funds 
        for our higher priorities discussed above.
                          vehicle technologies
    Despite the nominal increase of $8 million in the Vehicle 
Technologies Program budget, proposed funding for this work has 
actually declined because elements of the Hydrogen Technology budget 
have been moved into Vehicle Technologies. In fiscal year 2008, Vehicle 
and Hydrogen Technologies together received $424.1 million. The fiscal 
year 2009 request cuts these combined budgets by $56.7 million. The 
proposed transferal, elimination or postponement of certain activities 
in the Hydrogen Technology Program appears reasonable in many cases, 
and in particular begins to rectify disproportionate allocations in 
prior years to hydrogen and fuel cells relative to other vehicle and 
fuel technologies. However, given the great opportunities and needs at 
present in the area of vehicle efficiency and greenhouse gas reduction, 
it is imprudent to simply eliminate funds from this program, rather 
than transferring some of the funds to underfunded areas in Vehicle 
Technologies. In the fiscal year 2009, DOE proposes to cut a variety of 
important vehicle programs: Hybrid Electric Systems declines by $5.8 
million (6 percent, net of the Technology Validation activity 
transferred from the Hydrogen Technology Program), Technology 
Integration by $2.2 million (13 percent), Advanced Combustion loses $11 
million (25 percent), Materials Technology loses $2.7 million (7 
percent), and Fuels Technology loses $1.7 million (10 percent), 
relative to fiscal year 2008 appropriations. Also, funding for the 21st 
Century Truck Partnership declines in the budget proposal, for a total 
40 percent reduction since fiscal year 2007. We recommend that some of 
these cuts be restored by adding $37 million to the fiscal year 2009 
request, which is still a cut of about $20 million relative to the 
combined fiscal year 2008 Vehicle and Hydrogen budgets.
    Hybrid Electric Systems.--The proposed reduction in the Vehicle and 
Systems Simulation and Testing activity relates in part to heavy 
vehicle systems optimization R&D, which warrants greater attention. We 
recommend that $7.1 million be restored to Vehicle and Systems 
Simulation and Testing, bringing funding for this activity back to 
$28.2 million. Furthermore, energy storage efforts need to be 
accelerated. We recommend that the Energy Storage R&D activity be 
funded at $59.5 million, an increase of $10 million above the proposed 
budget.
    Advanced Combustion Engine R&D.--The explanation offered for the 
proposed cut, namely that resources should go to ``R&D that has a 
higher potential for oil savings'' is not persuasive given the 
considerable remaining opportunities in this area for both light- and 
heavy-duty engines. We recommend that Combustion and Emissions Control 
be funded at $38.8 million, restoring $10 million to this activity.
    Materials Technology.--Reaching DOE's stated goal of a 50 percent 
reduction in the weight of body and chassis for a passenger vehicle 
will require a sustained effort, including continued exploration of 
``high-risk concepts'', as referenced in DOE's budget explanation. We 
recommend funding of $30 million for Lightweight Materials Technology, 
which restores $2.9 million cut in the budget and adds a further $7.7 
million.
                            other priorities
    Weatherization Assistance Program.--This program has steadily 
improved, and according to the last nationwide evaluation of the 
program, is reducing energy use in participating homes by about 20 
percent. DOE has proposed to eliminate this program, in order to save 
money. With the economy heading into a recession, this is a 
particularly bad time to cut our country's safety net. We recommend 
funding this program at least at the fiscal year 2008 level of $227 
million.
    Energy Information Administration Energy Consumption Surveys.--
EIA's Energy Consumption surveys are an important resource for energy 
analysis and energy program planning. These three surveys (residential, 
commercial and manufacturing) are widely used and provide important 
information for accurate forecasting and planning. Unfortunately, due 
to declining funding, sample sizes are smaller (making regional data 
less precise) and the surveys are now every 4 years, instead of the 
every 3 years called for in the Energy Policy Act of 1992. In fiscal 
year 2008, the consumption surveys have a $3.6 million budget. We 
recommend that $2 million be added to the EIA request in order to 
return to the every 3 year schedule, increase sample sizes and speed up 
processing of surveys so they can be released more quickly.
                                 ______
                                 
 Prepared Statement of the Next Generation Nuclear Plant Working Group
    The United States must successfully compete in today's global 
marketplace to provide opportunities for all of its citizens and future 
generations. Two of the major issues affecting our competitiveness are 
the lack of energy security and our major contributions to the global 
greenhouse gas (GHG) inventory. The first issue is economic and costs 
the U.S. taxpayers several billion USD daily. Additionally, innumerable 
jobs in industries that depend on reasonably priced and abundant fossil 
feedstock continue to move offshore. The second is more subtle. Our GHG 
emissions cost us in terms of international reputation and accelerate 
the adverse effects of global climate change. We must become much more 
efficient in our use of energy, but this step is not sufficient to 
address the critical issues to keep our economy strong. We must 
aggressively pursue technological solutions that provide energy for all 
sectors of our economy in an environmentally responsible manner. One of 
the technologies that can address both of these critical issues 
utilizes a proven energy source, nuclear fission, for a broad range of 
applications beyond its traditional role of generating electricity.
    The Next Generation Nuclear Plant (NGNP) Project provides the basis 
for the commercialization of this technology in the form of a new 
generation of advanced, passively safe, modular nuclear plants that use 
High Temperature Gas-Cooled Reactor (HTGR) technology. This technology 
offers enhanced safety plus improved reliability, higher efficiency 
(requiring less fuel and cooling water), proliferation resistance, 
security and waste management capabilities. Further, at current and 
projected natural gas prices and costs for CO<INF>2</INF> management, 
the HTGR will be competitive for a broad range of applications, 
including:
  --High efficiency electricity generation for small to medium markets, 
        particularly if suitable for cogeneration with water 
        desalination or dry cooling;
  --High quality steam for use in heavy oil recovery, including tar 
        sands, or the broad range of process steam/cogeneration based 
        industries;
  --High temperature process heat for industrial chemical and 
        petrochemical facilities, preserving natural gas for feedstock; 
        and
  --High temperature process heat for hydrogen production and 
        cogeneration for the petrochemical and refinery industries plus 
        the clean conversion of coal to liquid and gaseous fuels or the 
        direct use of hydrogen transportation fuel in the future.
    Advanced HTGR plants can help improve U.S. industrial 
competitiveness, promote the utilization of indigenous coal and 
uranium, and eventually, our oil shale resources. Their use will extend 
domestic oil and gas resources and preserve them for feedstock for 
products that would otherwise be unattainable, thereby reducing costs 
and risks associated with imported oil and natural gas.
    The NGNP Project is essential to demonstrate the commercial 
potential of the HTGR and support timely NRC Design Certification and 
commercialization. An industry based Consortium is being created to 
support the public/private partnership with the Department of Energy to 
focus the development and deployment of the NGNP and help provide the 
infrastructure for follow-on commercialization. A cost/risk sharing 
model between the U.S. Government and industry will assure a new 
commercialization phase for nuclear energy for production of process 
heat and cogeneration without carbon emissions--at the lowest costs and 
risks for the U.S. taxpayers.
    With a balanced approach to risk management and timeliness to 
attract end-user support, the recommended NGNP Project schedule targets 
startup of the demonstration plant in the 2018-2019 timeframe. Near-
term priorities in support of this date follow:
  --Establish reference design and baseline costs
  --Advance licensing strategy and pre-application program with the NRC
  --Advance critical-path enabling technology development and testing
  --Establish Public-Private Partnership and costs/risks sharing 
        concept
  --Establish Project plan, vendor team and international cooperation 
        frameworks
    During the past year significant technical progress and milestones 
have been achieved in the following key areas of the NGNP Project: 
preliminary design evaluations for the competing concepts, including 
trade-off studies to resolve critical issues and establish technology 
development needs; licensing strategy development, technology 
development including fuel manufacturing process development and 
testing; and, bounding cost estimates.
    For fiscal year 2009, the NGNP Alliance recommends a NGNP Project 
budget of $210 million (versus the DOE budget of $59.5 million) plus a 
$28 million budget for the related Nuclear Hydrogen Initiative (versus 
the DOE budget of $16 million). The working group also recommends a 
budget of $10 million for NRC licensing and required R&D activities 
related to the NGNP Project. A licensing framework and a process 
appropriate for the enhanced safety features of the HTGR is essential 
and is a critical path to the deployment of the NGNP Project.
                                 ______
                                 
     Prepared Statement of the New York State Energy Research and 
 Development Authority and the New York State Division of Housing and 
                           Community Renewal
    The New York State Energy Research and Development Authority 
(NYSERDA) and the New York State Division of Housing and Community 
Renewal (NYSDHCR) welcome the opportunity to present this testimony to 
the Subcommittee on Energy and Water Development, and look forward to 
working with the subcommittee to ensure the most appropriate and 
effective Federal funding of essential programs and operations. This 
testimony will address proposed funding of two Department of Energy 
programs which are issues of concern to NYSERDA, namely funding for the 
West Valley Demonstration Project (West Valley, Project), identified 
for funding from the Non-Defense Environmental Cleanup Program at $57 
million, and the State Energy Program (SEP), identified for funding at 
$59 million. In addition, this testimony addresses one program of 
particular importance to NYSDHCR, the Weatherization Assistance Program 
(WAP), funding for which was cut completely in the President's proposed 
fiscal year 2009 budget proposal. NYSDHCR asks that funding for this 
program be restored to at least fiscal year 2008 levels of $243 
million.
                              west valley
    The State of New York and NYSERDA are extremely concerned about the 
proposed cut in Federal funding to the West Valley Demonstration 
Project, a radioactive waste cleanup project located near Buffalo, New 
York. The President's budget for fiscal year 2009 would provide only 
$57 million for activities of the Department of Energy at West Valley. 
The State strongly urges full funding of the West Valley Demonstration 
Project at the level of $95 million.
    Federal funding had been more than $100 million as recently as 
2004, but had been reduced to $75 million in recent years. The proposed 
cuts will result in lengthening the term of the cleanup and ultimately 
only increase the total project costs. Moreover, as will be discussed 
below, important risk reduction work that has been agreed upon between 
the State and Federal governments will not be funded in 2009 and as 
many as 50 trained workers will have to be laid off.
    The Federal funding responsibility for this project was established 
in 1980, when Congress passed the West Valley Demonstration Project 
Act, Public Law 96-368. The West Valley Demonstration Project Act 
directed the U.S. Department of Energy to carry out a high-level 
radioactive waste (HLW) management demonstration project at the Western 
New York Nuclear Service Center in West Valley, New York. The WVDP Act 
directs the Department of Energy to:
  --Solidify the 600,000+ gallons of liquid high-level radioactive 
        waste.
  --Develop containers for permanent disposal of the solidified HLW.
  --Transport the solidified HLW to a Federal repository for permanent 
        disposal.
  --Decontaminate and decommission:
    --the tanks and other facilities in which the HLW were stored,
    --the facilities used in carrying out solidification, and
    --the material and hardware used in connection with the Project.
  --Dispose of the low-level radioactive waste and transuranic waste 
        produced in conducting the Project.
    The West Valley Demonstration Project Act requires the Secretary of 
Energy to enter into an agreement with New York State for carrying out 
the Project. Under the requirements of the act, New York State pays 10 
percent of the Project costs and the Federal Government pays 90 
percent, making New York the only State that has contributed to the 
cleanup of HLW. New York State has provided approximately $242 million 
toward completion of the Project to date.
    Decontamination and decommissioning of the West Valley site is 
necessary to protect public health and safety. The Department of Energy 
has solidified the bulk of the liquid high-level nuclear waste that was 
stored in underground tanks. A total of 275 HLW glass-filled canisters 
are in storage at West Valley awaiting disposal at the Federal 
repository. However, much cleanup work remains to be done on the site's 
contaminated facilities and property, including the decommissioning of 
the four underground HLW storage tanks, the Main Plant Process 
Building, an unlined lagoon system, a radioactive groundwater 
contamination plume, and a radioactive waste disposal area. The 
Department of Energy must also dispose of the low-level waste, the 
transuranic waste, and the vitrified High-Level Waste.
    Until recently, progress on significant aspects of the West Valley 
cleanup had stalled. The Department of Energy ceased efforts to contain 
a radioactive groundwater plume and refused to take steps to halt the 
spread of liquids leaking from a radioactive waste disposal area under 
its control. The Environmental Impact Statement that is essential for 
decisions on the future of the cleanup was also stalled. In the past 
year, there have been some substantial and encouraging changes at West 
Valley. Agreements have been reached on steps to control the 
groundwater plume and disposal area leaks, and the involved Federal and 
State agencies have agreed on an approach to complete the Environmental 
Impact Statement.
    Unfortunately, this progress is threatened by the lack of adequate 
funding. For fiscal year 2009, Federal funding at about $95 million is 
necessary to continue decontamination work on the highly radioactive 
Main Plant Process Building, remove liquid from the underground high-
level radioactive waste tanks, mitigate radioactive groundwater 
contamination that is spreading toward the Project boundary, and ship 
waste for offsite disposal. In the absence of this level of funding, 
important work to reduce risk from radioactive materials at the site 
will not get done this year and up to 50 members of the highly trained 
workforce at the site will have to be laid off. For each year that work 
is delayed, the time until completion and the total cost of the Project 
are increased.
    For the reasons stated above, New York State and NYSERDA request a 
restoration of funding for West Valley to $95 million to permit the 
important work at the Project to continue at an optimal pace.
                          state energy program
    The State of New York and NYSERDA are concerned about the proposed 
level of Federal funding for the State Energy Program, at $59 million, 
and request that a funding level of $75 million for fiscal year 2009 is 
provided to support this essential program. This funding level request 
is made in support of the request of the Coalition of Northeastern 
Governors (CONEG), which is also submitted to the subcommittee. The $75 
million level will help to restore a funding level for SEP which has 
experienced significant cuts in program budgets in the past. As noted 
in both the CONEG testimony, and by the Department of Energy itself, 
every Federal dollar invested by the SEP returns $7.23 in energy cost 
savings. In addition, every Federal dollar invested by the SEP also 
leverages $10.71 in State, local and private resources, providing 
significant additional economic benefit.
    In New York, SEP program dollars are used by NYSERDA to support the 
deployment of various energy efficiency programs and services. NYSERDA 
leverages SEP funds with the State ratepayer-supported System Benefits 
Charge and other private sector funds. Most importantly, SEP provides 
essential funding for programs which reach across the spectrum of fuel 
sectors, helps to fill program gaps, and expands the reach of critical 
energy efficiency activities to customer sectors which may otherwise be 
limited from full program participation. In addition to reducing 
overall energy use in New York, the SEP supports activities that 
improve productivity, stimulate private investment, retain and create 
jobs, displace petroleum use, reduce electric peak load, and improve 
air quality, among other benefits.
    Activities supported by SEP dollars include:
  --NYSERDA's award-winning Flexible Technical Assistance Program, 
        which provides onsite energy engineering services through 
        competitively retained energy service providers.
  --Multifamily Residential energy efficiency program which provides 
        energy audits, evaluations and access to loan fund dollars 
        which reduces the cost to building owners to implement energy 
        efficient technologies.
  --Agricultural Initiatives.
  --Green Building Projects.
  --Alternative Fuel Vehicles and Alternative Fuel Infrastructure.
  --Industrial Improvements.
  --Expansion of the Home Energy Assistance Program heating oil 
        purchasing program, providing participating low-income energy 
        consumers with discounts on heating oil purchases.
    Obtaining an optimal level of SEP funding will help to ensure the 
continuation of these critical program activities.
    For the reasons stated above, New York State and NYSERDA request a 
restoration of funding for SEP to $75 million to permit the important 
energy efficiency programs in New York to continue and expand at a pace 
needed to meet energy consumer needs.
                   weatherization assistance program
    The Weatherization Assistance Program (WAP) improves the energy 
efficiency of low-income homes every year, helping to reduce the home 
energy bills of the Nation's most vulnerable citizens by 25 percent or 
more. The New York State Division of Housing and Community Renewal 
(NYSDHCR) is very concerned about President Bush's decision to 
eliminate funding for the program for fiscal year 2009. If the 
President's cut is sustained, the State program will lose $21.8 
million. The State of New York relies on this funding to help assist 
its low-income families. With oil prices at record levels, and cuts to 
LIHEAP proposed, these cuts would be devastating to low-income families 
and seniors in New York. Currently, we have waiting lists for this 
assistance in excess of 18 months. NYSDHCR asks that Congress work 
toward funding this program at its fully authorized level.
    In conclusion, and as stated herein, NYSERDA and NYSDHCR 
respectfully requests that the Senate provide, for fiscal year 2009, 
$95 million for West Valley, $75 million for SEP, and at least $243 
million for WAP. NYSERDA and NYSDHCR look forward to working with the 
subcommittee to ensure that these program funding levels are provided 
to ensure that essential energy projects are maintained.
                                 ______
                                 
     Prepared Statement of the Biomass Energy Research Association
                                summary
    This testimony pertains to the fiscal year 2009 appropriations for 
biomass energy research, development, and demonstration (RD&D) 
conducted by the Department of Energy's (DOE) Office of Energy 
Efficiency and Renewable Energy (EERE), Biomass Program. This RD&D is 
funded by the Energy and Water Development bill and performed under the 
heading of Energy Supply and Conservation, Energy Efficiency and 
Renewable Energy.
    BERA recommends a total appropriation of $275 million in fiscal 
year 2009 under Biomass and Biorefinery Systems R&D (Energy Supply and 
Energy Conservation), exclusive of earmarks. This is an increase of 
about $50 million over the Department of Energy request for fiscal year 
2009 for this programmatic area.
    We feel this increase is necessary to meet goals for production of 
fuels from cellulosic biomass as stipulated under the Energy 
Independence and Security Act (EISA) of 2007. While the proposed DOE 
Bioenergy budget is an increase of $27 million over the 
administration's fiscal year 2008 proposed budget, it reflects a 
decrease of $49 million from the DOE Biomass Program's authorized level 
of (sec. 932) $274 million, and reducing funds available for important 
Integrated Biorefinery Demonstration Projects (sec. 932(d)). Technology 
demonstrations reduce technical and economic risk and accelerate the 
potential for private investment. They are critical for reaching goals 
for biofuels production for 2022 and beyond.
    Specific lines items for the DOE biomass RD&D budget are as 
follows:
  --$20 million for Feedstock Infrastructure development (regional 
        partnerships, harvesting and storage technology)
  --$35 million for Biochemical Conversion Platform Technology 
        (conversion of agricultural residues, wood, forest residues and 
        perennial crops to various fuels)
  --$35 million for Thermochemical Conversion Platform Technology 
        (conversion of plants, oil crops, energy crops, wood and forest 
        resources to oils, long chain hydrocarbons, or other fuels/
        intermediates)
  --$175 million for Integrated Biorefinery Technologies demonstrations
  --$10 million for Utilization of Platform Outputs: Bioproducts 
        (chemicals and materials as co-products)
                               background
    On behalf of BERA's members, we would like to thank you, Mr. 
Chairman, for the opportunity to present the recommendations of BERA's 
Board of Directors for the high-priority programs that we strongly urge 
be continued or started. BERA is a non-profit association based in the 
Washington, DC area. It was founded in 1982 by researchers and private 
organizations conducting biomass research. Our objectives are to 
promote education and research on the economic production of energy and 
fuels from freshly harvested and waste biomass, and to serve as a 
source of information on biomass RD&D policies and programs. BERA does 
not solicit or accept Federal funding.
    There is a growing realization in our country that we need to 
diversify our energy supply, develop technologies to utilize indigenous 
and renewable resources, reduce reliance on imported oil, and mitigate 
the impacts of energy on climate. Economic growth is fueling increasing 
energy demand worldwide and placing considerable pressure on already 
burdened energy supplies and the environment. The import of oil and 
other fuels into the United States is growing steadily and shows no 
sign of abating. Industry and consumers alike are faced with rapidly 
rising and volatile costs for fossil fuels, especially petroleum and 
natural gas. A diversified, sustainable energy supply is critical to 
meeting our energy challenges and maintaining a healthy economy with a 
competitive edge in global markets.
    Biomass is the single renewable resource with the ability to 
directly replace liquid transportation fuels. It can also be used as a 
feedstock to supplement the production of chemicals, plastics, and 
other materials that are now produced from crude oil. In addition, 
gasification of biomass produces a syngas that can be utilized to 
supplement the natural gas supply and electricity from fossil fuels. 
Production of power from biomass co-products for use in biorefinery 
processes greatly reduces the life cycle carbon footprint of biofuels. 
Fuels, chemicals, and power are already being produced from biomass, 
but on a small scale compared to the potential markets. While biomass 
will not solve all our energy challenges, it can certainly contribute 
to the diversity of our supply, and do so in a sustainable way, while 
minimizing impacts to the environment or climate.
    The Energy Policy Act of 2005 created various incentives for 
diversifying our energy supply via the use of biofuels. In addition, 
the Energy Independence and Security Act (EISA) of 2007 put forth a 
mandate to increase use of alternative fuels for transportation, with a 
substantial portion to come from cellulosic biomass. To meet the 
ambitious goals of EISA will require aggressive support for RD&D to 
move technology forward and reduce technical and economic risk. 
Incentives are also needed to accelerate commercialization and 
deployment.
             bera recommendations for u.s. doe biomass rd&d
    BERA's recommendations support a balanced program of RD&D, 
including projects to develop and demonstrate advanced biochemical and 
thermochemical biomass conversion processes, a diverse slate of liquid 
transportation fuels, and co-production of fuels, chemicals, and power 
in integrated biorefineries. Our overarching recommendations are to:
  --Invest in demonstration of technology (as progress is made) to 
        reduce risk (e.g., through loan guarantees, cost-shared 
        projects, other mechanisms) and encourage private sector 
        investment and commercialization.
  --Explore a variety of fuels beyond ethanol, including green diesel, 
        green gasoline, jet fuels, algae diesel, pyrolysis oils, mixed 
        alcohols, and others. Include fuels that can be easily 
        integrated into existing infrastructure, and revolutionary 
        fuels or feedstocks (algae). This will diversify options for 
        different transport markets that depend heavily on petroleum.
  --Fund a variety of conversion technologies, both biochemical and 
        thermochemical.
  --Integrate sustainability throughout RD&D to promote the use of 
        biomass technologies that improve environmental performance and 
        minimize impacts to land, water and air.
    BERA's recommendations for funding for DOE biomass RD&D are shown 
in Table 1 and outlined below. Note that recommended budgets for 
demonstration projects do not include industry cost-share, which should 
be 50 percent or more.

                  TABLE 1.--BIOMASS/BIOREFINERY SYSTEMS R&D, ENERGY SUPPLY & CONSERVATION, EERE
                                            [In millions of dollars]
----------------------------------------------------------------------------------------------------------------
               Program Area                     Description of RD&D          R&D      Demonstration     Total
----------------------------------------------------------------------------------------------------------------
Feedstock Infrastructure.................  Regional feedstock                   15.0           5.0          20.0
                                            partnerships, joint
                                            development of storage and
                                            harvesting technology.
Biochemical Conversion Platform R&D......  Conversion of cellulosic             20.0          15.0          35.0
                                            biomass--agricultural
                                            residues, wood/forest
                                            residues, perennial grasses.
Thermochemical Conversion Platform R&D...  Conversion of wood/forest            20.0          15.0          35.0
                                            residues to pyrolysis oils
                                            or syngas.
Platform Outputs: Integrated               Developing/validating                10.0         165.0         175.0
 Biorefineries.                             biochemical and
                                            thermochemical conversion
                                            technologies in integrated
                                            biorefineries (e.g., 932
                                            projects) and small scale
                                            biorefineries.
Platform Outputs: Bioprod- ucts..........  Co-production of chemicals            5.0           5.0          10.0
                                            and other products from
                                            biochemical and
                                            thermochemical output
                                            streams.
                                                                        ----------------------------------------
      TOTAL..............................  ............................         70.0         205.0         275.0
----------------------------------------------------------------------------------------------------------------

    Feedstock Infrastructure.--Continue support for regional feedstock 
partnerships to ensure the optimal and sustainable production of 
feedstocks to meet demand on a regional basis. The Departments of 
Energy and Agriculture, in partnership with the Sun Grant Initiative 
universities and the members of the National Biomass State and Regional 
Partnership, established the Regional Biomass Energy Feedstock 
Partnership. Funding should be continued for these important 
partnerships, as they will help ensure that cost competitive biomass 
feedstocks are widely available in sufficient quantity and at an 
acceptable market cost. Increase funding for cost-shared activities 
with USDA on critical harvesting, storage and transport technologies to 
ensure a feedstock delivery infrastructure is available to meet the 
larger demand.
    Platform Outputs: Support Development/Demonstration of Integrated 
Biorefineries.--Activities should address promising biochemical and 
thermochemical processes in integrated biorefineries producing fuels, 
high-value products where possible, and potentially heat and power to 
meet processing demands. A diversity of technologies and feedstocks 
should be considered, as well as new fuel options (green diesel, jet 
fuel, algae, etc.). The object is to improve process efficiency and 
reduce cost, taking into consideration design, financing, permitting, 
environmental controls, waste processing, and sustained operations; 
feedstock acquisition, transport, storage, and delivery; and storage 
and delivery of products to market.
    Conversion: Fund Both Biochemical and Thermochemical Conversion 
Platforms as Foundations for Integrated Biorefineries.--The biochemical 
and thermochemical platforms are both important and could provide 
viable technologies for production of fuels and chemicals. BERA urges 
that both be funded to accelerate the development and demonstration of 
large-scale, synergistic integrated biorefinery systems. BERA urges 
that biochemical conversion research be funded at the amounts shown in 
Table 1, and that thermochemical conversion R&D for biomass 
gasification, pyrolysis, and synthesis of alternate liquid fuels be 
given equal priority. Both should focus on the use of cellulosic 
biomass, waste biomass, or novel concepts for feedstocks.
    Platform Outputs: Invest in R&D to Develop Bioproducts That Enhance 
the Economic Viability of the Integrated Biorefinery.--BERA urges that 
funding be provided for R&D to enable economic production of commodity 
organic and high value chemicals as co-products in biorefineries. 
Biomass-derived fuels and chemicals combined would increase the product 
slate and provide greater opportunity for reducing fossil fuels 
consumption, while increasing the economic viability of the 
biorefinery. BERA urges that this effort include research on sugar 
intermediates, but that it be expanded to include direct conversion of 
other intermediates (such as those derived from gasification and 
pyrolysis) to fuels and commodity organic chemicals.
    Reduce or Eliminate Earmarks.--The level of earmarks in the last 
few years has limited new initiatives and led to premature reductions 
of scheduled programs by EERE. BERA respectfully asks the subcommittee 
to carefully consider the impacts of all earmarks on EERE's biomass 
energy RD&D.
                                 ______
                                 
 Prepared Statement of the Center for Advanced Separation Technologies
    Chairman Dorgan and Ranking Member Domenici, and members of the 
subcommittee, I represent the Center for Advanced Separation 
Technologies (CAST), which is a consortium of seven universities. I 
appreciate the opportunity to submit this testimony requesting that 
your subcommittee add $3 million to the 2008 Fuels Program budget, 
Fossil Energy Research and Development, U.S. Department of Energy, for 
advanced separations research. Research in Advanced Separations 
Technology Development is authorized by the Energy Policy Act of 2005, 
title IX, subtitle F, sec. 962. I am joined in this statement by my 
colleagues from the consortium: Richard A. Bajura, West Virginia 
University; Peter H. Knudsen, Montana Tech of the University of 
Montana; Rick Q. Honaker, University of Kentucky; Jan D. Miller, 
University of Utah; Ibrahim H. Gundiler, New Mexico Tech; and Maurice 
C. Fuerstenau, University of Nevada-Reno.
    funding request for center for advanced separation technologies
    CAST was formed initially as a partnership between Virginia Tech 
and West Virginia University in 2001 to address the needs of the U.S. 
coal industry. In 2002, five other universities (University of 
Kentucky, Montana Tech, University of Utah, University of Nevada-Reno, 
and New Mexico Tech) joined to form a consortium, with Virginia Tech as 
the lead institution. The objective of the consortium is to develop 
Advanced Separation Technologies that can be used to produce cleaner 
fuels from domestic resources with minimal environmental impact.
                             proposed work
    The United States faces an energy crisis created by an imbalance 
between domestic supply and demand. While the United States makes up 
only 4.6 percent of the world's population, it consumes 24 percent of 
the world's energy resources, 25 percent of the oil, and 44 percent of 
the motor gasoline, while its domestic energy production lags behind. 
As a result, the United States imported 30 percent of its energy needs 
in 2006, a number expected to grow in the future. On the other hand, 
the United States is fortunate to have large amounts of untapped energy 
resources within its borders, which include 271 billion tons of 
recoverable coal, 2.6 trillion barrels of oil in the form of oil shale, 
and 20 billion barrels of oil in oil sands. In addition, the United 
States has 200,000 trillion cubic feet (Tcf) of methane deposited in 
the form of hydrates in ocean floors and permafrost. The amount of 
energy deposited as methane hydrates far exceeds the amounts of all 
fossil energy resources combined. The advanced separation technologies 
developed by CAST will be useful for developing these resources in an 
environmentally acceptable manner and help the United States achieve 
its energy independence.
    A major concern in developing these domestic resources is the 
greenhouse gases (GHG) emitted from the utilization of fossil energies, 
which account for 85 percent of the total energy consumed in the United 
States. Therefore, the country is seeking to increase energy 
efficiencies and develop renewable energies. However, the renewable 
energies account for only 7 percent of the total, including 
hydroelectric power (2.9 percent), bio-fuels (0.8 percent) and others. 
Recognizing that the crux of the energy crisis lies in the shortages of 
transportation fuel liquids, the country is striving to increase the 
production of bio-fuels. In 2005, the United States produced about 4 
billion gallons; however, the United States consumed 180 billion 
gallons of gasoline and diesel fuel combined in the same year. Thus, 
ethanol accounts for only a small percentage of the transportation fuel 
need. According to a publication by the National Academies, the energy 
from biomass will likely increase by 60 percent, and those from wind, 
solar and other renewable resources are likely to nearly triple by 
2030. But the net effect of all these activities will probably raise 
the total renewables from 7 percent of the total energy consumed in the 
United States to about 8 percent in 2030. Thus, the United States will 
have to rely on fossil energy resources for the foreseeable future.
    On the other hand, the scientific debate on global warming seems to 
be over, and the country is prepared to reduce CO<INF>2</INF> emissions 
by legislation. But Congress recognizes that the United States cannot 
stop global warming single-handedly. Developing countries, such as 
China and India, should also participate in limiting their own 
CO<INF>2</INF> emissions. If the United States reduced the emissions 
unilaterally, the cost of producing American goods would increase 
relative to those manufactured in countries without emission limits, 
resulting in the relocation of U.S. industry and manufacturing jobs.
    It is projected that developing countries will account for more 
than three-quarters of the increase in global CO<INF>2</INF> emissions 
between 2005 and 2030, and these countries' overall shares in world 
emissions are expected to rise from 40 percent in 2005 to nearly 55 
percent by 2030. In 2006, China and India alone produced 3.1 billion 
tons of coal, representing 46.2 percent of the world production, while 
the United States produced 1.16 billion tons of coal accounting for 
19.3 percent of the world production. In the near term, the major focus 
of these countries is on economic development and reducing poverty. 
Therefore, it would be desirable for the United States to develop 
affordable clean coal technologies (CCT) that can be used in these 
countries.
    A serious problem in China and India is that much of the coal is 
burned as mined without cleaning, causing low thermal efficiencies. The 
thermal efficiencies for power generation are 29 percent in these two 
countries as compared to 38 percent in the United States. By improving 
the quality of coal used for power generation, China can increase the 
efficiency to 33 percent and reduce CO<INF>2</INF> emissions by 20 
percent. Currently, only 12 percent of the coal burned in China for 
electricity generation is cleaned coal. Thus, increased use of advanced 
coal cleaning technologies, representing the most affordable CCTs, 
should help China reduce CO<INF>2</INF> emissions substantially. 
According to a recent IEA report, India could reduce CO<INF>2</INF> 
emissions by 55 percent using state-of-the-art technologies relating to 
coal quality, boiler/generator design, instrumentation and control, and 
high voltage distribution systems. Unfortunately, much of the coals 
burned in India for power generation are of low quality, assaying 35-42 
percent ash.
    It is, therefore, an objective of CAST research to develop advanced 
technologies that can be used to separate various impurities such as 
ash, sulfur, and mercury from coal so that they can be burned more 
cleanly and efficiently. The Chinese Government considers pre-
combustion coal cleaning an important element in their strategy to 
increase energy supply and improve energy transportation systems, as 
stressed in their plan to implement CCTs. Recently, India passed a law 
requiring coals to be cleaned if they are to be transported more than 
1,000 km.
                       summary of accomplishment
    Thanks to your support, CAST has become the world leader in 
developing advanced separation technologies for the coal industry. Many 
of the solid-solid and solid-liquid separation technologies developed 
by CAST are marketed commercially worldwide under license agreements. 
For example, the Microcel flotation technology is used to remove ash, 
sulfur, mercury, and other impurities from coal in the United States, 
Australia, and China. In addition, an advanced fine coal dewatering 
technology has been tested successfully in full-scale tests, and is 
marketed commercially. More recently, another fine coal dewatering 
technology has been tested successfully at pilot-scale and is expected 
to be commercialized before the end of this year. With the 
commercialization of these advanced separation technologies, the U.S. 
coal industry will no longer have to discard fine coal due to the lack 
of appropriate separation technologies. These new technologies will 
help coal companies produce cleaner solid fuels without causing 
environment damage.
    The advanced separation technologies developed at CAST will soon be 
implemented in India. As part of the Asia-Pacific Partnership on Clean 
Development and Climate (APP) program, the U.S. Department of State 
(DoS) provided major funding for CAST through a competitive 
solicitation process to implement advanced separation technologies in 
India. Also, CAST has submitted a proposal to Coal India Limited (CIL), 
which produces 86 percent of the coal in the country, to implement the 
advanced fine coal beneficiation technologies developed by CAST in a 
demonstration plant.
    Some of the advanced separation technologies developed for cleaning 
coal have cross-cutting applications. For example, the methods of 
separating fine particles are used for producing potash (KCl) from 
previously unminable resources in New Mexico. For another, methods of 
separating coarse particles are used for producing phosphate 
fertilizers in Florida.
                            new intitiatives
    Coal is the most abundant energy resource the United States has, 
and it is difficult to displace it with renewable energy resources in a 
relatively short timeframe. Therefore, it is imperative to develop 
methods of utilizing coal with minimal CO<INF>2</INF> emissions. To 
meet this objective, it is proposed to develop advanced gas-gas 
separation methods which will have crosscutting applications for many 
ongoing programs such as Carbon Capture and Sequestration (CCS), 
Innovation of Existing Plants, Gasification, and Hydrogen from Coal.
    During the course of studying the basic sciences involved in a 
solid-solid separation process (i.e., froth flotation), CAST has 
developed a new understanding of the behavior of hydrophobic species in 
water. Based on both experimental and theoretical studies, it has been 
found that hydrophobic surfaces attract each other via hydrophobic 
force, which originates from the tendency for water molecules to 
reorganize themselves around hydrophobic entities. These studies have 
lead to an improved understanding of how ice (or hydrate) is formed 
around hydrophobic molecules (e.g., methane on ocean floors), and why 
different gases (e.g., CO<INF>2</INF>, nitrogen, and hydrogen) form 
hydrates under different conditions, which in turn provide a basis for 
separating one type of gas from another.
    It is, therefore, proposed to separate different types of gases 
from each other by forming hydrates selectively. At present, cryogenic 
distillation is the only commercially viable method of separating 
oxygen and nitrogen, and this new method can potentially reduce the 
cost of producing oxygen substantially. The same method can also be 
used to separate other gases. For example, CO<INF>2</INF> and nitrogen 
present in combustion gases can be readily separated from each other as 
shown by thermodynamic calculations and in experiment. It is also found 
that the kinetics of hydrate formation and, hence, the separation 
process can be improved in the presence of appropriate additives. The 
gas-gas separation process based on selective hydrate formation can 
have higher capacity and lower cost than the methods of using 
membranes. The new gas-gas separation method can also be used for 
producing ultra-pure hydrogen for fuel cell applications, which is a 
major objective of the Fuels Program.
    The proposed research can also lead to the development of efficient 
methods of extracting hydrates from permafrost and ocean floors, while, 
at the same time, allowing CO<INF>2</INF> to be sequestered in place. 
The Blake Ridge deposit off the Carolina shores alone has 1,300 Tcf of 
methane, which is about six-times larger than the amount of the 
conventional natural gas resource in the United States. Thus, the 
proposed work offers a new approach for separating gases for CCS and 
for the production of clean fuels such as methane and hydrogen from 
coal.
                            funding request
    It is requested that $3 million of research funding for CAST be 
added to the fiscal year 2009 Fuels Program budget, Fossil Energy R&D, 
the U.S. Department of Energy. Continued funding will allow CAST to 
develop advanced technologies that can be used to exploit domestic 
energy resources and help developing countries reduce their 
CO<INF>2</INF> emissions. In addition, the new gas-gas separations 
technologies to be developed at CAST will have crosscutting 
applications for a wide spectrum of the Fossil Energy R&D programs.
                                 ______
                                 
      Prepared Statement of the National Mining Association (NMA)
                          nma recommendations
Department of Energy (DOE)
    $156 million for the FutureGen project at Mattoon, Illinois; $382.7 
million for base coal research and development programs; $200 million 
for the Clean Coal Power Initiative (CCPI); $38.5 billion for the loan 
guarantee office to support deployment of advanced coal technologies; 
and $7.5 million for DOE's participation in the Asia-Pacific 
Partnership on Clean Development and Climate.
U.S. Army Corps of Engineers
    Civil Works Program.--$180 million for the Regulatory Program. See 
the table below for NMA's list of priority lock and dam projects and 
recommendations for levels of funding required for their completion. 
NMA opposes the Corps' proposed concept of a new inland waterways 
``lockage fee/tax'' to fund improvements to the Nation's inland 
waterways system.
                               background
Office of Fossil Energy
    NMA strongly supports: $156 million for the FutureGen project at 
Mattoon, Illinois and opposes the administration's proposal to cancel 
the project and use the funding for smaller carbon, capture and 
sequestration projects. In addition, NMA supports the $382.7 million in 
the administration's budget request for base coal research and 
development programs. However, NMA recommends that CCPI be funded at a 
level of $200 million, which would enable DOE to conduct a third 
solicitation targeting advanced technology systems that capture carbon 
dioxide for sequestration.
    While the NMA applauds the administration's commitment to 
accelerating research, development and deployment of technologies that 
will allow the management of carbon emissions at coal-fueled power 
plants, the NMA questions the efficacy of DOE's proposal to cancel the 
FutureGen project as originally configured. Tremendous progress has 
been made since the FutureGen project was announced in 2003 and the NMA 
urges the subcommittee to reject the administration's proposal and to 
fund the FutureGen project as originally configured with the $156 
million requested.
    Technological advancements achieved in the base coal research and 
demonstration programs such as gasification, advanced turbines, and 
carbon sequestration, provide the component technologies that will 
ultimately be integrated into the FutureGen project as currently 
configured. NMA believes these programs should be funded at a level of 
at least the President's request of $382.7 million. In addition, the 
advanced turbine program should be funded at $55 million instead of the 
requested level of $28 million. The increase in funding for these and 
other programs will ensure the FutureGen project meets the intended 
goals outlined in the DOE's 2004 report to Congress, ``FutureGen, 
Integrated Sequestration and Hydrogen Research Intiative--Energy 
Independence through Carbon Sequestration and Hydrogen from Coal.''
    The Coal Utilization Research Council and the Electric Power 
Research Institute estimate that by 2025, combustion and gasification-
based power generation options can be available commercially--with the 
ability to capture and sequester CO<INF>2</INF>--at a cost of 
electricity comparable to the cost of new power generation (with 
CO<INF>2</INF> capture) today. This includes the current work on 
FutureGen. In order to achieve this goal, a Federal investment of $10 
billion through 2025 is necessary while the industry investment is 
expected to be $7 billion over that same time.
    In addition, NMA recommends $3 million of funding for the Center 
for Advanced Separation Technologies (CAST), which is a consortium of 
seven universities lead by Virginia Tech. CAST has developed many 
advanced technologies that are used in industry to produce cleaner 
fuels in an environmentally acceptable manner, while some of them have 
crosscutting applications in the minerals industry. Further development 
of advanced separation technologies will help encourage developing 
countries, such as China and India, to deploy affordable clean coal 
technologies (ACCT) and reduce CO<INF>2</INF> emissions. Research in 
Advanced Separations is mandated by the 2005 Energy Policy Act, section 
962.
Asia-Pacific Partnership on Clean Development and Climate (APP)
    NMA supports the administration's total request of $52 million for 
this partnership and specifically, the request of $7.5 million to fund 
the DOE's participation.
    The APP will spur development of cutting edge technologies and 
practices that support economic growth while reducing emissions, 
including greenhouse gas emissions. It will result in expansion of 
market opportunities for U.S. mining and equipment companies and other 
U.S. businesses.
    The APP, involving the United States, Australia, Canada, China, 
India, Japan and South Korea, is important for a number of reasons:
  --It Will Result in Real Emissions Reductions.--With the 
        participation by China and India, APP is the only international 
        agreement addressing rapid emissions growth in the developing 
        world, which is forecast to surpass emissions of industrialized 
        nations in 2010. APP is a voluntary, technology-based approach 
        to emissions reduction geared towards future economic growth 
        and energy security and will be more effective than unrealistic 
        mandates or treaties.
  --It Builds on Methane-to-Markets and Other Successful Programs That 
        Reduce Greenhouse Gas Emissions.--The U.S. coal industry has 
        captured and re-used 308 billion cubic feet of coal mine 
        methane--the equivalent of removing 40 million automobiles per 
        year from the roads. APP, working with the EPA's Methane-to-
        Markets program will use U.S. experience and expertise to 
        accelerate large-scale capture and recycling of methane in 
        China and India.
  --It Helps Preserve Coal as an Important Energy Source.--The United 
        States, China, India and Japan will be at the center of a 
        significant rise in population, economic activity and energy 
        use in the next 50 years. Coal is essential to sustaining 
        America's competitiveness and vitality in a changing world, as 
        it is in China and India. APP supports improvements in 
        efficiency in both coal mining and use through the acceleration 
        of clean coal technologies, industrial technology strategic 
        planning and energy efficiency best practices.
  --It creates new markets for U.S. companies in the emerging economies 
        of China and India.
U.S. Army Corps of Engineers
    Regulatory Program.--NMA supports the administration's request of 
$180 million for administering the Corps' Clean Water Act (CWA), 
section 404 permit program and for implementing the Memorandum of 
Understanding (MOU).
    The Corps' Regulatory Branch plays a key role in the U.S. economy 
since the Corps currently authorizes approximately $200 billion of 
economic activity through its regulatory program annually. NMA 
recommends that a portion of the Corps' regulatory program funding be 
used for implementing the MOU issued on February 10, 2005, by the 
Corps, the U.S. Office of Surface Mining (OSM), EPA and the U.S. Fish 
and Wildlife Service. The MOU encourages a coordinated review and 
processing of surface coal mining applications requiring CWA section 
404 permits.
    The ability to plan and finance mining operations depends on the 
ability to obtain CWA section 404 permits issued by the Corps within a 
predictable timeframe. In this regard, the NMA appreciates the 
subcommittee including language in the fiscal year 2008 Omnibus 
appropriations bill directing the Corps to work with OSM to develop a 
more efficient process for expediting permit decisions associated with 
surface coal mining operations; in addition to directing the Corps to 
dedicate sufficient personnel and financial resources needed to support 
an efficient permit review process.
    Civil Works Programs.--The NMA understands the Corps intends to 
provide Congress with a legislative proposal to replace the diesel fuel 
tax that has been in place since 1986, with a ``lockage fee/tax'' that 
would more than double the taxes paid by the towing industry. The coal 
industry ships approximately 185 million short tons of coal annually on 
the inland waterways systems. Therefore, the increase in this tax will 
ultimately be borne by the consumers of coal-fired electricity. NMA 
opposes such a tax increase and urges Congress to reject this proposal 
and instead maintain the current diesel fuel tax and change the Inland 
Waterways Trust Fund cost-sharing formula from 50/50 to 75/25 (Federal/
non-Federal) to ensure predictable, consistent, and adequate funding 
for key inland waterways infrastructure projects. Below is a table 
indicating NMA's fiscal year 2009 priority navigation projects.

                                NMA FISCAL YEAR 2009 PRIORITY NAVIGATION PROJECTS
----------------------------------------------------------------------------------------------------------------
                                                                   Fiscal Year     Fiscal Year         NMA
                          Construction                            2008 Enacted    2009 Request   Recommendations
----------------------------------------------------------------------------------------------------------------
Robert C. Byrd Lock and Dams Ohio River, OH/WV.................        $905,000      $1,000,000       $1,000,000
Kentucky River Lock Addition, Tennessee River, KY..............      51,168,000      22,330,000       34,500,000
Marmet Lock and Dam, Kanawha River, WV.........................      29,520,000       9,000,000        9,000,000
McAlpine Locks and Dams, Ohio River, IN/KY.....................      44,280,000       6,270,000        6,270,000
Locks and Dams 2, 3, 4, Monongahela River, PA..................      69,175,000      40,806,000       40,806,000
J.T. Myers Locks and Dams, Ohio River, IN/KY...................         984,000  ..............       14,624,000
Olmsted Locks and Dams, Ohio River, IL/KY......................     102,336,000     114,000,000      114,000,000
Emsworth Dam, Ohio River, PA...................................      42,312,000      25,800,000       25,800,000
Greenup Lock and Dam, Ohio River, KY/OH........................  ..............  ..............       12,100,000
----------------------------------------------------------------------------------------------------------------

    The National Mining Association (NMA) represents producers of over 
80 percent of the coal mined in the United States. Coal continues to be 
the most reliable and affordable domestic fuel used to generate over 50 
percent of the Nation's electricity. NMA members also include producers 
of uranium--the basis for 20 percent of U.S. electricity supply. NMA 
represents producers of metals and minerals that are critical to a 
modern economy and our national security. Finally, NMA includes 
manufacturers of processing equipment, mining machinery and supplies, 
transporters, and engineering, consulting, and financial institutions 
serving the mining industry.
                                 ______
                                 
           Prepared Statement of the Gas Technology Institute
increase the combustion budget to $4.2 million in the fiscal year 2009 
           energy and water appropriations bill for doe, eere
    Dear Chairman Dorgan and Senator Domenici, we write today because 
we are concerned about the Department of Energy budget request for the 
Industrial Technologies Program within the Energy Efficiency and 
Renewable Energy budget. In particular, we are disappointed to see the 
essential elimination of the Combustion program within the Crosscutting 
Industries of the Future area.
    The combustion focus at the Department has been on development of 
next generation boiler technology, applicable to a variety of 
industrial processes, that is both much more efficient and 
environmentally friendly than existing technology. The Gas Technology 
Institute, Cleaver Brooks, a boiler manufacturer, and a number of gas 
utilities have been working with the DOE, California Air Resources 
Board, California Energy Commission, South Coast Air Quality Management 
District, and others to develop next generation ``Super Boiler'' 
technology.
    Developing a clean, efficient natural gas steam boiler will be a 
boon to the U.S. economy. Increasing energy costs and stringent local 
emissions standards are two reasons why America's industrial facilities 
are re-locating overseas. With 31 percent of industrial energy used for 
steam generation, widespread adoption of Super Boiler technology can 
significantly reduce costs and emissions.
    The Super Boiler system is 94 percent efficient compared to current 
technologies which are around 80 percent efficient. This increase in 
efficiency will provide a 15-20 percent fuel savings, corresponding to 
a 15-20 percent reduction in greenhouse gas emissions, and a 90 percent 
reduction in NO<INF>X</INF> emissions. Technological development 
efforts for the coming year include fuel flexibility and the use of 
alternative fuels for the boiler, scale up, extensive testing and 
improvements to the heat recovery system that will both further boost 
efficiency and reduce emissions.
    We urge you to fund the DOE Combustion budget at $4.2 million in 
the fiscal year 2009 Energy and Water Appropriations bill for the 
Department of Energy, Energy Efficiency and Renewable Energy 
(Industrial Technologies Program, Industries of the Future 
Crosscutting) for continued development and deployment on Super Boiler 
technology.
    Thank you for considering this request.
                                 ______
                                 
    Prepared Statement of the Alliance for Materials Manufacturing 
                           Excellence (AMMEX)
    The Alliance for Materials Manufacturing Excellence (AMMEX) 
welcomes this opportunity to provide its input to the subcommittee on 
the proposed budget for fiscal year 2009 for the Industrial 
Technologies Program (ITP) at the Department of Energy. AMMEX 
organizations include the basic materials manufacturing sector 
(aluminum, chemicals, forest products, glass, metal casting, steel) in 
the U.S. economy along with several stakeholders in materials 
manufacturing, such as the Northeast-Midwest Institute, the National 
Association of State Energy Officials and the American Council for an 
Energy-Efficient Economy. We are writing to urge Congress to restore 
funding to the ITP to the level of $125 million and to restore the 
structure of the program to one that emphasizes new process development 
in all six materials industries as opposed to cross-cutting research.
    This request would align the program with the authorized funding 
levels and intent of both section 452 (Energy Intensive Industries 
Program) of the Energy Independence and Security Act of 2007, which was 
signed into law on December 19, 2007, as well as the Energy Efficiency 
and Renewable Energy Act of 2007, which passed the House unanimously on 
October 22, 2007.
    U.S. materials manufacturing continues to face challenges resulting 
from increased cost and decreased availability of traditional energy 
supply resources. These challenges have stimulated innovation in the 
materials manufacturing sector in order to create significant energy 
improvements and to diversify the energy supplies. While the 
innovations of the past have brought the materials manufacturing sector 
a long way, the sector cannot go further without new innovations. In 
order to do this, the materials manufacturing processes must be 
transformed, i.e. new processes and new innovations must be developed 
which will use much less energy and which will be able to utilize 
diverse forms of energy.
    The member organizations of AMMEX have been partners with the 
Department of Energy's Industrial Technology Program since its 
inception. ITP is a true public-private partnership. DOE and materials 
manufacturers jointly fund cutting-edge research that addresses the 
needs of the Nation and materials manufacturers. All projects have the 
shared goals of reducing energy consumption, reducing environmental 
impact, increasing competitive advantage of U.S. materials 
manufacturers, and enhancing our national security. The program is 
unique because we select only projects with ``dual benefits''--a public 
benefit such as reduced emissions or petroleum use, justifying the 
Federal funding; and an industry benefit such as a more efficient 
process, justifying the industrial funding. Substantial energy 
reductions have occurred as shown below.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


  Figure 1.--Materials Manufacturers have greatly reduced energy use 
           since 1990 because of their co-investment with DOE

    To accomplish these goals, the Federal Government and industry will 
need to embark upon a co-funded effort to broaden and accelerate 
inherently high-risk research, development, and deployment of new 
materials manufacturing processes that utilize diverse energy sources. 
This effort will also allow the materials manufacturing sector to 
lessen dependence on natural gas and oil resources and conventional 
electricity sources--thus benefiting consumers through contribution to 
a stable energy market.
    Furthermore, it is critical to recognize the important 
contributions of ITP to efforts to combat climate change. The 
development of new technology is an extremely important facet to 
dealing with climate change. Most, if not all AMMEX industries have 
voluntarily reduced energy intensity by 25 percent since 1990 in 
partnerships with DOE and only very small gains in energy use are still 
possible for today's processes [red area in above chart].
    Most of the legislative options being considered to reduce 
CO<INF>2</INF> and other greenhouse gases employ a target of at least a 
50 percent reduction in CO<INF>2</INF> emissions by 2050 over a 2000 
baseline. It is important to acknowledge that achieving such a goal 
with today's manufacturing processes will be very challenging. Thus, we 
are confronted with the ideal opportunity for ITP and AMMEX 
industries--collaboration to accelerate the development and deployment 
of new, transformational technologies to help our country reach its 
CO<INF>2</INF> mitigation goals. We would argue there is not a more 
appropriate public-private partnership than one focused on our 
environment. It is the method of choice employed by our competitors in 
Europe and Asia.
    The infrastructure already exists to create such a program--only a 
slight re-focusing of the ITP program and a return to historical budget 
levels is all that is needed for the Federal Government and materials 
industries to embark upon a co-funded effort to broaden and accelerate 
inherently high-risk research, development, and deployment of new 
materials manufacturing processes that utilize diverse energy sources.
    Consequently, our request for funding in fiscal year 2009 for ITP 
entails two parts:
  --A return to a total program level of $125 million, bringing the 
        funding amount closer to the level authorized in the Energy 
        Independence and Security Act of 2007.
  --A re-structuring of the program so as to return to the structure 
        that was so successful from 1990-2003--a balanced portfolio of 
        industry-specific research from the point of view of research 
        impact, i.e., that 50 percent or more of the funding go to 
        industry specific new process development [where the energy 
        savings potential in industry is highest].
    AMMEX members have identified their top new process development 
concepts [not in priority order] which would be pursued at the funding 
levels and structure defined above:
Aluminum
  --Improved, energy-efficient burners and furnaces for aluminum 
        melting
  --Improved energy efficiency and recovery rates for recycling 
        technologies
Chemicals
  --Development of alternative feedstocks for the chemical industry to 
        reduce dependence on petroleum and natural gas derived 
        feedstocks
  --Nano-manufacturing scale-up methodologies for key unit operations: 
        synthesis, separation, purification, stabilization, and 
        assembly
  --Development of low-energy, low-capital membrane or hybrid 
        separations technology
Glass
  --Complete development and deployment to multiple industries of 
        Submerged Combustion Melter
  --Waste Heat Recovery and Use as Electrical or Chemical Energy
  --Low Residence Time Glass Refining Technologies
Forest Products
  --Advanced water removal and high efficiency pulping
  --Gasification of Spent Pulping Liquors and Biomass Residuals
Metal Casting
  --Simulation of Dimensional Changes and Hot Tears
  --Engineered Coatings for Aluminum Pressure Dies
  --Developing a lightweight production cast aluminum metal matrix 
        composite alloy
Steel
  --Ironmaking by Molten Oxide Electrolysis
  --Ironmaking by Flash Smelting using Hydrogen
  --Demonstration of the Paired Straight Hearth Furnace Process
    The United States also faces serious shortages in the science and 
engineering manpower that is needed to keep America's competitive edge 
in world markets through technology innovation and timely application. 
From the President's recent State of the Union Addresses to recent 
legislation passed by Congress, the Nation is awakening to the need for 
a re-energizing of our commitment to technology education. Our proposal 
to the subcommittee is an effort to both rebuild America's materials 
manufacturing industries and meet shared national energy and 
environmental goals.
    On behalf of the AMMEX coalition, we thank you for the opportunity 
to submit this statement. We look forward to continuing to work with 
the subcommittee as you move forward on the fiscal year 2009 
appropriations legislation for the Department of Energy.
                                 ______
                                 
    Prepared Statement of the American Forest and Paper Association
                    agenda 2020 technology alliance
    The Agenda 2020 Technology Alliance, a Special Project of the 
American Forest & Paper Association (AF&PA) welcomes this opportunity 
to provide the subcommittee with our views on the industry's key 
public-private partnerships within the Office of Energy Efficiency and 
Renewable Energy (EERE) and to urge increased funding to adequately 
address industry's challenges in fiscal year 2009. The EERE Industrial 
Technologies Program (ITP) and Office of Biomass Programs (OBP) provide 
vital funding for research, development, and demonstration (RD&D) of 
technologies that dramatically reduce the forest products industry's 
energy intensity and transforms our industry into producers of carbon-
neutral biofuels--thus addressing strategic national needs associated 
with energy efficiency, energy security, diversified energy supply, and 
environmental performance. We recommend increasing the industry 
specific funding for the forest products industry in ITP to $6 million. 
We support the President's request for $225 million for Biomass and 
Biorefinery Systems R&D in OBP and ask that the subcommittee work to 
maintain eligibility of forest biorefineries in these programs and keep 
the appropriations unencumbered to allow for full funding of 
competitive biomass systems and biorefinery RD&D grants.
    The Agenda 2020 Technology Alliance is an industry-led partnership 
with government and academia that holds the promise of reinventing the 
forest products industry through innovation in processes, materials and 
markets. The collaborative, pre-competitive research, development, and 
deployment supported through Agenda 2020 provide the foundation for new 
technology-driven business models that will enable our industry to 
address market demands for materials from renewable sources, while also 
contributing solutions to strategic national needs including energy 
reduction and sustainability. The technology approaches developed 
through Agenda 2020 are aligned to provide solutions to the competitive 
challenges faced by the U.S. forest products industry, which accounts 
for approximately 6 percent of the total U.S. manufacturing output, 
employs more than a million people, and ranks among the top 10 
manufacturing employers in 42 states with an estimated payroll 
exceeding $50 billion.
    As is the case with many U.S. manufacturing industries, we face 
serious domestic and international challenges. Since early 1997, more 
than 145 pulp and paper mills have closed in the United States, 
contributing to a loss of 86,000 jobs, or 40 percent of our workforce. 
An additional 80,000 jobs have been lost in the wood products industry 
since 1997. New capacity growth is now taking place in other countries, 
where forestry, labor, and environmental practices may not be as 
responsible as those in the United States. Several drivers have 
heightened the need to develop new energy efficiency technologies: the 
recent volatility of energy markets, especially for natural gas; 
renewed national focus on climate change and environmental performance; 
and aging process infrastructure. Global competition, coupled with 
massive industry restructuring due to financial performance pressures 
from Wall Street, continue to hinder the ability of U.S. companies to 
make new investments. Each year without new investments, new 
technologies and new revenue streams, we lose ground to our overseas 
competitors.
    Currently, energy is the third largest manufacturing cost for the 
forest and paper industry at 18 percent for pulp and paper mills--up 
from 12 percent just several years ago. For some of our mills, the cost 
of energy is about to eclipse employee compensation.
    Since 1994, the forest products industry has been one of DOE's 
``Industries of the Future,'' partnering with ITP through the Agenda 
2020 Technology Alliance in RD&D that has yielded successful advances 
towards our national energy and environmental goals. Agenda 2020 stands 
as an example of successful industry-government collaboration to 
develop technologies that hold the promise of reinventing industry, 
while providing real solutions for strategic national energy needs. 
Every Federal $1 spent on ITP saves $7.06 in annual energy costs and 
1.3 million in annual source BTUs (2004 estimates). As recently as 
2003, the ITP/Agenda 2020 portfolio included a total shared DOE and 
industry investment of almost $48 million, with nearly 55 percent 
coming from direct project cost shares by industry.
    Today, after several years of continuous and substantial cuts, the 
ITP/Agenda 2020 budget has been reduced by over 80 percent since fiscal 
year 2002. This undermines our progress in achieving crucial energy 
efficiencies at a time when energy and response to climate change are 
major factors in the survival of the U.S. forest products industry. 
Projects rescoped or cut in recent years due to budget shortfalls 
resulted in a lost energy savings potential of 5 trillion BTUs/yr. 
Recent reductions make us unable to pursue projects in key priority 
areas such as advanced water removal and high efficiency pulping, which 
represents a lost savings potential of 100-200 trillion BTUs/yr. In 
fiscal year 2009, a further funding reduction is proposed and emphasis 
shifted from industry specific funding. Unfortunately, the types of 
technologies that cross all industries are not those from which we can 
achieve the maximum savings for energy and environmental emissions. 
Furthermore, the proposed funding of $1.448 million is barely 
sufficient to fund ongoing projects, let alone address the high 
priority R&D needs specific to the forest products industry that have 
been jointly identified by industry with the DOE.
    This comes at a crucial time when the forest products industry, 
like many energy-intensive industries, is facing unprecedented 
pressures due to the rising costs of energy and potential climate 
change mandates. Although we are nearly 60 percent self-sufficient 
(using biomass), it is imperative that we seek solutions as diverse as 
fuel switching, finding new energy sources, and options for reducing 
energy consumption. Thus we are in greater need than ever for the 
technology-based energy efficiency solutions that could be provided 
through our Agenda 2020 partnership with ITP. AF&PA's recommended ITP 
funding for forest products research ($6 million) would help our 
industry partially recover its capacity to develop and deploy vital 
energy efficiency technologies. Restoring Agenda 2020 funding to pre-
fiscal year 2005 levels will not only help the competitive position of 
American industry, but will also serve national strategic goals for 
reduced dependence on foreign oil.
    Second, the Integrated Forest Products Biorefinery (IFPB) is a key 
Agenda 2020 technology platform and a top technical and economic 
priority for our industry. The objective is to develop and deploy core 
technologies that can be integrated into existing processing 
infrastructure, which would be transformed into geographically 
distributed production centers of renewable ``green'' bioenergy and 
bioproducts. This can be done while co-producing existing product 
lines, creating higher skilled and better paying jobs, strengthening 
rural communities, and opening new domestic and international markets 
for U.S. forest products companies.
    The IFPB technology has the potential to integrate agricultural 
wastes, agricultural producers, forest landowners, agricultural 
landowners, forest product producers, and the petrochemical industry to 
produce clean renewable bio-fuels to support our local economies and 
the Nation. Widespread application of this technology would not only 
reduce the environmental impact of burning fossil fuels, it would also 
increase the viability of agricultural, forest products, and other 
industries that use waste heat. It will create new high paying jobs, 
both direct and indirect, increasing tax revenue. From an energy 
perspective, the IFPB has the benefit of making the forest products 
industry even more energy self-sufficient, serving the DOE strategic 
goal of reduced energy intensity in industry by reducing fossil energy 
consumption. In addition, the IFPB would permit the industry to become 
a producer of renewable, carbon-positive bioenergy and biofuels, 
contributing to DOE strategic goals to dramatically reduce dependence 
on foreign oil and to create a new domestic bioindustry.
    In light of these realities, AF&PA and Agenda 2020 also support the 
administration's announced $225 million budget initiative in fiscal 
year 2009 for biorefinery research and demonstration in OBP. This 
initiative provides much needed funding to advance core enabling IFPB 
technologies, as well as providing major capital cost-share for 
commercial scale biorefinery demonstration. The forest products 
industry is an ideal partner to develop and commercialize integrated 
biorefineries. We have much of the infrastructure and expertise--wood 
harvesting, transportation and storage, manufacturing and conversion 
infrastructure, waste handling and recovery--needed to achieve the 
goals of integrated biorefineries. By and large, they are located in 
rural communities where they can help realize important synergies 
between agricultural and forest-based feedstocks.
    Recent estimates from Princeton University show significant 
potential for net environmental benefits of IFPBs, inclusive of 
offsetting other fossil fuel consumption in the mill. The industrywide 
potential is to reduce nearly 100 million tons of carbon emissions 
annually from IFPBs. The study also estimates the cumulative value of 
savings due to reduced CO<INF>2</INF>, SO<INF>2</INF>, and 
NO<INF>X</INF> emissions is $6 million to $40 billion. A core enabling 
technology for part of the IFPB is black liquor gasification (BLG), 
which converts the by-product of the chemical pulping process into a 
synthetic gas. The synthetic gas can subsequently be burned to directly 
produce clean, efficient energy, or converted to other fuels such as 
hydrogen, renewable transportation fuels, and/or other high value 
chemicals. If fully developed and commercialized, a biorefinery based 
on BLG can produce up to 10 billion gallons of other renewable 
transportation fuels, and as much as 20,000 MW of biomass power.
    However, private/public investments in RD&D are critical to bring 
IFPB technologies into full commercial use. Co-investment for RD&D can 
help mitigate the technical risks (especially integration with capital-
intensive, legacy infrastructure) of early adopters of emerging IFPB 
technologies. Risk mitigation is an important factor in achieving the 
benefits of IFPBs, especially for integrating biorefinery technologies 
with existing manufacturing infrastructure. Federal support through 
research funding and other investments, such as loan guarantees and tax 
credits, is critical.
    In order to achieve the promise of IFPB technologies for the 
industry and for the Nation, we need greater stability and availability 
of funds provided through the OBP budget. We urge the subcommittee to 
preserve the proposed $225 million funding of the Biomass and 
Biorefinery Systems R&D program, so that there will be sufficient 
appropriations to fund biorefinery demonstration and commercialization 
projects. We also urge the subcommittee to ensure that forest-based 
materials are eligible for this and future biorefinery research and 
demonstration funding. Forest-based materials can sustainably produce 
enough biofuels to displace up to 10 percent of the country's petroleum 
production. They are a vital feedstock for achieving reduced dependence 
on foreign oil and facilitating bioindustries domestically and should 
be included in programs for biomass and biorefinery RD&D.
    The Agenda 2020 Technology Alliance appreciate the subcommittee's 
interest in ensuring sustained and adequate funding for RD&D 
partnerships and look forward to working with you to advance industry 
and national interests.
                                 ______
                                 
  Prepared Statement of the Vision2020 Technology Partnership, Glass 
   Manufacturing Industrial Council, Copper Development Association, 
  International Copper Association, Hydraulic Institute, Pump Systems 
      Matter, and the Vanadium Producers & Reclaimers Association
    Mr. Chairman, we respectfully request that the subcommittee grant 
restoration of appropriations funding in the fiscal year 2009 
Department of Energy Appropriations bill to match the $190 million 
authorized for the Industrial Technology Program (ITP) within the 
Energy Efficiency and Renewable Energy Act of 2007.
    The submitting coalition represents a broad range of energy 
intensive sectors including chemical and chemical allied industries, 
the copper industry including mining, producer and fabricating 
companies, organizations focused on hydraulic and pump system 
technology, the domestic glass industry sectors including flat, 
container, fiber and specialty glass and the domestic vanadium 
producers and reclaiming companies. We believe that the Industrial 
Technologies Program is critical to boost Federal and corporate R&D 
investments into novel applications that will help move our industries 
towards higher energy efficiency.
    Environmental quality, economic vitality and national security are 
all at risk due to the inability of the United States to effectively 
conserve energy as the country continues to grow and expand the 
national standard of living. Energy conservation is now a national 
goal. While renewable energy processes are one part of the solution, 
undertaking energy efficiency is as necessary as ever before. Both 
President Bush and the Congress have recognized that technology is the 
key to both energy efficiency and renewable energy.
    In the United States, industry accounts for over one-third of all 
energy consumption. Of that, the majority is consumed by several heavy 
industries including chemical, glass and metals production, aluminum, 
mining, petroleum refining, forest and paper products, and supporting 
industries. These groups all consume high amounts of energy per unit of 
production, making them a prime target for energy efficiency efforts. 
In addition, the rising cost of energy has the potential to put these 
industries at a competitive disadvantage with other nations.
    While the President and Congress have continually supported 
industrial energy efficiency efforts, the funding provided has not 
matched the problem. Funding has dropped from $175 million in fiscal 
year 2000 to $57 million in fiscal year 2007. The House Committee on 
Science and Technology noted on September 25, 2007 that ``these funding 
levels reflect a dramatic shift in priorities away from industrial 
efficiency R&D.'' Fortunately, Congress recognizes the need to increase 
funding levels through its own authorization of $190 million in fiscal 
year 2008 for the Industrial Technology Program.
    The Industrial Technology Program (ITP) is a competitive, public-
private partnership program which works to utilize research and 
development in cutting edge, high-value cost sharing methods to improve 
the energy efficiency of America's industrial sector. The ITP operates 
through coordinated research and development, validation, and 
dissemination of energy-efficiency technologies and operating 
practices. ITP projects have already won dozens of ``R&D 100 Awards'' 
and have generated over 150 patents on exciting new technologies. Dual 
use benefits for both public and industrial uses are required by the 
ITP. Nearly 200 technologies have reached the commercial market 
assisting over 13,000 U.S. manufacturing plants and leading to $23 
billion worth of energy savings.
    All programs which are awarded competitive funding must meet the 
shared goal of reducing energy consumption, reducing environmental 
impacts and increasing the competitive advantage of U.S. material 
manufacturers. In addition, while cross-cutting technologies are 
valuable, the application of ITP technologies to individual industries 
is critical and needs to be strengthened with additional funding. It is 
in this application at the factory level where the vast majority of the 
actual energy savings and environmental protection will be recognized.
    In order to fully recognize the potential benefits of the ITP, it 
is imperative that Congress fully fund the ITP at the level of $190 
million. This is the level seen as necessary by the authorizing 
committees with jurisdiction and rightly so, given the environmental 
benefits, national security needs for energy independence, and economic 
productivity gains which can be realized in energy efficiency efforts 
aimed at the U.S. industrial sector. A national imperative focused on 
the ITP will help get us there.
                                 ______
                                 
        Prepared Statement of the American Geological Institute
    To the chairman and members of the subcommittee, thank you for this 
opportunity to provide the American Geological Institute's perspective 
on fiscal year 2009 appropriations for geoscience programs within the 
subcommittee's jurisdiction. The President's budget request for 
Department of Energy (DOE) research programs provides no funding for 
oil and gas research and development (R&D), eliminates mandated direct 
spending of $50 million for unconventional onshore and ultra deep water 
offshore natural gas R&D, includes a decimating cut to hydropower R&D 
and does not fulfill some of the geothermal and carbon sequestration 
R&D funding authorized in the Energy Independence and Security Act of 
2007.
    Given the interest of the administration and Congress to reduce the 
Nation's foreign oil dependence, reduce prices on fossil fuels and 
mitigate carbon emissions from fossil fuels, it seems like an 
inopportune time to eliminate or under fund programs that could help 
with these objectives. We hope that Congress will support wise 
investments for all energy resource programs and carbon sequestration 
R&D. AGI applauds the requested 18 percent increase for the largest 
supporter of physical science research in the United States, DOE's 
Office of Science, and encourages the subcommittee's full support for 
this increase. We applaud the request of $30 million for geothermal R&D 
and an increase of about $35 million for carbon sequestration R&D, both 
of which partially fulfill the Energy Act of 2007. We ask for the 
subcommittee's continued support for oil and gas, unconventional 
natural gas, geothermal, hydropower and carbon sequestration R&D so the 
Nation can develop a diverse portfolio of energy resources while 
enhancing carbon mitigation strategies to secure clean, affordable and 
secure energy supplies for now and the future.
    AGI is a nonprofit federation of 44 geoscientific and professional 
associations that represent more than 100,000 geologists, 
geophysicists, and other earth scientists. The institute serves as a 
voice for shared interests in our profession, plays a major role in 
strengthening geoscience education, and strives to increase public 
awareness of the vital role that the geosciences play in society's use 
of resources and interaction with the environment.
                         doe office of science
    The DOE Office of Science is the single largest supporter of basic 
research in the physical sciences in the United States, providing more 
than 40 percent of total funding for this vital area of national 
importance. The Office of Science manages fundamental research programs 
in basic energy sciences, biological and environmental sciences, and 
computational science and, under the President's budget request, would 
grow by about 15 percent from about $3.9 billion last year to $4.7 
billion. AGI asks that you support this much needed increase.
    Within the Office of Science, the Basic Energy Sciences (BES) 
program supports fundamental research in focused areas of the natural 
sciences in order to expand the scientific foundations for new and 
improved energy technologies and for understanding and mitigating the 
environmental impacts of energy use. BES also discovers knowledge and 
develops tools to strengthen national security.
    The Basic Energy Sciences (BES) would remain the largest program in 
the office with an increase of 24 percent from $1.27 billion in fiscal 
year 2008 to $1.57 billion in fiscal year 2009 in the President's 
request. Within the BES, Chemical Sciences, Geosciences and Biosciences 
would receive a $75 million increase over their fiscal year 2008 budget 
for a total of $297 million. The Geoscience program provides peer-
reviewed grants to universities and DOE national laboratories for 
fundamental Earth science research in geochemistry, hydrology, rock 
mechanics, and geophysical imaging. The $7.5 million increase 
specifically for the Geoscience research program is focused on solid 
earth geophysics and geochemistry to understand the stability and 
transformation of deep carbon sequestration, nanoscale geochemistry, 
chemical imaging, experimental and theoretical studies of complex 
subsurface fluids and mid-scale instrumentation.
    The President's request for the Office of Science only partially 
fulfills the carbon sequestration R&D and large-scale demonstration 
project, which was authorized to receive $240 million in fiscal year 
2009 and the carbon sequestration university-based R&D which was 
authorized to receive $10 million in fiscal year 2009. An additional 
$30 million is requested for carbon sequestration R&D and demonstration 
within the Office of Fossil Energy to partially satisfy the wise 
investments called for in the Energy Act of 2007. AGI requests that 
funding for carbon sequestration R&D in the Office of Science and the 
Office of Fossil Energy be increased to fulfill the intent of the 
Energy Act of 2007.
               doe energy efficiency and renewable energy
    Within DOE Energy Efficiency and Renewable Energy, the President's 
fiscal year 2009 budget request would cut funding by 27 percent or $467 
million. We are concerned about the cuts to alternative energy R&D 
programs, in particular the reduction of more than 70 percent (a cut of 
almost $7 million) for hydropower R&D which would decimate the program. 
A balanced portfolio of R&D across many promising energy resources 
should be maintained with steady funding to help ensure energy supplies 
in a changing world.
    AGI applauds the $30 million requested for geothermal R&D and 
greatly appreciates previous support from Congress for this key 
alternative energy resource. The geothermal research program within the 
Renewable Energy account, which funds Earth science research in 
materials, geofluids, geochemistry, geophysics, rock properties, 
reservoir modeling, and seismic mapping, would receive an increase of 
51 percent from fiscal year 2008 enacted levels only one year after the 
administration slated the program for termination. The new funds for 
geothermal satisfy in part an authorization in the Energy Independence 
and Security Act of 2007, which calls for $90 million for geothermal 
R&D in fiscal year 2009.
               doe fossil energy research and development
    AGI urges you to take a critical look at the Department of Energy's 
Fossil Energy Research and Development (R&D) portfolio as you prepare 
to craft the fiscal year 2009 Energy and Water Development 
Appropriations bill. Over the past 8 years, Members of Congress have 
strongly emphasized the need for a responsible, diversified and 
comprehensive energy policy for the Nation. The growing global 
competition for fossil fuels has led to a repeated and concerted 
request by Congress to ensure the Nation's energy security. On February 
28, 2007 this subcommittee held a hearing on the ``10-Year Energy 
Research and Development Outlook'' in which the Energy Information 
Administrator Guy Caruso noted the Nation's need for fossil fuels over 
the next 30 years and the other expert witnesses noted the critical 
need to continue R&D on fossil fuels and all other energy resources. 
The President's proposal, which provides no funding for oil and gas 
R&D, is short sighted and inconsistent with congressional concerns and 
expert testimony presented to your subcommittee. No funding for oil and 
gas R&D will hinder our ability to achieve energy stability and 
security.
    The research dollars spent by Fossil Energy R&D go primarily to 
universities, State geological surveys and research consortia to 
address critical issues like enhanced recovery from known fields and 
unconventional sources that are the future of our natural gas supply. 
This money does not go into corporate coffers, but it helps American 
businesses remain competitive by giving them a technological edge over 
foreign companies. All major advances in oil and gas production can be 
tied to research and technology. AGI strongly encourages the 
subcommittee to ensure a balanced and diversified energy research 
portfolio that does not ignore the Nation's primary sources of energy, 
fossil fuels, for at least the next 30 years.
    Today's domestic industry has independent producers at its core. 
With fewer and fewer major producing companies and their concentration 
on adding more expensive reserves from outside of the contiguous United 
States, it is the smaller independent producers developing new 
technologies concentrated on our domestic resources. However, without 
Federal contributions to basic research that drives innovation, small 
producers cannot develop new technologies as fast, or as well, as they 
do today. The program has produced many key successes among the typical 
short-term (1 to 5 years) projects usually chosen by the DOE. And even 
failed projects have proven beneficial, because they've often resulted 
in redirection of effort toward more practical exploration and 
production solutions.
    In 2003, at the request of the Interior Appropriations 
Subcommittee, the National Academies released a report entitled Energy 
Research at DOE: Was It Worth It? Energy Efficiency and Fossil Energy 
Research 1978 to 2000. This report found that Fossil Energy R&D was 
beneficial because the industry snapped up the new technologies created 
by the R&D program, developed other technologies that were waiting for 
market forces to bring about conditions favorable to commercializing 
them and otherwise made new discoveries. In real dollars from 1986-2000 
the Government invested $4.5 billion into Fossil Energy R&D. During 
that time, realized economic benefits totaled $7.4 billion. This 
program is not only paying for itself, it has brought in $2.9 billion 
in revenue.
    Unfortunately, despite this success, the President's fiscal year 
2009 budget request continues the alarming reduction of energy R&D 
funding by eliminating all funding for our primary energy resources, 
oil and gas. Federal funding for renewable, fossil and nuclear R&D has 
decreased dramatically from $5.5 billion in 1978 to $793 million in 
2005 according to a Government Accountability Office (GAO) report 
entitled Key Challenges Remain for Developing and Deploying Advanced 
Energy Technologies to Meet Future Needs. Such significant under-
investment in energy R&D over many decades hinders progress on cost-
effective and environmentally-sound exploration and extraction of raw 
energy resources and clean and efficient development, production and 
use of energy products.
    The Federal investment in energy R&D is particularly important when 
it comes to longer-range research with diversified benefits. In today's 
competitive markets, the private sector focuses dwindling research 
dollars on shorter-term results in highly applied areas such as 
technical services. In this context, DOE's support of fossil energy 
research, where the focus is truly on research, is very significant in 
magnitude and impact compared to that done in the private sector, where 
the focus is mainly on development. Without more emphasis on research, 
we risk losing our technological edge in the highly competitive global 
market place.
    Perhaps one of the most promising areas of R&D for domestic oil 
supplies are in the ultra deep waters where drilling is allowed in the 
Gulf of Mexico. The Energy Policy Act of 2005, set aside $50 million 
annually from collected offshore royalties for ultra deep water and 
other unconventional oil and gas R&D to support clean and efficient 
exploration and extraction in the Gulf. The President's budget request 
would repeal this program and provide no funding for ultra deep water 
and other unconventional oil and gas R&D. AGI asks that you consider 
R&D spending or other incentives to encourage the private sector to 
invest in clean and efficient technological advances to enhance our 
unconventional fossil fuel supply in offshore regions where drilling is 
allowed and significant infrastructure already exists.
    The research funded by DOE leads to new technologies that improve 
the efficiency and productivity of the domestic energy industry. 
Continued research on fossil energy is critical to America's future and 
should be a key component of any national energy strategy. The societal 
benefits of fossil energy R&D extend to such areas as economic and 
national security, job creation, capital investment, and reduction of 
the trade deficit. The Nation will remain dependent on petroleum as its 
principal transportation fuel for the foreseeable future and natural 
gas is growing in importance. It is critical that domestic production 
not be allowed to prematurely decline at a time when tremendous 
advances are being made in improving the technology with which these 
resources are extracted. The recent spike in oil and natural gas prices 
is a reminder of the need to retain a vibrant domestic industry in the 
face of uncertain sources overseas. Technological advances are 
necessary to maintaining our resource base and ensuring this country's 
future energy security.
    Thank you for the opportunity to present this testimony to the 
subcommittee.
                                 ______
                                 
 Prepared Statement of the American Society of Agronomy, Crop Science 
      Society of America, and the Soil Science Society of America
    Dear Chairman Dorgan, Ranking Member Domenici and members of the 
subcommittee, the American Society of Agronomy, Crop Science Society of 
America, and Soil Science Society of America (ASA-CSSA-SSSA) are 
pleased to submit the following funding recommendations for the 
Department of Energy for fiscal year 2009. For the Office of Science, 
ASA-CSSA-SSSA recommend a funding level of $4.722 billion, an 18 
percent increase over fiscal year 2008 ($3.973 billion). For the Office 
of Energy Efficiency and Renewable Energy, we recommend a funding level 
of $1.843 billion, a 7 percent increase over fiscal year 2008. We 
recommend a funding level of $6.094 billion, a 7 percent increase, for 
the Office of Environmental Management. Specifics for each of these and 
other budget areas follow below.
    With more than 25,000 members and practicing professionals, ASA-
CSSA-SSSA are the largest life science professional societies in the 
United States dedicated to the agronomic, crop and soil sciences. ASA-
CSSA-SSSA play a major role in promoting progress in these sciences 
through the publication of quality journals and books, convening 
meetings and workshops, developing educational, training, and public 
information programs, providing scientific advice to inform public 
policy, and promoting ethical conduct among practitioners of agronomy 
and crop and soil sciences.
                 department of energy office of science
    The American Society of Agronomy, Crop Science Society of America, 
and Soil Science Society of America (ASA-CSSA-SSSA) understand the 
challenges the House Energy and Water Appropriations Subcommittee faces 
with the tight budget for fiscal year 2009. We also recognize that the 
Energy and Water Appropriations bill has many valuable and necessary 
components, and we applaud the subcommittee for funding the DOE Office 
of Science in the fiscal year 2008 Omnibus Appropriations bill at 
$3.973 billion. Under the Energy Policy Act of 2005 (Public Law 109-
58), the Office of Science is authorized to receive $5.2 billion in 
fiscal year 2009. Congress approved the America COMPETES Act of 2007 
(Public Law 110-69), recognizing that an investment in basic 
(discovery) scientific research is essential to providing America the 
brainpower necessary to maintain a competitive advantage in the global 
economy and keep U.S. jobs from being shipped overseas. The President's 
request of $4.722 billion is consistent with the America COMPETES Act, 
which authorizes the doubling of the Office of Science's budget over a 
7-year period. Such an investment is needed to keep U.S. science and 
engineering at the forefront of global research and development in the 
biological sciences and geosciences, computing and many other critical 
scientific fields. The Office of Science supports graduate students and 
postdoctoral researchers early in their careers. Nearly one-third of 
its research funding goes to support research at more than 300 colleges 
and universities nationwide. Moreover, approximately half the users at 
Office of Science user facilities are from colleges and universities, 
providing further support to their researchers. The Office of Science 
also reaches out to America's youth in grades K-12 and their teachers 
to help improve students' knowledge of science and mathematics and 
their understanding of global energy and environmental challenges. This 
recommended funding level of $4.722 billion is critical to ensuring our 
future energy self-sufficiency and as a means to address major 
environmental challenges including global climate change. Finally, a 
funding level of $4.722 billion will allow the Office of Science to: 
maintain and strengthen DOE's core research programs at both the DOE 
national laboratories and at universities; provide support for 1,000 of 
PhD's, postdoctoral associates, and graduate students in fiscal year 
2009; ensure maximum utilization of DOE research facilities; allow the 
Office of Science to develop and construct the next-generation 
facilities necessary to maintain U.S. preeminence in scientific 
research; and enable DOE to continue to pursue the tremendous 
scientific opportunities outlined in the Office of Science Strategic 
Plan and in its 20 Year Scientific Facilities Plan.
                         basic energy sciences
    Within the Office of Science, the Basic Energy Sciences (BES) 
Program is a multipurpose, scientific research effort that fosters and 
supports fundamental research to expand the scientific foundations for 
new and improved energy technologies and for understanding and 
mitigating the environmental impacts of energy use. ASA-CSSA-SSSA 
support the President's fiscal year 2009 request of $1.568 billion, a 
23 percent increase over fiscal year 2008, for BES. The portfolio of 
programs at BES supports research in the natural sciences by focusing 
basic (discovery) research on, among other disciplines, biosciences, 
chemistry and geosciences. Practically every element of energy 
resources, production, conversion and waste mitigation is addressed in 
basic research supported by BES programs. Research in chemistry has 
lead to the development of new solar photoconversion processes and new 
tools for environmental remediation and waste management. Research in 
geosciences leads to advanced monitoring and measurement techniques for 
reservoir definition. Research in the molecular and biochemical nature 
of photosynthesis aids the development of solar photo-energy 
conversion.
    Within the Basic Energy Sciences Program, the Chemical Sciences, 
Geosciences, and Energy Biosciences subprogram supports fundamental 
research in geochemistry, geophysics and biosciences. The Geosciences 
Research Program supports research focused at developing an 
understanding of fundamental Earth processes that can be used as a 
foundation for efficient, effective, and environmentally sound use of 
energy resources, and provide an improved scientific basis for advanced 
energy and environmental technologies. The Biosciences Research Program 
supports basic research in molecular-level studies on solar energy 
capture through natural photosynthesis; the mechanisms and regulation 
of carbon fixation and carbon energy storage; the synthesis, 
degradation, and molecular interconversions of complex hydrocarbons and 
carbohydrates; and the study of novel biosystems and their potential 
for materials synthesis, chemical catalysis, and materials synthesized 
at the nanoscale.
                 biological and environmental research
    Within the Office of Science, the Biological and Environmental 
Research (BER) Program, for more than five decades, has advanced 
environmental and biological knowledge that supports national security 
through improved energy production, development, and use; international 
scientific leadership that underpins our Nation's technological 
advances; and research that improves the quality of life for all 
Americans. BER supports these vital national missions through 
competitive and peer-reviewed research at national laboratories, 
universities, and private institutions. In addition, BER develops and 
delivers the knowledge needed to support the President's National 
Energy Plan. ASA-CSSA-SSSA support a 7 percent increase for BER which 
would bring the funding level to $582,504,790 for fiscal year 2009. 
ASA-CSSA-SSSA support a variety of programs within BER including the 
Life Sciences subprogram which supports Carbon Sequestration Research 
(we recommend a 7 percent increase, bringing the funding level to 
$7,625,890), and the Genomes to Life (GTL) program (we also recommend a 
7 percent increase to bring funding to $163,422,170). Within Genomes to 
Life (GTL) are programs supportive of bioenergy development including 
GTL Foundation Research, GTL Sequencing, GTL Bioethanol Research, and 
GTL Bioenergy Research Centers, all playing an important role in 
achieving energy independence for America. Also within BER is the 
Environmental Remediation subprogram and its Environmental Remediation 
Sciences Research program, both critical programs to advancing tools 
needed to clean up contaminated sites. ASA-CSSA-SSSA support the 
President's budget request for the Climate Change Research subprogram 
in BER which calls for a 13 percent increase bringing the funding level 
to $154,927,000. This subprogram supports many important areas of 
climate change research including: Climate Forcing which supports the 
Terrestrial Carbon Processes program and supports the Ameriflux network 
of research sites (which should receive a 7 percent increase, bringing 
funding to $14,379,730), as understanding the role that terrestrial 
ecosystems play in capturing and storing carbon is essential to 
developing strategies to mitigate global climate change. An additional 
program of high importance within the Climate Change Research 
subprogram is the Climate Change Response and its associated programs--
Ecosystem Function and Response, and Education. Finally, also under the 
Climate Change Research subprogram is the Climate Change Mitigation 
program, part of BER's support to the Climate Change Technology 
Program, which will continue to focus only on terrestrial carbon 
sequestration.
 department of energy office of energy efficiency and renewable energy
    Biomass is currently the only clean, renewable energy source that 
can help to significantly diversify transportation fuels in the U.S. 
DOE's Energy Efficiency and Renewable Energy Biomass Program is helping 
transform the Nation's renewable and abundant biomass resources into 
cost competitive, high performance biofuels, bioproducts, and biopower. 
The Office of Energy Efficiency and Renewable Energy (EERE) manages 
America's investment in the research and development (RD&D) of DOE's 
diverse energy efficiency and renewable energy applied science 
portfolio. For the Office of Energy Efficiency and Renewable Energy, we 
recommend a funding level of $1.843 billion, a 7 percent increase over 
fiscal year 2008. The fiscal year 2009 EERE budget maintains focus on 
key components of the AEI and Twenty in Ten including the Biofuels 
Initiative to develop affordable, bio-based transportation fuels from a 
wider variety of feedstocks and agricultural waste products.
    Note: ASA-CSSA-SSSA strongly oppose the use by the Department of 
the term ``agricultural wastes''. Crop residues, e.g., corn stover, 
play a very important role in nutrient cycling, erosion control and 
organic matter development. Recent studies have shown that excessive 
removal of crop residues from agricultural lands can lead to a decline 
in soil quality. By no means should they ever be referred to as 
``wastes''.
                    biomass and biorefinery systems
    Within EERE, the Biomass and Biorefinery Systems plays an important 
role providing support for Regional Biomass Feedstock Development 
Partnerships and Infrastructure Core R&D programs, both within 
Feedstock Infrastructure. Activities included within this program are 
resource assessment, education, sustainable agronomic systems 
development, and biomass crop development. The mission of the Biomass 
Program is to develop and transform our domestic, renewable, and 
abundant biomass resources into cost-competitive, high performance 
biofuels, bioproducts and biopower through targeted RD&D leveraged by 
public and private partnerships. ASA-CSSA-SSSA support the President's 
request for a 25 percent increase for the Feedstock Infrastructure 
program which would bring the funding level to $15,500,000.
        department of energy office of environmental management
    ASA-CSSA-SSSA urge the subcommittee to provide the Office of 
Environmental Management (EM) a 7 percent increase for fiscal year 2009 
which would bring total funding for EM to $6.094 billion. EM supports 
high-priority soil and ground water remediation and excess D&D at 
Portsmouth, Paducah, Los Alamos, Savannah River, Oak Ridge, Idaho, 
Hanford, and other sites. Technology Development and Deployment 
supports tank waste, soil and groundwater, and facility D&D.
                        climate change research
    ASA-CSSA-SSSA urge the subcommittee to continue to provide strong 
support for Climate Change Research to the following programs as 
follows: Climate Change Science Program (CCSP), $145,940,000; Climate 
Change Research Initiative (CCRI), $23,672,000; and Climate Change 
Technology Program (CCTP), $833,301,000. These three programs together 
will increase our understanding of the impacts of global climate change 
and also develop tools and technologies to mitigate these impacts.
                   basic and applied r&d coordination
    The Office of Science continues to coordinate basic research 
efforts in many areas with the Department's applied technology offices. 
Within this area is Carbon Dioxide Capture and Storage R&D (we 
recommend a 7 percent increase, bringing total funding to $18,055,000). 
The BER research includes understanding, modeling, and predicting the 
processes that control the fate of carbon dioxide injected into 
geologic formations, subsurface carbon storage, and the role of 
microbes and plants in carbon sequestration in both marine and 
terrestrial environments.
                         national laboratories
    The Office of Science manages 10 world-class laboratories, which 
often are called the ``crown jewels'' of our national research 
infrastructure. The national laboratory system, created over a half-
century ago, is the most comprehensive research system of its kind in 
the world. Five are multi-program facilities including the Oak Ridge 
National Laboratory. In the 2007 fiscal year, these facilities were 
used by more than 21,000 researchers from universities, national 
laboratories, private industry, and other Federal science agencies.
              national energy technology laboratory (netl)
    NETL's Carbon Sequestration Program is helping to develop 
technologies to capture, purify, and store carbon dioxide 
(CO<INF>2</INF>) in order to reduce greenhouse gas emissions without 
adversely influencing energy use or hindering economic growth. 
Terrestrial sequestration requires the development of technologies to 
quantify with a high degree of precision and reliability the amount of 
carbon stored in a given ecosystem. Program efforts in this area are 
focused on increasing carbon uptake on mined lands and evaluation of 
no-till agriculture, reforestation, rangeland improvement, wetlands 
recovery, and riparian restoration. ASA-CSSA-SSSA urge the subcommittee 
to direct the Department to increase funding for its terrestrial carbon 
sequestration program, specifically The Regional Carbon Sequestration 
Partnerships, which are collaborations between Government, industry, 
universities, and international organizations funded by DOE to 
determine the most suitable technologies, regulations, and 
infrastructure needs for carbon capture and sequestration.
                  oak ridge national laboratory (ornl)
    ORNL is one of the world's premier centers for R&D on energy 
production, distribution, and use and on the effects of energy 
technologies and decisions on society. Clean, efficient, safe 
production and use of energy have long been our goals in research and 
development. At ORNL, unique facilities for energy-related R&D are used 
both for technology development and for fundamental investigations in 
the basic energy sciences that underpin the technology work.
    Thank you for your thoughtful consideration of our requests.
                                 ______
                                 
  Prepared Statement of the Friends Committee on National Legislation 
                               (Quakers)
    The Friends Committee on National Legislation (Quakers) makes the 
following recommendations on budget request of the National Nuclear 
Security Administration for fiscal year 2009 (fiscal year 2009):
  --Reliable Replacement Warhead.--Under the Weapons Activities/
        Directed Stockpile Work program, delete all funding from the 
        $10 million requested. Include in the committee report the same 
        language that was in the Consolidated Appropriations Act, 2008: 
        ``No funding is provided for the Reliable Replacement 
        Warhead.''
  --International Nuclear Materials Protection and Cooperation.--Under 
        the Defense Nuclear Nonproliferation program, increase funding 
        by $195 million, from the requested $430 million to $625 
        million for fiscal year 2009. This would be the same amount as 
        was appropriated for fiscal year 2008.
  --Nonproliferation and Verification R&D.--Under the Defense Nuclear 
        Nonproliferation program, we oppose the administration's 
        proposed budget cut of $112 million and support a funding level 
        closer to the fiscal year 2008 level of $387 million, but make 
        no specific suggestion.
  --Global Threat Reduction Initiative.--Under the Defense Nuclear 
        Nonproliferation program, we strongly support the 
        administration's proposed increase of $26 million for fiscal 
        year 2009, to $220 million.
    Reliable Replacement Warhead.--Congress wisely rejected the 
administration's request for the Reliable Replacement Warhead for 
fiscal year 2008. The arguments have not changed since last year.
    The Joint Explanatory Statement to the Consolidated Appropriations 
Act for fiscal year 2008 explains:

    ``As stated in both the House and Senate reports, Congress believes 
a new strategic nuclear deterrent mission assessment for the 21st 
century is required to define the associated stockpile requirements and 
determine the scope of the weapons complex modernization plans. The 
NNSA is directed to develop a long-term scientific capability roadmap 
for the national laboratories to be submitted to the Committee on 
Appropriations.''

    FCNL agrees. The United States still has no 21st century nuclear 
weapons policy in place. Until the reports mandated by the fiscal year 
2008 defense authorization bill are completed, there is no framework to 
base long-term nuclear stockpile decisions on.
    The nuclear stockpile continues to be annually certified as safe 
and reliable by the Secretaries of Defense and Energy. There remains no 
need to rush to replace the plutonium pits in warheads, which have been 
found to have lifetimes of a century or more.
    Additionally, further development of RRW could have serious adverse 
international security consequences. Proceeding with RRW would send the 
wrong message to would-be proliferators, and undermine ongoing efforts 
to curb the nuclear programs of Iran and North Korea. Development of a 
new U.S. warhead would also provide nuclear weapons advocates in Russia 
with effective material to lobby for more aggressive Russian nuclear 
weapons modernization programs. Senator Sam Nunn's 2007 testimony 
before your House Subcommittee counterpart remains as relevant today:

    ``[I]f Congress gives a green light to this [RRW] program in our 
current world environment, I believe that this will be: misunderstood 
by our allies; exploited by our adversaries; and complicate our work to 
prevent the spread and use of nuclear weapons.''

    Finally, FCNL rejects the Energy Department (DOE) assertion that 
pursuing the RRW program is the only way to elicit the data needed to 
address stockpile certification concerns raised by the September 7, 
2007 review of RRW by the JASON Defense Advisory Group.
    We believe DOE can address the stockpile certification concerns 
raised by the JASONs review without developing RRW. The Joint 
Explanatory Statement to the Consolidated Appropriations Act for fiscal 
year 2008 also reaches this conclusion. By creating the Advanced 
Certification campaign to address these certification issues and 
simultaneously zeroing out the RRW program, the subcommittee (in 
conjunction with your House counterpart) determined that these issues 
could be pursued without advancement of the RRW program.
    Nuclear Nonproliferation Programs.--Hundreds of tons of nuclear 
weapons materials are stored at inadequately secured facilities in 
Russia and perhaps 20 other countries. One hundred and ten pounds of 
highly enriched uranium could be fashioned into a crude nuclear weapon 
by a committed group of violent extremists. Such a weapon would destroy 
downtown New York, killing more than half-a-million people from the 
immediate effects of the explosion. The cost would be well over $1 
trillion from the staggering economic disruption. A nuclear detonation 
in any U.S. city would cause devastation that would make the 9/11 
attack and the Katrina hurricane pale in comparison.
    These programs continue to enjoy strong support across the 
political spectrum, as evidenced by these statements from the past few 
months (emphasis added):

    ``. . . the Department of Defense's Cooperative Threat Reduction 
program and the Department of Energy's nuclear nonproliferation 
programs . . . address perhaps the single biggest threat to the U.S. 
homeland, the threat of nuclear terrorism and other weapons of mass 
destruction.'' Rep. Ike Skelton, Chairman, House Armed Service 
Committee, press release, December 7, 2007.

    ``Nuclear nonproliferation programs such as the NNSA's Global 
Threat Reduction Initiative, GTRI, are some of the most important tools 
we have to curb the threat of nuclear material being acquired by those 
who wish to do us harm.'' Sen. Pete V. Domenici, Ranking Member, Senate 
Appropriations Subcommittee on Energy and Water Development, 
Congressional Record, December 12, 2007, p. S15228.

    ``The proliferation of weapons of mass destruction remains the 
number one national security threat facing the United States and the 
international community.'' Sen. Richard G. Lugar, Ranking Member, 
Senate Foreign Relations Committee, ``Remarks at the Defense in Depth 
against WMD CPC Conference,'' Chantilly, VA, January 30, 2008.

    The House Budget Resolution for fiscal year 2009 also reaches the 
same conclusions:

    ``It is the policy of this resolution that . . . implementing the 
recommendation of the National Commission on Terrorist Attacks Upon the 
United States (commonly referred to as the 9/11 Commission) to 
adequately fund cooperative threat reduction and nuclear 
nonproliferation programs (securing `loose nukes') is a high priority 
and should receive far greater emphasis than the President's budget 
provides;'' H. Con. Res. 312, sec. 502, March 7, 2008 (emphasis added).

    Even the administration's budget request agrees:

    ``The convergence of heightened terrorist activities and the ease 
of moving materials, technology and information across borders have 
made the potential for terrorism involving weapons of mass destruction 
(WMD) the most serious threat facing the Nation. Preventing WMD from 
falling into the hands of terrorists is the top national security 
priority of this administration.'' Department of Energy, Fiscal Year 
2009 Congressional Budget Request, vol. 1, p. 453, February 2009 
(emphasis added).

    However, the administration's budget request does not match its 
rhetoric. We ask the subcommittee to increase the nuclear 
nonproliferation programs to at least last year's levels.
    We greatly appreciate the termination of the Reliable Replacement 
Warhead program in the Consolidated Appropriations Act for Fiscal Year 
2008. We also appreciate the additional funds the subcommittee provided 
for nuclear nonproliferation programs in the Continuing Resolution, the 
Supplemental Appropriations Act, and the Consolidated Appropriations 
Act. We believe the country is more secure because of your actions. We 
urge you again to apply those priorities to your fiscal year 2009 bill.
    Thank you for your consideration.
                                 ______
                                 
             Prepared Statement of the US Fuel Cell Council
    Chairman Dorgan, Ranking Member Domenici, and distinguished members 
of the subcommittee, on behalf of the 110 organizations of the US Fuel 
Cell Council (USFCC), I want to thank this subcommittee for supporting 
fuel cell funding over the years. We are writing to urge strong support 
for fuel cell and hydrogen programs managed by the Department of 
Energy. Specifically, we request the subcommittee to consider the 
following:
  --Provide $20 million to establish a Market Transformation program.
  --Restore $39 million to continue Hydrogen Production and Delivery 
        R&D.
  --Add $15 million to Technology Validation (managed by Vehicle 
        Technologies--Hybrid Electric Systems).
  --Add $5 million to restore EERE Manufacturing R&D.
  --Add $10 million to Fossil Energy's SECA program.
  --Add $4 million to Safety Codes and Standards, and maintain current 
        jurisdiction.
  --Maintain Education jurisdiction under the Hydrogen Technology 
        Program and fund at $4 million.
  --Restore $2 million to continue Fuel Processor R&D.
    Fuel cells are a family of technologies that are being developed 
for portable, stationary and transportation applications.
    These technologies offer a unique combination of benefits. And 
while our industry has invested billions to develop fuel cells for 
portable, stationary and transportation applications, we view our 
partnership with the Federal Government as vital. Funding for other 
worthwhile technologies must not come at the expense of the hydrogen 
program, as we feel this would impede efforts to become more energy 
independent.
    Establishing a Market Transformation program is a top priority for 
industry. Last year the Senate Energy and Water Appropriations 
Subcommittee provided funding for this endeavor; however, the measure 
was not included in the final appropriations bill. The program, when 
funded, will fulfill congressional intent as outlined in sections 782 
and 783 of the Energy Policy Act of 2005.
    The Market Transformation program will allow the Department of 
Energy to assist other agencies to purchase portable, stationary and 
transportation fuel cell systems. The program, which is voluntary, is 
seen by industry as a key component to commercialization as it would 
also help fuel cell manufacturers increase output, thereby reducing 
costs and creating economies of scale. It would also allow more Federal 
agencies to comply with new energy efficiency guidelines as directed by 
Executive Order.
    Unfortunately, the President's fiscal year 2009 request cuts or 
changes a number of critical path programs, including Hydrogen 
Production and Delivery R&D; Fuel Processor R&D; and Manufacturing R&D. 
These programs are designed to maximize availability of fuel cells and 
hydrogen at an affordable price.
    With regard to Hydrogen Production R&D and Delivery, the 
administration justifies the elimination of the program by stating that 
the ``core technology readiness goals established for 2015 can be met 
with the technologies for producing hydrogen from natural gas that were 
developed in prior years, so . . . near-term hydrogen production is no 
longer a critical-path barrier.'' We disagree. Cost-effective and 
environmentally benign methods of reforming hydrocarbons are still not 
commercially feasible. Several technical challenges remain, including 
low cost desulfurization methods. Current refining methods often 
produce flammable and/or hazardous waste. While alternative 
desulfurization materials can avoid these problems, they are 
prohibitively expensive--as much as 10 times the current cost. If 
reinstated by Congress, the Department should be instructed to fund 
improvements in removing sulfur-containing odorants from natural gas 
and liquefied petroleum gas. In addition, a coordinated, nationwide (or 
even international) effort to replace sulfur-containing odorants with 
non-sulfur-containing odorants should be initiated.
    In the transportation arena, there is growing support for ethanol 
and other biofuels, and for hybrid vehicles as responses to our energy 
challenge. These programs would not, by themselves, solve our problem. 
They would, however buy us time to make the transition to hydrogen. 
Automakers still view hydrogen as the ultimate transportation fuel as 
it allows long range driving, short fueling time with little to zero-
emissions. The public/private partnership in fuel cells is working, and 
more development and demonstration is needed.
    Work performed by the Technology Validation program is designed to 
demonstrate the performance of hydrogen infrastructure and fuel cell 
systems under real world operating conditions. If development work were 
to stop due to lack of funding it could take years or even decades to 
revive the effort. By restoring funding to fiscal year 2008 levels, the 
Department and private industry will continue to collect necessary data 
to continue development of fuel cells for vehicles
    Manufacturing R&D was also eliminated in the fiscal year 2009 
request. Last year, the administration put significant focus on this 
program as it was critical to ``cultivate a robust domestic 
manufacturing capability in evolving hydrogen infrastructure and fuel 
cell technologies, vital to establishing U.S. economic leadership in 
emerging hydrogen and fuel cell industries.'' After 1 year and a single 
round of solicitations awarded, the administration now feels the 
program is not a critical-path barrier to achieving the programs core 
technology readiness goals for 2015.
    Once again, we disagree with the President's plan. The Department, 
in cooperation with private industry, has made great strides in 
reducing the high-volume cost of fuel cells. Eliminating this program 
in its infancy will only delay efforts to bring the cost of fuel cells 
down.
    With regard to the Fossil Energy (FE) activities, we request $70 
million for fuel cell activities, which includes funding for the Solid 
State Energy Conversion Alliance (SECA). The SECA program is designed 
to develop high-efficiency fuel cells that are capable of utilizing a 
variety of domestically available fuel, including coal gas, ethanol and 
other biofuels.
    Proposed program cuts aside, we feel that most of the program 
reorganizations suggested are unnecessary. For example, a proposal to 
move hydrogen Education and Codes and Standards staff from the hydrogen 
program to the vehicle technologies program, in the name of 
consolidation, is misguided. Department leadership describes these as 
``complementary'' activities, however we strongly disagree.
    If altered, we fear the Department will not be able to accomplish 
its stated mission to educate the public, code and safety officials, 
and support DOE Market Transformation activities. Given the 
transformational nature of hydrogen, we believe these positions 
properly should remain within the hydrogen program for maximum 
effectiveness, and in any event reorganization ought to be left to the 
next administration.
    Supporting the remainder of the Presidents fiscal year 2009 plan--
Hydrogen Storage R&D, Fuel Cell Stack Component R&D, and Distributed 
Energy Fuel Cells Systems--will maintain the integrity of the 
competitively awarded projects administered by the Department of Energy 
and continue our public/private partnership designed to fully 
commercialize fuel cell and hydrogen technologies.
    Over the past 4 years, shortfalls in fuel cell and hydrogen core 
program funds have slowed and in some cases stopped high-priority 
research and development. Full funding can restore program momentum, 
and give the country some hope that we can break the cycle of energy 
dependence. Competition for energy supply and security of supply are 
both urgent concerns, and the Nation's investment, we believe, ought to 
match that urgency.
    Thank you for considering our requests.
                                 ______
                                 
    Prepared Statement of the National Association of State Energy 
                               Officials
    Mr. Chairman and members of the subcommittee, I am Dub Taylor of 
Texas and chair of the National Association of State Energy Officials 
(NASEO). NASEO is submitting this testimony in support of funding for a 
variety of U.S. Department of Energy programs. Specifically, we are 
testifying in support of no less than $75 million for the State Energy 
Program (SEP). SEP is the most successful program operated by DOE in 
this area. Within a $75 million funding level for SEP we would support 
the administration's proposed $10 million competitive program, but we 
do not support such an effort at the proposed funding level of $25 
million for the core SEP activities and $25 million for the competitive 
program. SEP is focused on direct energy project development, where 
most of the resources are expended. SEP has set a standard for State-
Federal cooperation and matching funds to achieve critical Federal and 
State energy goals. We also support $300 million for the Weatherization 
Assistance Program (WAP). These programs are successful and have a 
strong record of delivering savings to low-income Americans, 
homeowners, businesses, and industry. We also support an increase in 
the budget for the Energy Information Administration (EIA) to $120 
million, including an increase of $600,000 for EIA's State Heating Oil 
and Propane Program, in order to cover the added costs of increasing 
the frequency of information collection (to weekly), the addition of 
natural gas, and increasing the number of State participants. EIA's new 
State-by-State data is very helpful. EIA funding is a critical piece of 
energy emergency preparedness and response. NASEO continues to support 
funding for a variety of critical deployment programs, including 
Building Codes Training and Assistance ($10 million), Rebuild America 
($5 million), Energy Star ($10 million) and Clean Cities (Vehicle 
Technologies Deployment) ($12.5 million). NASEO supports funding for 
the Office of Electricity Delivery and Energy Reliability, at least at 
the fiscal year 2006 request of $161.9 million, with specific funding 
for the Division of Infrastructure Security and Energy Restoration of 
$18 million, which funds critical energy assurance activities. We also 
strongly support the R&D function and Operations and Analysis function. 
The industries program should be funded at a $74.8 million level, equal 
to the fiscal year 2005 levels, to promote efficiency efforts and to 
maintain U.S. manufacturing jobs, especially in light of the loss of 
millions of these jobs in recent years. Proposed cuts in these programs 
are counter-productive and are detrimental to a balanced national 
energy policy. The Energy Independence and Security Act of 2007 (EISA) 
also has a number of exemplary provisions which should also receive 
funding, including the new commercial buildings initiative. EISA also 
reauthorized SEP (section 531) and Weatherization (section 411) through 
fiscal year 2012. We remain concerned that a number of programs 
authorized in the Energy Policy Act of 2005 (EPACT 2005) have received 
no direct funding. Of special interest are sections 124, 125, 126, 128 
and 140 of EPACT 2005.
    Over the past 7 years, both oil and natural gas prices have been 
rising in response to expanded Chinese and Indian use, other 
international events, increased domestic use, the falling dollar and 
the result of the 2005 hurricanes. We expect $100+ oil to continue for 
an extended period of time, with an expanded problem as summer 
approaches. Gasoline prices may spike to $4/gallon. Diesel prices are 
already over $4/gallon. In addition, we now have quantifiable evidence 
of the success of the SEP program, which demonstrates the unparalleled 
savings and return on investment to the Federal taxpayer of SEP. Every 
State gets an SEP grant and all States, the District of Columbia and 
territories support the program.
    In January 2003, Oak Ridge National Laboratory (ORNL) completed a 
study and concluded, ``The impressive savings and emissions reductions 
numbers, ratios of savings to funding, and payback periods . . . 
indicate that the State Energy Program is operating effectively and is 
having a substantial positive impact on the Nation's energy 
situation.'' ORNL updated that study and found that $1 in SEP funding 
yields: (1) $7.22 in annual energy cost savings; (2) $10.71 in 
leveraged funding from the States and private sector in 18 types of 
project areas; (3) annual energy savings of 47,593,409 million source 
BTUs; and (4) annual cost savings of $333,623,619. The annual cost-
effective emissions reductions associated with the energy savings are 
equally significant: (1) Carbon--826,049 metric tons; (2) VOCs--135.8 
metric tons; (3) NO<INF>X</INF>--6,211 metric tons; (4) fine 
particulate matter (PM10)--160 metric tons; (5) SO<INF>2</INF>--8,491 
metric tons; and (6) CO--1,000 metric tons. The energy cost savings is 
much higher today, in light of higher prices. State monitoring and 
verification has confirmed SEP's effectiveness.
    State Energy Program Special Projects and Other Deployment 
Programs.--Through fiscal year 2005, SEP Special Projects provided 
matching grants to States to conduct innovative project development. It 
had been operated for 10 years and has produced significant results in 
every State in the United States. We support funding of DOE's new, 
proposed SEP competitive program, but only above a minimum $55 million 
SEP appropriation for the base SEP program. The States with lower 
populations are disadvantaged by this program.
    EISA authorized a new Energy Efficiency and Conservation Block 
Grants program (section 541-548). We look forward to working with 
Congress and the administration to make this program a reality. We hope 
start-up funding can be provided in fiscal year 2009. However, we 
remain concerned that a structure that requires DOE to review and 
process thousands of local government grant applications each year will 
be unworkable. With the elimination of the DOE/EERE Regional Offices, 
DOE contracting processes have become slower. There is now a more 
attenuated connection between State and local governments with DOE. We 
look forward to working with Congress, local governments and DOE to 
correct this situation. Joint planning needs to occur immediately. 
State energy offices have partnered with local governments for decades. 
This program should allow us to supplement and enhance those 
activities.
    Industrial Energy Program.--A funding increase to a level of $74.8 
million for the Industrial Technologies Program (ITP) is warranted. 
This is a public-private partnership in which industry and the States 
work with DOE to jointly fund cutting-edge research in the energy area. 
The results have been reduced energy consumption, reduced environmental 
impacts and increased competitive advantage of manufacturers (which is 
more than one-third of U.S. energy use). The States play a major role 
working with industry and DOE in the program to ensure economic 
development in our States and to try to ensure that domestic jobs are 
preserved. State energy offices are working effectively with DOE on the 
``Save Energy Now'' campaign. Funding for distributed generation should 
be included above these amounts.
    Examples of Successful State Energy Program Activities.--The States 
have implemented thousands of projects. Here are a few representative 
examples.
    California.--The California Energy Commission has operated energy 
programs in virtually every sector of the economy. The State has 
upgraded residential and non-residential building codes (including 
major 2008 upgrades), developed a school energy efficiency financing 
program (including $100 million for high performance schools), and 
instituted a new replacement program for school buses utilizing the 
newest natural gas, advanced diesel and hybrid technologies. The 
buildings program has reduced consumption by enormous amounts over the 
past few years, through alternative financing programs and outreach. 
California's greenhouse gas mitigation plans and a new solar initiative 
are moving forward.
    Colorado.--The State is conducting training to implement the new 
statewide energy code. The energy office is pushing hard to promote the 
use of biofuels and create infrastructure for the dispensing of the 
fuel. The Colorado Carbon Fund has been developed to help individuals 
and businesses develop and purchase offsets. In addition, the State is 
working promoting community-based small wind projects, geothermal 
energy, commercial buildings energy efficiency and a variety of solar 
energy programs.
    Hawaii.--After enacting significant legislation (``Energy for 
Tomorrow''), the State is focused on implementing a plan to diversify 
the energy sources utilized in the State. Distributed generation and 
utility scale solar projects are being installed. An aggressive 
hydrogen promotion program is ongoing. The State has a variety of 
energy performance contracting projects. They have upgraded their 
tropical energy building code. Extensive utilization of bioenergy and 
biofuels is a priority and has been expanded.
    Kentucky.--The energy office has been working on Energy Star 
promotion activities and high performance energy programs for schools. 
They are working to promote energy efficiency programs in the 
agricultural sector as well, including the Kentucky Rural Energy 
Consortium activities. They have been executing energy performance 
contracts for a variety of State facilities.
    Louisiana.--The State recently upgraded building energy codes. Now 
they are embarked on an extensive training program to ensure that the 
code will be followed and understood. In the alternative fuels area the 
State has instituted projects including CNG fueling, hybrid electric 
buses and bio-diesel promotions. Significant attention has been paid to 
energy efficient reconstruction after Hurricane Katrina.
    Mississippi.--The energy office has been working on an extensive 
energy education program, ranging from school children to higher 
education initiatives. The State has also been active in promoting 
alternative motor fuels, rural business opportunities with the 
agricultural sector, energy efficiency in State buildings and Energy 
Star product promotions.
    Missouri.--The energy office in Missouri has been operating a low-
interest energy efficiency loan program for school districts, colleges, 
universities and local governments. Thus far, public entities have 
saved more than $93 million, with more than 400 projects. The State 
energy office has also worked with the Public Utility Commission and 
the utilities within the State to get $20 million invested in 
residential and commercial energy efficiency programs, with a 
significant incremental increase to $20 million in investments in 2008 
alone. A new revolving loan for biodiesel has also been initiated. The 
energy office and the air agency have developed a program to set-aside 
NO<INF>X</INF> allowances for energy efficiency and renewable energy.
    New Jersey.--The State's Clean Energy Program expended 
approximately $171 million in 2006 alone, with the expected electricity 
and natural gas bill reductions for the life of these projects expected 
to be over $2.3 billion. New Jersey has an extremely aggressive solar 
energy program. Recent innovative projects have included a pilot 
photovoltaics power systems program in Phillipsburg, a wireless energy 
management demonstration project, an alternative fuel vehicle and a 
bio-diesel vehicle rebate program, etc.
    New Mexico.--After adoption of new energy legislation in 2007, the 
State is pushing for new renewable energy transmission projects, the 
implementation of the Renewable Portfolio Standard, expanded promotion 
of the sustainable buildings tax credits, use of energy bonds, 
promotion of ``solar roofs,'' and encouraging manufacturers to utilize 
the alternative energy product tax credit. They have been training 
green building professionals and promoting clean fuels and efficient 
transportation options.
    North Dakota.--The energy office in North Dakota has focused on 
promotion of alternative fuels, wind energy projects (including a wind-
to-hydrogen demonstration), biomass gasification (with the EERC Center 
for Renewable Energy in Grand Forks), energy efficiency for schools and 
local governments and deployment of renewable technology.
    South Dakota.--The energy office has instituted a energy efficient 
grants program for higher education projects, including a 50 percent 
match. Recent projects have included lighting, energy recovery and 
heating and controls upgrades. The energy conservation loan program is 
focused on State agencies and recent projects have included a biomass 
boiler conversion. These projects have been instituted throughout the 
State.
    Texas.--The Texas Energy Office's Loan Star program has long 
produced great success by reducing building energy consumption and 
taxpayers' energy costs through efficient operation of public 
buildings. This saved taxpayers more than $224 million through energy 
efficiency projects. In another example, the State promoted the use of 
``sleep'' software for computers, which is now used on 136,000 school 
computers, saving 42 million kWh and reducing energy costs by $3 
million annually. This is part of a broader energy efficiency program 
that has helped 3,500 schools and local governments thus far. The State 
has initiated the Texas Emissions Reduction Plan/Texas Energy 
Partnership in 41 urban counties to reduce emissions through cost-
effective energy efficiency projects.
    Utah.--The State has recently upgraded their building codes and 
they have been pushing to train builders, local code officials, 
architects and engineers. They also developed a zero-interest loan 
program for school districts. A State renewable energy tax credit has 
been utilized for large projects. The Governor has instituted a new 
renewable energy initiative.
    Washington.--The energy agency has been working on promoting energy 
efficiency and renewable energy tax incentives, net metering and 
biofuels development. The State is also working on promoting Energy 
Star products and they are working regionally on building energy 
efficiency activities. They have also instituted a regional energy 
planning process.
    West Virginia.--The Energy Division is focused on promotion of 
energy efficiency in the industries of West Virginia, including work in 
the steel, aluminum, chemical/polymer, glass, metal-casting, wood 
products and mining industries. They are also promoting Energy Star 
products, especially in the residential sector. The recently developed 
State energy plan is being utilized to promote a diverse energy future 
for the State.
                                 ______
                                 
     Prepared Statement of the American Society of Plant Biologists
    The American Society of Plant Biologists (ASPB) urges the 
subcommittee to approve the Department of Energy (DOE) fiscal year 2009 
budget request for the Office of Science of $4.7 billion. Please 
support the Office of Basic Energy Sciences request for $1.568 billion. 
Included with the Department's budget request for Basic Energy Sciences 
is $297,113,000 for leading research in the Chemical Sciences, 
Geosciences and Energy Biosciences Division. We urge you to support the 
Department's budget request for the division, including $35.6 million 
for Energy Biosciences research. ASPB supports the DOE budget request 
of $568.5 million for the Office of Biological and Environmental 
Research.
    Research the subcommittee supported within the Energy Biosciences 
program has led to many breakthroughs including increased understanding 
of the composition of the cell wall. These findings help allow 
scientists and the Department to project further research advances 
leading to cost-competitive production of cellulosic ethanol. Many 
years of basic research supported in Energy Biosciences led to these 
cell wall findings. The highly regarded Energy Biosciences program also 
funded basic research leading to the landmark discovery of an enzyme 
that can convert cellulose into sugar for facile ethanol production.
    Sunlight is the ultimate energy source for the earth. Harnessing 
even a fraction of this sunlight would provide us sufficient energy for 
years to come. Plants do this naturally through photosynthesis, also an 
area of research that has garnered continuous support from the DOE 
Energy Biosciences program. The burning of fossil fuels releases stored 
carbon dioxide into the atmosphere, contributing to global warming. 
Photosynthesis has the ability to recapture carbon dioxide, making 
plants a carbon neutral contribution to our energy needs.
    We credit the subcommittee, the Office of Basic Energy Sciences 
Director and Under Secretary for the Office of Science for maintaining 
each year standards for peer-review selection based on the highest 
merit of science proposals submitted to the Energy Biosciences program 
and other programs within the Office.
    These findings on the cell wall and enzymes are being built upon in 
a mission-related basic research effort by the Office of Biological and 
Environmental Research aimed at achieving advances that make possible 
cost-competitive production of cellulosic ethanol and other biofuels. 
The three Bioenergy Research Centers awarded by BER will increase 
understanding of cell wall and enzyme modifications needed to more 
cost-effectively capture sugars in the cellulose and hemicellulose in 
plant cell walls. We urge continued support for the three Bioenergy 
Research Centers. The Centers will also make possible advances in 
converting sugars to ethanol, biobutanol and other biofuels for the 
Nation's motorists. Cellulose is the most abundant biological material 
on earth. What was once only a dream of capturing and converting this 
abundant, renewable and sustainable resource into transportation fuels 
will become a reality thanks to continuing advances in plant and 
microbial science that the subcommittee is making possible. Advances in 
the fundamental understanding of oil crops such as soybean will 
contribute to increased biodiesel fuel production.
    We urge support for the $100 million initiative in Energy Frontier 
Research Centers (EFRCs). Under this initiative, universities, national 
laboratories, nonprofit organizations, and for-profit firms will be 
invited to compete, singly or in partnerships, to establish an EFRC. 
Centers will be selected by scientific peer review and funded at $2-5 
million per year over a 5-year period. These integrated, multi-
investigator Centers will conduct fundamental research focusing on one 
of more of several ``grand challenges'' recently identified in major 
strategic planning efforts by the scientific community. The purpose of 
these centers will be to integrate the talents and expertise of leading 
scientists in a setting designed to accelerate research toward meeting 
our critical energy challenges.
    One of our most pressing energy challenges is in transportation 
fuels. I wrote a letter to the editor on the exciting next generation 
of biofuels that was published in The Washington Times on March 6, 
2008. Following is the commentary:

               [From The Washington Times, Mar. 6, 2008]

                    the next generation of biofuels
    Oil closed at $100 a barrel February 19, for the first time. The 
Washington Times reported on February 20, (``Oil tops $100 on refinery, 
OPEC,'' Business) that fears that the Organization of the Petroleum 
Exporting Countries may cut production contributed to the price 
increase.
    Some analysts see this $100 mark as just a stop on the way to $200-
per-barrel oil, possibly by the end of this decade. The reason cited is 
similar to newspaper reports on the bump to $100 per barrel--OPEC's 
control of supply.
    In addition to the economic and political challenges imposed by our 
reliance on foreign oil, we also need to be concerned that greenhouse 
gas (GHG) emissions associated with the use of fossil fuel contribute 
significantly to global warming, evident from observed increases in 
global air and ocean temperatures, widespread melting of snow and ice 
and a rising global average sea level. Is there a large-volume 
alternative to the use of increasingly costly oil with its high GHG 
emissions? There will be.
    We are at the early stages of research on the next generation of 
biofuels using plant cellulose. Plant stems, stalks and leaves will 
become low-cost feedstocks for biofuels. A 2005 report from the U.S. 
Department of Agriculture and the U.S. Department of Energy projects 
that there will be enough biomass (cellulose) to meet more than one-
third of the current U.S. demand in transportation fuels.
    At the same time, next-generation biofuels will greatly lower 
emissions of stored carbon compared to gasoline. Biofuels will be 
better for Americans' pocketbooks and the environment.
    The President and Congress are to be commended for initiating 
needed investments in new-generation biofuels research. Additional 
investment is needed in all phases of plant research. This will help 
hasten the day when biofuels make up 33 percent instead of 3 percent of 
the transportation fuels used in the United States.

                                      C. Robertson McClung,
       President, American Society of Plant Biologists, Professor, 
                                                 Dartmouth College.

    Understanding plant growth and development at a systems level feeds 
into increasing biomass, as does understanding basic mechanisms of 
abiotic and biotic stress tolerance. Understanding how cell walls are 
synthesized and their composition determined is not only fundamental to 
our knowledge of basic plant biology, but also is a central issue in 
biomass production and conversion. The same can be said of 
understanding how plants synthesize and regulate the production of 
lipids and oils as well as many other plant constituents and processes.
    Please support increases in fiscal year 2009 for the Office of 
Biological and Environmental Research Program for Ecosystem Research 
(PER). PER sponsors experimental research to develop a better 
scientific understanding of potential effects of climatic change on 
U.S. terrestrial ecosystems and their component organisms. Field or 
laboratory studies are directed at understanding cause-and-effect 
relationships between temperature change and the abundance or 
geographic distribution of terrestrial vascular plants or animals in 
the United States. During the last decade there have been significant 
advances in the mechanistic understanding of how the component elements 
of terrestrial ecosystems are responding to elements of global change. 
These include changes in: atmospheric carbon dioxide levels, 
precipitation amount and seasonal distribution, and in daily and 
seasonal temperature cycles. As the primary producers of terrestrial 
ecosystems, the response of plants to multiple and interactive effects 
of global change drive the overall ecosystem response. This mechanistic 
research involving state-of-the-art physiological, biochemical, 
molecular, and genomic approaches has been almost exclusively conducted 
on individual plants exposed to global change scenarios under 
controlled environment conditions. Over the same period of time there 
have been tremendous strides made in the phenomenological 
characterization of the response of terrestrial ecosystems to 
interactive effects of global change. Again this research effort has 
centered on plants as the drivers of the central ecosystem processes of 
carbon, nitrogen, and water cycling. Plants also support the major 
biotic and trophic interactions within ecosystems and there has been 
intense interest to characterize the response of these interactions to 
global change.
    The emergent research frontier where breakthroughs are most needed 
is in bridging mechanism and phenomenology to understand the systems 
biology of a functioning ecosystem under realistic global change 
treatments.
    ASPB is a non-profit society of 5,000 scientists based primarily at 
universities. ASPB publishes the most frequently cited plant science 
journal in the world, Plant Physiology and the plant science journal 
with the highest impact factor, The Plant Cell. Thank you again for the 
opportunity to submit these comments to the subcommittee. Please let us 
know if we could provide any additional information.
                                 ______
                                 
  Prepared Statement of the Electric Drive Transportation Association
    In the Nation's two newest comprehensive energy laws, the Energy 
Independence and Security Act of 2007 (EISA), and the Energy Policy Act 
of 2005 (EPAct05), Congress recognized the need to invest in 
technologies and policies that will result in greater energy 
independence. Those bills authorize research and development, 
demonstration and deployment and manufacturing innovation programs to 
promote electric drive technologies, which use electricity to displace 
oil.
    The Electric Drive Transportation Association (EDTA) applauds the 
Senate's support for electric drive technologies, which reduce 
petroleum consumption and decrease emissions of greenhouse gases and of 
air pollutants. Using electricity, by itself or in conjunction with 
another fuel, electric drive technologies power the wheels of vehicles 
in use today and numerous others in development. These vehicles can be 
passenger vehicles, trucks, tractors, locomotives or ground support 
equipment. Electric drive also powers transportation infrastructure, 
such as truck auxiliary power units and truck stop electrification 
facilities, which allow idled trucks to power with clean, alternative 
electricity.
    Multiple fuel and vehicle technologies, including hybrids, battery 
electric vehicles, fuel cell vehicles, and plug-in versions of these 
electric drive vehicles, will be needed to end our unsustainable 
dependence on oil. The Department of Energy's Office of Energy 
Efficiency and Renewable Energy programs to accelerate development of 
electric drive vehicle technologies are pivotal to the effort to reduce 
oil consumption.
    The Senate's budget resolution provides $2 billion over the 
President's request for these programs. As you allocate fiscal year 
2009 funding for the important programs in the Office of Renewable 
Energy and Energy Efficiency, we respectfully request that you provide 
the resources necessary to realize the electric drive advances outlined 
in EISA and EPAct05.
                energy storage research and development
    Specifically, we support expanded funding for energy storage 
research and development at the Department of Energy's Office of Energy 
Efficiency and Renewable Energy (EERE), in particular, in the Vehicle 
Technologies program.
    Advanced batteries and other energy storage innovations are the key 
to commercialization of plug-in electric drive and will accelerate 
advances in all electric drive vehicles. The administration's request 
for the existing DOE program is essentially level with fiscal year 2008 
funding and does not reflect the intent of Congress as detailed in 
EISA.
    Fiscal year 2009 funding in the Hybrid Electric Systems account 
should be expanded to include resources for the EISA section 641 energy 
storage competitiveness program. This program, which is authorized at 
$295 million, includes basic and applied research, development and 
demonstration programs to support U.S. competitiveness in energy 
storage for electric drive vehicles and stationary applications.
                         fuel cell technologies
    We also urge you to ensure that the national effort to develop 
hydrogen fuel cell options is able to advance toward its goals. The 
fiscal year 2009 request for the Hydrogen and Fuel Cell Technologies 
program is $33 million, a reduction from fiscal year 2008 levels. The 
Department's proposed program realignment should not undermine the 
ongoing work that is yielding technology breakthroughs and will 
ultimately yield necessary longer term transportation options.
    For instance, the request for the Technology Validation program 
cuts funding to $15 million, half of the fiscal year 2008 level. In 
this program, hydrogen infrastructure and fuel cell systems are 
certified under real world conditions. This work guides research 
agendas and helps establish the ``real world'' data collection 
necessary to develop fuel cell vehicles. Consequently, we believe this 
program should be funded at least at the fiscal year 2008 level of $30 
million.
    Other programs necessary to the push toward commercialization are 
also cut or unfunded entirely, including a $3.5 million reduction in 
Safety Codes and Standards and a complete elimination of funding for 
Manufacturing R&D (which received $5 million in fiscal year 2008).
    Section 782 of EPAct05 authorizes Federal and State Procurement 
program funding to help government fleets acquire fuel cells vehicles. 
The program is designed to reduce the initial market barriers for 
advanced technology vehicles by covering the cost premium of the early 
Federal and State fleets of fuel cell vehicles. Congress should provide 
the $25 million authorized by EPAct05.
    The Department of Energy should not abandon its hydrogen production 
and delivery activities, as the administration requests, and funding 
for the Transportation Fuel Cell Systems Account should be restored to 
at least the fiscal year 2008 level of $8 million.
                      deployment and demonstration
    Other new and existing demonstration and deployment programs have 
the potential to accelerate commercial deployment of electric drive 
technologies, with the appropriate resources.
    Specifically, the EISA section 131 Transportation Electrification 
(b) Plug in Electric Drive Vehicle Program and (c) Near Term 
Transportation Electrification Program can help industry partners to 
work together to put on-road and non-road electric drive vehicles in 
use, enabling manufacturers and consumers to identify real world 
performance and establish initial market opportunities. The programs 
are authorized at a total of $185 million. We ask that you provide 
substantial funding to allow rapid ramp-up of these programs in their 
initial year.
    The Clean Cities program is another example of a successful, 
ongoing effort to deploy advanced vehicle technologies. The Clean 
Cities program consists of voluntary local and regional coalitions 
working to build clean and efficient private and municipal fleets, with 
advanced technology and alternative fuel vehicles. We appreciate the 
Congress' history of support for the program and request that you 
provide the technology- and fuel-neutral fund at the fiscal year 2008 
enacted level, $12.5 million.
    Another important activity at DOE in fiscal year 2009 will be the 
rulemaking that will be required to implement new EPAct fleet 
requirements. EISA's section 508 amends the existing fleet requirements 
to finally, explicitly include electric drive (fuel cell, hybrid, plug-
in hybrid, medium and heavy duty hybrid electric vehicles and 
neighborhood electric vehicles) and investments in alternative fuel 
infrastructure. The $1.8 million in the request is insufficient to 
ensure an expeditious and effective rule making process, and will delay 
the ability of covered fleets to comply with hybrid and other electric 
drive vehicles.
                        manufacturing innovation
    We also support building domestic capacity for advanced batteries 
and vehicles as envisioned by EISA 2007. The Senate Budget resolution 
also endorses the effort, explicitly providing an additional $2.7 
billion for green jobs initiatives, including ``loan guarantee and 
grant programs'' for ``. . . production of fuel efficient vehicles.''
    We respectfully ask that you direct the maximum available funds 
toward programs authorized in the EISA that will help new and existing 
manufacturers to produce advanced batteries and vehicles in the United 
States and expand employment in these fields.
    Specifically, we are referring to the section 136 Advanced 
Technology Vehicle Manufacturing Incentive Program, which provides 
grants for up to 30 percent of the cost of re-equipping or establishing 
advanced vehicle and component manufacturing facilities, equipment 
investment and engineering integration, and section 132: Domestic 
Manufacturing Conversion, which authorizes grants to manufacturers of 
fuel efficient vehicles and component suppliers to modernize production 
facilities.
    In addition, we recommend that additional funds be allocated to the 
existing Loan Guarantee Program to include the battery and component 
manufacturing guarantees activities authorized in EISA's section 134 
Loan Guarantees for Fuel Efficient Automobile Parts Manufacturers and 
section 135 Advanced Battery Loan Guarantee Programs. The 
administration request includes $10 billion of $38.5 billion for 
advanced and innovative energy; that amount should be increased with 
funds directed to the EISA-authorized manufacturing activities.
    EDTA appreciates the subcommittee's support for electric drive and 
for EERE's Vehicle and Hydrogen and Fuel Cell Technology programs. We 
respectfully ask that the subcommittee use the funds available in the 
fiscal year 2009 budget resolution to build on that support and 
establish the electric drive programs authorized in energy legislation 
and to ensure the continuing advancement of electric drive technology.
                                 ______
                                 
                    Prepared Statement of GE Energy
    The following testimony is submitted on behalf of GE Energy (GE) 
for the consideration of the subcommittee during its deliberations 
regarding the fiscal year 2009 budget requests for the Department of 
Energy (DOE). Among GE's key recommendations are: (1) support for the 
$241.6 million funding request for the Nuclear Power 2010 program to 
develop new U.S. nuclear generation; (2) $40 million in added funding 
for the GNEP program, for total funding of $341 million, to start the 
necessary activities for technology demonstration and to help industry 
provide DOE with the information necessary to support the 2008 
Secretarial Record of Decision; and (3) $27 million additional for the 
Advanced Turbines program, DOE's major research effort focusing on gas 
turbines for electricity production which also addresses key needs for 
hydrogen turbines. Investments in these and the other important 
programs discussed below will help to meet the challenges of assuring a 
diverse portfolio of domestic power generation resources for the 
future.
                             nuclear energy
    Nuclear Power 2010.--The NP2010 Program provides vital funding in 
three areas that are essential to the development of new nuclear 
generation capacity in this country. The program provides support for: 
(1) certification of new reactor designs, such as GE's advanced light 
water reactor technology (ESBWR); (2) advancement of detailed design 
and deployment planning to support new nuclear plant construction; and 
(3) preparation, submittal and NRC approval of two Combined 
Construction and Operating Licenses (COL). These activities are 
currently advancing with co-funding support from GE-Hitachi Nuclear 
Energy (GEH) and Westinghouse. Adequate DOE funding in fiscal year 2009 
is necessary to maintain the schedules supporting certification, COL 
license approval and construction initiation.
    The administration has requested $241.6 million for fiscal year 
2009 to support the NP2010 Program. GEH supports this funding level, 
which reflects the additional funding needed above initial estimates to 
facilitate continued ESBWR detailed design and deployment activities at 
levels that support industry expectations.
    Among other things, funding is needed to support critical detailed 
design activities including piping and instrumentation diagrams 
development, process flow diagrams, system design spec development, 3D 
pipe routing and pipe stress calculations and the development of 
procurement specifications for long lead and highly engineered 
equipment. These detailed design activities are required for advanced 
module design, simulation assisted engineering, and critical path 
construction activities. Moreover, these detailed engineering 
activities are critical to the refinement of the ESBWR capital cost 
estimate. Deployment planning activities include the development of 
site utilization plans, crane lift plans, construction execution plans, 
procurement strategies, warehousing strategies and craft labor 
planning. These are required to allow the ESBWR to be successfully 
deployed in the desired timeframe well within the next decade.
    The costs to complete these activities have escalated due to a 
number of contributing factors that have changed versus baseline 
assumptions made in 2005. These factors include, but are not limited 
to, NRC rate increases, large volume of additional NRC RAI's (Request 
for Additional Information), recent changes in regulatory position 
related to aircraft impact and Human Factors Engineering design 
process, customer expectations of increased design and COL 
standardization, and performance of COL compliance reviews. 
Additionally, higher resource demands from increased industry activity 
as well as the FOAKE nature of the effort have placed a substantial 
cost burden on the project. These and other factors have led to 
significant additional program cost above baseline assumptions. The 
fiscal year 2009 funding requested by the administration will help 
offset some of these cost escalations.
    The Advanced Fuel Cycle Initiative and the Global Nuclear Energy 
Partnership (GNEP).--The Global Nuclear Energy Partnership (GNEP), 
initiated in early 2006, benefits from DOE's research and development 
work currently conducted under the Advanced Fuel Cycle Initiative 
(AFCI) and previously conducted in the Advanced Liquid Metal Reactor 
program (circa 1985 to 1995). GNEP seeks to expand the use of nuclear 
power in a proliferation-resistant manner, and to use nuclear waste by 
reducing the long-term radiotoxicity of spent nuclear fuel. The key 
emphases are on solutions for proliferation resistant fuel separations 
and long-term nuclear waste reduction.
    In support of the broad GNEP goals and to help the DOE prepare for 
the 2008 Secretarial Record of Decision, DOE in October 2007 issued 
awards to four commercial teams, including the team led by GEH, for 
technical and conceptual design studies to provide information on 
commercial methods that are available to close the fuel cycle. The GEH 
team has explored the technical and business parameters that could 
support a viable system in a four-part submittal. The submittal 
included drafts of a Business Plan, a Technology Development Roadmap, a 
Conceptual Design and a Communication Plan. The Business Plan explored 
the current market, examined the financial viability of the Advanced 
Recycling Center and proposed policy direction for solutions to spent 
nuclear fuel. The cost and schedule report, a part of the Conceptual 
Design, served as the bridge between the technical details from the 
conceptual design and provided key financial input to the Business 
Plan. The Conceptual Design submittal (approximately 4,000 pages long) 
demonstrated in-depth knowledge developed during the Advanced Liquid 
Metal Reactor program, GE-funded programs and our current experience. 
The Technology Development Roadmap recommended direction on a future 
research and development program that could be started in fiscal year 
2009 to engage U.S. universities and national laboratories that would 
allow the United States to lead within the GNEP policy framework as 
well as have better collaborations with foreign governments. Finally, 
the Communication Plan provided guidance on how the DOE may communicate 
scientific, technical and practical information related to closing the 
nuclear fuel cycle.
    For fiscal year 2009, an additional $40 million above the 
administration's budget request, for total GNEP funding of $341 
million, is needed. The recommended additional funding should be used 
to help industry conduct technology demonstration projects, such as the 
manufacture and demonstration of: (1) key reactor components (e.g., 
reactor vessel); (2) electrometallurgical based fuel separation; and 
(3) a reactor and fuel separation simulator. GEH further recommends 
that adequate funding through the GNEP program be provided to both the 
U.S. industry and the laboratories for electrometallurgical separations 
and the PRISM reactor in support of the GNEP policy goals.
                             fossil energy
    Coal is facing a challenging landscape. In anticipation of carbon 
constraints, coal will require carbon capture and sequestration (CCS) 
if it is to continue serving as a major national energy resource. It is 
therefore necessary that the viability and efficacy of CCS be proven at 
large scale, for multiple projects and over a range of geologic 
settings. Only a major initiative and investment will provide the 
necessary confidence for the commercial and public acceptance of CCS. 
Meeting this challenge will require the combined resources of industry 
and government at all levels working in partnership.
    Financial incentives alone will not be sufficient to achieve the 
goal of validated and commercially robust CCS. Reducing the risk and 
time required to identify and characterize potential storage sites, to 
obtain Federal, State and local government commitments related to long-
term liability issues, to conduct the necessary reviews and to complete 
permitting will also require a substantial effort by all levels of 
government. The DOE must acknowledge this challenge in all programs 
related to CCS and provide specific assistance in addressing these 
issues. For this reason, the commitment of government to assume long-
term liability for monitoring and safety of the stored CO<INF>2</INF> 
should be sought in forthcoming solicitations for CCS development. 
Without such assurances it is not likely that industry participation 
will be forthcoming.
    FutureGen.--DOE's decision to restructure the FutureGen program 
correctly targets the deployment of CCS technology at a commercial 
scale. The proposed restructuring recognizes that carbon capture ready 
IGCC can be commercially supplied today; GE's commercial 630 MW IGCC 
plant already is carbon capture ready. To be successful, FutureGen's 
restructuring must address two overarching needs: (1) validation of 
CO<INF>2</INF> sequestration at a large scale; (2) in multiple 
geological settings and (3) demonstration that utility powerplants with 
carbon capture can be successfully integrated with sequestration. DOE's 
proposed restructuring can provide the platform to satisfy these needs 
and thus be a major step forward toward assuring a strong future for 
coal-based power generation. As the Department further develops the 
restructured FutureGen program, care must be taken, however, to avoid 
burdening large-scale CCS projects with unneeded additional complexity 
and cost. Nothing in the program's new structure should be allowed to 
divert attention from the central objective of proving that the most 
challenging goal can be met: that large-scale sequestration is viable 
and safe.
    Clean Coal Power Initiative.--GE supports CCPI and its role in 
validating and testing advanced technology. With the potential 
refocusing of FutureGen, that program's function as a platform for 
introduction and validation of advanced IGCC carbon capture 
technologies will not be available. CCPI must be ready to serve a 
larger role in the validation and deployment of those technology 
advancements that are needed to meet DOE's goal of no more than 10 
percent additional cost for CCS. However, mounting multiple projects 
within the overall anticipated funding of $250 million for Round 3 of 
CCPI will be challenging. Front-end-engineering and detailed site 
characterization for a CCS project alone could account for $40-$50 
million. After capital expenses for carbon capture equipment and 
sequestration pipeline and site development, there will be little if 
any funding remaining for the additional costs of CCS operation needed 
to validate sequestration capacity. For example, for a single 300 MW 
IGCC train equipped with carbon capture, the minimum 50 percent capture 
requirement of CCPI will result in over 1 million tons/year of captured 
CO<INF>2</INF> with potential annual incremental operating costs as 
high as $40-$50 million. In recognition of these cost challenges, the 
expectation for multiple project awards within the available CCPI 
funding needs to be reassessed.
    IGCC.--With its pre-combustion carbon capture, IGCC provides a 
significant advantage over combustion technology. Despite its current 
20 percent cost premium over pulverized coal combustion, IGCC can 
provide a lower cost of electricity with carbon capture. However, it 
should be recognized that IGCC is still in an early phase of commercial 
deployment and at the very beginning of a steep cost learning curve. 
Investment in technology development promises to have a high return.
    DOE's goal of a maximum 10 percent premium in cost of electricity 
for IGCC with carbon capture will not be met with current technology. 
It will require technology advancements. Key technology areas that can 
significantly lower cost and improve performance are advanced carbon 
shift, CO<INF>2</INF> capture and separations, overall process 
efficiency plus advancing IGCC's capability for subituminous coals. 
Therefore we strongly endorse the administration's request to increase 
fiscal year 2009 funding for IGCC by $15.5 million over the fiscal year 
2008 level to $69 million.
    In addition, cost reduction must be pursued vigorously for IGCC to 
realize its potential in maintaining coal competitiveness in a carbon-
constrained environment. From this perspective, the clearest and 
quickest path to reducing the cost of carbon capture is the accelerated 
deployment of IGCC and elimination of its cost premium. In order to 
achieve this, we recommend a continuation and broadening of the 
investment tax credits under the Energy Policy Act of 2005 from 6 to 12 
IGCC projects and covering a scope that helps to offset both the cost 
premium of IGCC as well as the incremental cost of carbon capture.
    Carbon Sequestration.--GE also endorses the administration's 
requested technology funding increase of $30 million from fiscal year 
2008 levels to $149 million for carbon sequestration. Research in 
sequestration needs to move forward as rapidly as possible. A primary 
focus needs to be the development of science-based requirements for 
site characterization, monitoring and CO<INF>2</INF> quality. 
Advancements in these areas are necessary to guide commercial-scale 
sequestration. The DOE also needs to quickly move forward with the 
demonstration programs authorized under section 702 of the Energy 
Independence and Security Act of 2007 in order to apply and gain 
experience with modeling, monitoring and rapid sequestration site 
characterization.
    Advanced Turbines.--GE recommends that funding be increased by $27 
million to a total of $55 million for the Advanced Turbines Program. 
This program represents the Department's high priority research effort 
focusing on the development of enabling technologies for high 
efficiency hydrogen turbines for advanced gasification systems. Gas 
turbine R&D is focused on advanced combustion and high temperature 
turbine technology for syngas/hydrogen fuels that will result from IGCC 
and carbon capture type power plants. The program addresses those gas 
turbine elements where the technology required for the use of syngas/
hydrogen fuels differs from the requirements for natural gas fueled gas 
turbines. Development of these technologies will help offset some of 
the efficiency and output penalties associated with CO<INF>2</INF> 
capture. Unless the fiscal year 2009 budget for the Advanced Turbines 
program is increased, funding will be inadequate for this promising 
high priority work, and the progress and benefits of this research will 
be delayed accordingly.
                                 ______
                                 
    Prepared Statement of the Energy Committee of ASME's Technical 
                              Communities
    Mr. Chairman and members of the subcommittee, the ASME Energy 
Committee is pleased to provide this testimony on the fiscal year 2009 
budget request for research and development programs in the Department 
of Energy (DOE).
           introduction to asme and the asme energy committee
    The 127,000-member ASME is a nonprofit, worldwide professional, 
educational and technical Society. The Energy Committee of ASME's 
Technical Communities comprises 30 members from 17 divisions of ASME, 
representing approximately 40,000 of ASME's members.
    ASME has long advocated a balanced energy supply mix to meet the 
Nation's energy needs, including advanced coal, petroleum, nuclear, 
natural gas, biomass, solar, wind, hydroelectric power, and energy 
efficient building and transportation technologies. Sustained growth 
will also require stability in licensing and permitting processes not 
only for power stations but also for transmission and transportation 
systems.
    Over the past few years, concerns have been growing among 
policymakers and the general public about adverse security and 
environmental impacts resulting from America's dependence on foreign 
sources of oil and gas. As a result, the current administration and 
Members of Congress have made calls to diversify our energy supply and 
increase R&D on advanced energy technologies. The Energy Committee 
fully supports their efforts.
    A forward-looking energy policy will require enhanced, sustained 
levels of funding for R&D as well as Government policies that encourage 
deployment and commercialization. The Energy Committee supports much of 
the fiscal year 2009 budget request, especially the increases in funds 
for fundamental scientific research. We wish to emphasize that 
increased funding in all areas is essential to meeting our national 
energy needs.
                            critical issues
    The Energy Committee would like to point out some critical energy 
issues:
  --There is a critical worldwide shortage of trained persons in the 
        work force at all levels. This includes persons in the building 
        trades, persons in the manufacturing industry, persons who will 
        be available to operate and maintain the energy systems, and 
        engineers and scientists at all levels who will perform the R&D 
        and design functions for all energy systems.
  --International programs in energy are growing and will continue to 
        do so in order to make use of shared resources. The 
        International Thermonuclear Experimental Reactor (ITER) and the 
        Global Nuclear Energy Partnership (GNEP) programs are examples 
        of this. The ITER program includes seven international partners 
        and the GNEP program now includes 21 countries. Consistent and 
        sustained funding is required to demonstrate that the United 
        States is a reliable partner in these efforts.
  --Investment guarantees for construction of new renewable and nuclear 
        facilities were enacted in previous energy legislation. These 
        guarantees will enable lower financing costs for a variety of 
        energy technologies leading to lower energy costs for the 
        American public. Extending these programs further into the 
        future will allow a reasoned rate of increase in construction 
        and application of these technologies for electric generation.
                             fossil energy
    The fiscal year 2009 budget request of $754 million for fossil 
energy represents an increase of $11 million over the fiscal year 2008 
appropriation. The Energy Committee supports the increase in coal 
research programs to $624 million. The effective use of coal in today's 
environment demands an increase in efficiency and a decrease in release 
of environmentally harmful emissions. The Energy Committee agrees with 
the DOE in its efforts to build IGCC plants by providing funding for 
the addition of CCS technology to multiple plants that will be 
operational by 2015. This approach builds on technological R&D 
advancements in IGCC and CCS technology achieved over the past 5 years.
    The use of advanced integrated gasification combined cycle 
technology and carbon sequestration may allow the United States to 
utilize its coal resources in a more environmentally sound and cost 
effective manner. We encourage strong and consistent funding for these 
programs now and in future years.
                        advanced fuels research
    The Energy Committee agrees that the advanced fuels research should 
be aimed at fuels used in the transportation system. We believe that 
the development of transportation fuel systems that are not petroleum 
based is a critical part of our future national energy policy. The 
fiscal year 2009 budget for biomass and bio-refinery systems R&D is 
increased by $27 million to $225 million. The Energy Committee 
encourages Congress to ensure that these research programs continue to 
receive adequate funding. We are also pleased to see the increase to 
$221 million in the effort related to vehicle technologies with a 
program emphasis on plug-in hybrid electric vehicles.
                             nuclear energy
    The Energy Committee is encouraged to see the increase in the DOE 
Nuclear Energy budget to $1.4 billion in fiscal year 2009. Nuclear 
power, as a non-greenhouse gas-emitting resource, is a critical 
component of a diverse U.S. power generation mix and should play a 
larger role in the Nation's base power supply.
    Proposed increases in the Nuclear Energy Budget are most evident in 
the Nuclear Power 2010 program with an increase of $108 million and the 
Advanced Fuel Cycle Initiative with an increase of $122 million over 
the fiscal year 2008 Appropriation. The Energy Committee believes that 
nuclear generated electricity is important to the Nation, especially in 
a more carbon conscious environment. Therefore continued R&D looking at 
advanced nuclear systems is critical.
    The GNEP program is vital to the international future of nuclear 
energy. Agreements are already in place to establish cooperative 
efforts. The U.S. based R&D elements of this program are now part of 
the Advanced Fuel Cycle Initiative. The Energy Committee concurs with 
the DOE goal to establish a full scale demonstration of the required 
facilities, including a burner reactor and fuel recycle plant that will 
not produce a pure plutonium product stream. The successful 
implementation of the GNEP initiative will lead to a minimization of 
high level nuclear waste, enhance the safeguarding of nuclear materials 
by keeping them in the reactor fuel cycle, lead to an effective and 
efficient use of all the potential energy contained in uranium and 
allow cost effective generation of electricity.
    The university reactor assistance and education assistance program 
has been successfully integrated into other programs within the Nuclear 
Energy budget. The Energy Committee supports the continuation of this 
change.
                 energy efficiency and renewable energy
    The Office of Energy Efficiency and Renewable Energy (EERE) manages 
America's investment in research, development and deployment of the 
Department of Energy's (DOE) diverse energy efficiency and renewable 
energy applied science portfolio. The fiscal year 2009 request of $1.25 
billion provides a balanced and diverse portfolio of solutions to 
address the urgent energy and environmental challenges currently facing 
our Nation. Most of the key EERE programs, including Biomass, Building 
Technologies, Geothermal Energy, Vehicle Technologies, and Wind Energy, 
have received increases in funding to support the growth of renewable 
energy that the United States needs. The potential to meet the growing 
need for domestically produced energy justifies sustained and increased 
support for these programs.
    The Hydrogen Program is reduced $65 million; however, $32 million 
has been added to hydrogen related activities and funding in the 
Vehicle Technologies Program. The Energy Committee encourages fully 
funding the Hydrogen Program as requested and recommends restoring a 
minimum level of $2 million in funding to the Hydrogen Production and 
Delivery R&D activity to coordinate efforts with other Hydrogen 
Production R&D activities in other DOE offices.
    The funding to the Water Power Program reflects increasing interest 
in ocean energy resource characterizations but it neglects the need for 
sustained support for conventional hydropower R&D. Hydropower is our 
Nation's largest renewable energy source. This includes pumped storage 
hydro and repowering existing hydropower facilities with advanced, 
environmentally benign equipment. The Energy Committee recommends 
increasing the fiscal year 2009 funding level of the Water Power 
Program to $10 million to continue supporting development and 
deployment of advanced conventional hydropower and ocean energy 
technologies.
    The integration of renewable electric generating systems into the 
operation of the electricity distribution system is critical to 
economic operation of these systems. The Energy Committee believes that 
R&D related to the integration of the electric grid and its control as 
a national system is imperative to the growth of renewable energy 
generating technologies and we encourage full funding for such 
research.
             science and advanced energy research programs
    The Energy Committee is pleased by the increased request for the 
Office of Science (OS), $4.72 billion or $749 million over the fiscal 
year 2008 appropriated amount, which attempts to restore the funding 
trajectory mandated in the America Competes Act of 2007 (Public Law 
110-69). OS programs in high energy physics, nuclear physics, 
biological and environmental research, basic energy sciences, and 
advanced scientific computing, serves every student in the country. 
These funds support research at the DOE Laboratories and at a large 
number of universities and colleges. We believe that basic energy 
research will also improve U.S. energy security over the long term, 
through its support for R&D on cellulosic ethanol, advanced battery 
systems, and fusion.
    Of the fiscal year 2009 requested increase, $214 million is for the 
ITER fusion energy international agreement taking place in Cadarache, 
France. This program did not receive funding in fiscal year 2008. The 
Energy Committee is encouraged by this cooperative agreement and the 
enormous potential it holds.
    The Energy Committee would like to impress upon the members of this 
subcommittee and their colleagues that high energy physics and nuclear 
physics programs are very important to all branches of engineering. The 
information gathered allows the development of data related to material 
formation and failure which guides the selection of materials for many 
day to day applications.
                           other doe programs
    DOE is also very active in areas outside of R&D. The environmental 
remediation program that funds the decommissioning and decontamination 
of old DOE facilities is one such program. The Energy Committee 
questions the advisability of the budget decreases in this program. 
Congress should appropriate the budget to ensure that this work is 
accomplished in an expeditious manner.
                               conclusion
    Members of the Energy Committee consider the issues related to 
energy to be one of the most important issues facing our Nation. The 
need for a strong and coherent energy policy is apparent. We applaud 
the administration and Congress for their understanding of the 
important role that scientific and engineering breakthroughs will play 
in meeting our energy challenges. In order to promote such innovation, 
strong support for energy research will be necessary across a broad 
portfolio of technology options. DOE research can play a critical role 
in allowing the United States to use our current resources more 
effectively and to create more advanced energy technologies.
    Thank you for the opportunity to offer testimony regarding both the 
R&D and other parts of the proposed budget for the DOE. The ASME Energy 
Committee is pleased to respond to additional requests for additional 
information or perspectives on other aspects of our Nation's energy 
programs.
                                 ______
                                 
    Prepared Statement of the State of Alaska Department of Natural 
                               Resources
    Dear Chairman Dorgan and Subcommittee on Energy and Water 
Development, I appreciate this opportunity to provide testimony 
outlining the urgent need for energy-related research and resource 
assessment in Alaska. Specifically, scientific work performed and 
funded in Alaska through the U.S. Department of Energy provides an 
invaluable service to the Nation by helping address energy security and 
development of technologies for the challenges unique to the Arctic. 
Alaska is one of the few places in the United States where the 
scientific unknowns are so ubiquitous, and the task so daunting, that 
Federal and State agencies seldom compete for the most high profile 
projects; there are too many to go around. In fact, we compliment each 
other's efforts in an attempt to tackle the many challenges that face 
us all. The Office of Fossil Energy, National Energy Technology 
Laboratory (NETL) Arctic Energy Office, plays a critical role in this 
collaborative effort.
    Federal land-management responsibility in Alaska is significant. 
Although final conveyances are not complete, the current Federal land 
allotment stands at 243 million acres, or about 64 percent of the total 
Alaska land surface. The State of Alaska manages about 24 percent, or 
90 million acres, and the Native corporations about 10 percent. 
Additionally, the energy potential in offshore Alaska Federal waters 
dwarfs nearly all other areas in North America. Those regions are now 
becoming the next global exploration frontiers of major international 
oil and gas companies. For example, the most recent lease sale, in the 
Chukchi Sea, astounded even the most optimistic of explorationists by 
the bonus bids that were recorded ($2.6 billion). Many of the geologic 
attributes that were targeted by the bidding extend onshore to the east 
into the National Petroleum Reserve Alaska (NPRA). Additionally, the 
formidable challenges that will be faced to safely bring any discovered 
commodities to market will require the collaboration of many entities.
    Arguably, Alaska has the greatest potential for undiscovered 
conventional resources of any area in the United States. Current mean-
case technically recoverable resource estimates (calculated by the U.S. 
Geological Survey for on-shore basins and Minerals Management Service 
for offshore Alaska basins) stand at 200 trillion cubic feet of natural 
gas potential, and 46 billion barrels of oil. These probabilistic 
estimates are for undiscovered conventional resources only, and do not 
include the vast amount of natural gas in unconventional reservoirs 
such as gas hydrates, coalbed methane, shale-bed gas, and low 
permeability reservoirs. Additionally, Alaska contains the largest 
reserves of coal in all of the United States. Given that fossil energy 
will realistically play a key role in the energy portfolio of America 
for the foreseeable future, it is imperative that ``all hands remain on 
deck'' and agencies like the NETL Arctic Energy Office remain in full 
functional operation. The alternative will only put us farther behind 
and even more dependent on the volatilities of the global energy 
market.
    The many important projects being managed from the NETL Arctic 
Energy Office attest to the critical role they play. Programs that 
collaborate with other agencies and address key aspects of national 
energy supply, Arctic engineering, environmentally sensitive 
exploration and development technologies, and rural energy supply will 
not be fully realized without committed and long-term participation by 
the Federal Government. The State of Alaska is rightfully spending 
hundreds of millions of dollars on these efforts, but we cannot do it 
alone.
    Many changes are needed in the national energy policy, including a 
focus on and facilitation of dramatic conservation efforts, development 
of non-fossil energy sources that make environmental and economic 
sense, technological development for better use of fossil fuels, and 
continued pursuit of new conventional and unconventional reserves. 
Nevertheless, whether or not we stand ready, energy demand in the 
United States is forecast to increase by 19 percent by the year 2030. 
Even more alarming, global demand for energy is forecast to increase by 
57 percent in that same time period. We shall either prepare for the 
inevitability of dwindling resources, shrinking supply and shortfall, 
and increasing dependence on foreign energy resources, or pray this 
calamity is not upon us and continue to cut budgets and hope that a 
miracle is ``just around the corner.'' I believe we should spend the 
capital to prepare now.
    Thank you for your consideration of this important issue.
                                 ______
                                 
  Prepared Statement of the Association of State Energy Research and 
               Technology Transfer Institutions (ASERTTI)
    Mr. Chairman and members of the subcommittee, I am David Terry, 
Executive Director of the Association of State Energy Research and 
Technology Transfer Institutions (ASERTTI). ASERTTI is submitting this 
testimony in support of funding for a variety of U.S. Department of 
Energy programs. State and local governments host a wide range of 
public interest energy organizations, including State research and 
technology transfer institutions, municipal energy organizations, land 
grant colleges, universities, and others. The members of ASERTTI focus 
on State- and local-level public interest, applied clean energy 
research and technology transfer. Our work aims to develop and improve 
clean energy technologies, rapidly transfer those technologies to the 
private sector, and aid in the transformation of markets. ASERTTI 
promotes and facilitates communication and collaboration in the above-
mentioned areas among its State and local members, as well as with 
other organizations, such as the U.S. Department of Energy (DOE) 
National Laboratories. Each year, our members invest hundreds of 
millions of dollars in State and local energy funds. We believe 
improved collaboration with our Federal partners would significantly 
leverage our efforts and State funds--improving our Nation's energy 
future. In this regard, ASERTTI wishes to highlight a number of funding 
priorities, as follow, within DOE's Office of Energy Efficiency and 
Renewable Energy (EERE) programs for the Industrial, Building, and 
Vehicle Efficiency Technologies, as well as for the Biomass, Solar, and 
Weatherization Assistance Programs.
                        industrial technologies
    The administration's fiscal year 2009 budget request would cut the 
Industrial Technologies Program by $2.3 million, compared with fiscal 
year 2008, and contains cuts in several very important programs. 
Following are ASERTTI's priorities within the Industrial Technologies 
Program.
    Industrial Assessment Centers (IAC).--The IACs are part of the 
industrial program's crosscutting budget. The IAC program is unique in 
that it trains university engineering students in conducting energy 
audits of small- and medium-sized facilities and, in so doing, helps 
the facilities identify and implement energy saving measures. We 
recommend that the program be restored to fiscal year 2006 funding 
levels of $6.4 million in fiscal year 2009, with additional increases 
in funding and in the number of centers in future years. This is $2.4 
million above the fiscal year 2008 funding level.
    Distributed Generation (DG/Distributed Energy).--Over the past 
decade, this program area has played a key role in the development of 
high-efficiency clean technologies like combined heat and power (CHP). 
These activities were moved around within DOE between EERE and the 
Office of Electricity. For fiscal year 2008, Congress appropriated 
$14.5 million for these activities. However, the administration's 
fiscal year 2009 request is only $1.5 million. The program is now part 
of the crosscutting piece of the Industrial Technologies Program. 
ASERTTI recommends a robust funding increase over the fiscal year 2008 
appropriated level for Industrial DG.
    Within this DG (or DE) program, it is especially important to 
restore critical Centers that have become the cornerstone for regional 
DG activities, providing technical assistance and becoming involved in 
State and local interconnection and emissions issues--greatly 
leveraging Federal, State, and private resources. Section 451 of the 
recently enacted Energy Independence and Security Act of 2007 expands 
these Clean Energy Application Centers (formerly Regional Application 
Centers) and authorizes $10 million for fiscal year 2009. ASERTTI 
strongly supports this authorization level. These Centers also would 
support market transformation activities to facilitate deployment and 
help reduce regulatory and institutional barriers. The Centers also 
would encourage public private partnerships to achieve these goals. 
Efficiency can be as high as 85 percent in CHP applications when 
compared to central station power generation efficiencies of 30-55 
percent. These activities are estimated to contribute as much as 11 
trillion BTUs of displaced energy and 0.2 MMTCE in carbon savings in 
2020.
    Industrial Best Practices.--This is one of DOE's most effective 
industrial energy programs. ASERTTI urges strong support for this 
program and recommends funding it at the administration's fiscal year 
2009 request level of $15.5 million.
    Industries of the Future (specific).--This valued program enables 
cost-shared research with industry at major State and local research 
institutions. The program focuses on energy-intensive industries such 
as steel, aluminum, glass and metal casting. This program was reduced 
from $63 million in fiscal year 2002 to $11 million in fiscal year 
2008. The administration's fiscal year 2009 request of $11.4 million 
represents a cut over the previous year, since most research funding is 
multi-year, and funding from earlier years is not being replaced. 
Moreover the glass portion of the program has been eliminated. Congress 
authorized an expanded Energy-Intensive Industries program under the 
Energy Independence and Security Act focused on industry-specific 
research. This program authorized a focused approach that responds to 
the needs of individual industries and requires their long-term 
commitment. To begin implementing this approach, ASERTTI recommends 
fiscal year 2009 funding of $24.2 million--$12.8 million above the 
administration's $11.4 million request.
                         building technologies
    Zero Energy Commercial Buildings Initiative.--The buildings sector 
in the U.S. accounts for about 40 percent of total energy consumption 
and 40 percent of carbon dioxide emissions, and nearly half of those 
emissions and of that consumption comes from commercial buildings. A 
large multi-year initiative is critical to achieve deep savings 
throughout the commercial buildings sector. This public-private 
collaboration will combine RDD&D, as well as better tracking of real 
energy performance, strategic research, and a market transformation 
plan. This newly-authorized program will be run by DOE with input from 
an industry consortium and is a priority for ASERTTI. Thus, ASERTTI 
recommends $20 million in fiscal year 2009 to fund this new Initiative, 
in addition to the administration's request of $13 million for the 
existing Commercial Buildings Integration program, for a total of $33 
million for these activities.
    Building Application Centers.--It is critical to ensure that 
technologies developed under various building research programs make it 
into the marketplace. This important initiative within Building 
Technologies consists of a regional approach to transferring 
technologies to the marketplace by providing hands-on, cost-shared 
technical assistance to builders, communities, and others. This 
approach has substantial State, local, and private support and is 
delivering results. To date, only two regions have been provided 
funding to move emerging technologies from the laboratory into the 
marketplace. ASERTTI urges the subcommittee to encourage DOE to expand 
and support these Centers in each region of the Nation.
                          vehicle technologies
    In the fiscal year 2009 budget request, the administration has 
proposed a variety of cuts to important vehicle programs--relative to 
fiscal year 2008 levels for the combined Vehicle and Hydrogen budgets--
that would help save energy at a time of record-high gasoline prices 
and would help reduce greenhouse gas emissions. ASERTTI's priorities 
are as follows:
    Hybrid Electric Systems.--The Vehicle and Systems Simulation and 
Testing activity relates in part to heavy vehicle systems optimization 
R&D, which warrants greater attention. The administration's proposed 
reduction in funding for this activity is a concern. ASERTTI recommends 
that $7.1 million be restored to Vehicle and Systems Simulation and 
Testing, which would restore funding for this effort to $28.2 million. 
Furthermore--and quite critically--energy storage efforts must be 
accelerated. ASERTTI therefore recommends that the Energy Storage R&D 
activity be funded at $59.5 million, an increase of $10 million above 
the administration's request for R&D efforts focused on electric, 
hybrid, and plug-in hybrid vehicle battery storage capabilities.
    Following on from these activities, State and local energy 
institutions together with DOE created the Nation's first demonstration 
fleet of plug-in hybrid electric school buses. More than one dozen of 
these buses are now transporting students to and from schools around 
the Nation. ASERTTI urges the subcommittee to provide plug-in hybrid 
deployment funds for heavy duty vehicles to both expand the early 
adoption of these breakthrough vehicles and to support ongoing 
incremental improvements that will create a self-sustaining market for 
these ``lead by example'' buses. The market for plug-in hybrid school 
buses offers a means to reduce harmful air and greenhouse gas 
emissions, and the opportunity to create niche markets in the public 
sector that can grow into commercial opportunities that transform the 
market. These heavy duty plug-in hybrid applications are critical to 
meeting the Nation's energy and climate goals.
                            biomass program
    ASERTTI Supports the Administration's Fiscal Year 2009 Request of 
$225 Million.--To this end, ASERTTI urges the subcommittee to support 
funding that targets regional coordination of biomass research, 
demonstration, and technology transfer programs that emphasize the 
alignment of State and Federal resources. Currently, little attention 
or funding is provided to achieve joint State-Federal coordination in 
this critical research area. We believe the Nation could reach the goal 
of cost-competitive cellulosic-derived biofuels more rapidly if State 
and Federal research and demonstration resources were better aligned. 
ASERTTI also encourages Congress to fund analysis and communication 
activities that better inform the public about the value of biofuels. 
ASERTTI urges DOE to substantially increase the RDD&D under this 
program area for stationary applications, including the development of 
bio-based products and renewable, pipeline-quality biogas. Energy 
innovations resulting from ongoing cellulosic RD&D should be leveraged 
to address stationary application challenges, such as the need to 
increase yield from anaerobic digesters, improve thermochemical 
gasifiers, refine renewable gas cleanup for use in both power 
generation and direct use applications. These stationary applications 
also have the ability to improve the economics, and further reduce the 
carbon footprint, of biofuels production.
                          solar energy program
    The solar thermal research program is dominated by water-intensive 
technologies for cooling. It is critical, particularly as water 
resources are already scarce in some areas, and becoming more so 
throughout the United States, to focus additional RDD&D efforts on dry 
cooling systems. ASERTTI urges Congress to restore the Solar Energy 
Program to at least the fiscal year 2008 appropriated level of $168.5 
million, which is $12.4 million above the administration's fiscal year 
2009 request of $156.1 million. ASERTTI also strongly recommends that 
there be a particular emphasis going forward on dry cooling systems.
                   weatherization assistance program
    ASERTTI supports the Weatherization Assistance Program (WAP), as it 
helps low-income households, the elderly, and the disabled by improving 
the energy efficiency of low-income housing. Each year the program has 
exceeded its target and has weatherized approximately 100,000 homes. 
The program also is reducing energy consumption in participating homes 
by about 20 percent. Increased funding would allow WAP to expand 
quickly to reduce energy usage by approximately 25 percent in each 
assisted home. This represents savings that families can use to pay for 
other critical needs, while reducing the Nation's energy demand by the 
equivalent of 18 million barrels of oil every year. The 
administration's request to eliminate funding for the program should be 
rejected, and ASERTTI urges the subcommittee to fund WAP at no less 
than $300 million.
                                 ______
                                 
   Prepared Statement of the University Corporation for Atmospheric 
                            Research (UCAR)
    On behalf of the University Corporation for Atmospheric Research 
(UCAR) and the university community involved in weather and climate 
research and related education, training and support activities, I 
submit this written testimony for the record of the Senate Committee on 
Appropriations, Subcommittee on Energy and Water Development. We urge 
you to fund the DOE Office of Science at the requested level of $4.7 
billion or higher as authorized by the America COMPETES Act.
    UCAR is a 71-university member consortium that manages and operates 
the National Center for Atmospheric Research (NCAR) and additional 
programs that support and extend the country's scientific research and 
education capabilities. In addition to its member research 
universities, UCAR has formal relationships with approximately 100 
additional undergraduate and graduate schools including several 
historically black and minority-serving institutions, and over 50 
international universities and laboratories. UCAR's principal support 
is from the National Science Foundation with additional support from 
other Federal agencies including the Department of Energy (DOE).
                         doe office of science
    The atmospheric and related sciences community is concerned about 
the final outcome for basic research in many areas of the fiscal year 
2008 Consolidated Appropriations Act, including the DOE Office of 
Science. We do understand that appropriators were faced with extremely 
difficult funding choices, but the negative consequences of not 
investing now in science that contributes to our economy, standard of 
living, and safety and security, will only multiply in the future as 
this country's global competitors invest on a broader scale than ever 
before. We appreciate your support for last year's America COMPETES Act 
and urge you to reinstate the doubling track for the Office of Science 
with the fiscal year 2009 budget, and/or with a supplement to the 
fiscal year 2008 budget.
    There will surely be immense budget pressures facing you again in 
your deliberations this year, but we ask that you focus on science as a 
national priority. We urge you to fund the DOE Office of Science at the 
requested level of $4.7 billion or higher as authorized by the America 
COMPETES Act, ask that you make the Office a national priority when 
difficult choices have to be made at the end of the budget process, and 
that you enable the agency to apply the entire appropriation toward 
planned agency research priorities.
Biological and Environmental Research (BER)
    Within the Office of Science, the Biological and Environmental 
Research (BER) program has as a key goal, the development of knowledge 
necessary to identify, understand, and anticipate the potential health 
and environmental consequences of energy production and use. These are 
goals that are essential to our country's well being and security. 
Peer-reviewed research programs at universities, national laboratories, 
and private institutions play a critical role in the BER program by 
involving the best researchers the Nation has to offer, and by 
developing the next generation of researchers. All BER research 
projects, other than those that have been in the ``extra projects'' 
category, undergo regular peer review and evaluation.
    I urge the subcommittee to fund Biological and Environmental 
Research at the level of the fiscal year 2009 budget request, $568.9, a 
4 percent increase over the fiscal year 2008 level, and to enable BER 
to apply that entire amount toward planned agency research priorities 
that are peer-reviewed and that involve the best researchers to be 
found within the Nation's university research community as well as the 
DOE labs.
BER's Climate Change Research Program
    Within BER, the Climate Change Research subprogram addresses some 
of the most critical research priorities facing the world today 
including developing the ability to predict climate change and its 
impacts on global and regional scales, exploring the impacts of high 
levels of CO<INF>2</INF> on the Earth system, and providing the 
scientific foundation necessary to help mitigate those impacts.
    One example of the compelling work being done is a BER contribution 
to the International Polar Year (IPY) utilizing the Community Climate 
System Model to simulate eight future emission scenarios. The results 
projected a decline in sea ice, with one scenario showing the Arctic 
becoming ice-free in summer at the end of this century--an occurrence 
that could change sea level, economies, world trade, and political 
stability. Such advanced modeling activities supported by the BER 
Climate Change Research are obviously critical to our understanding of 
the current global climate and areas that are being transformed by 
rapid change, but they are also critical to our understanding of what a 
changed world may look like in the very near future.
    In 2009, Climate Change Research funded work will continue to focus 
on resolving the role of clouds and aerosols in climate change and 
their interaction with solar radiation. While great progress has been 
made in recent years, this remains one of the greatest scientific 
uncertainties in climate change prediction. As we learn more about 
climate change and the anthropogenic influences that are forcing change 
at an unnatural rate, those results must be made accessible to 
researchers working to understand the regional and local impacts that 
climate change will produce. A new Climate Change Research effort is 
strengthening the connections between the climate modeling research 
communities and those that address integrated assessment of impacts in 
addition to exploring adaptation methods. To be of use at regional 
scales (where details make tremendous differences at local ecosystem 
levels where we all live), models must be resolved at ever higher 
resolutions to project local impacts with any reasonable certainly. 
Running models at these resolutions presents complex problems of data 
retrieval, archiving, analysis, and dissemination for which BER is 
developing the tools and capabilities necessary.
    The Climate Change Research goal to deliver improved regional 
climate data and models is critical to the ability of policy makers and 
stakeholders to provide stewardship resulting in a healthy planet--and 
it is particularly important as signs of increasingly dramatic change 
in our climate and environment continue to appear.
    The Climate Change Research Request of $154.9 million for fiscal 
year 2009 is a 13.2 percent increase over fiscal year 2008 which will 
make up some of the ground lost in previous years. Within this amount, 
Climate Change Modeling receives $45.4 million--a critical 46 percent 
increase over fiscal year 2008. These additional resources are 
absolutely necessary for the work that must be accelerated at the 
regional level. I urge the subcommittee to fund Climate Change Research 
at the fiscal year 2009 requested level of $154.9 million, and to 
enable DOE to apply the entire amount toward planned national research 
priorities.
Advanced Scientific Computing Research (ASCR)
    Within DOE's Office of Science, Advanced Scientific Computing 
Research (ASCR) delivers leading edge computational and networking 
capabilities to scientists nationwide, enabling advances in computer 
science and the development of specialized software tools that are 
necessary to research the major scientific questions being addressed by 
the Office of Science. Development of this capacity is a key component 
of DOE's strategy to succeed in its science, energy, environmental 
quality, and national security missions.
    ASCR's continued progress is of particular importance to 
atmospheric scientists involved with complex climate model development, 
research that takes enormous amounts of computing power to address the 
interaction of the earth's systems and global climate change. ASCR is 
one of the most important resources supporting climate work in this 
country.
    Within ASCR, several programs are of particular importance to 
climate change computer modeling work, particularly through the 
development of complex software. The Leadership Computing Facility 
(LCF) at Oak Ridge National Laboratory (ORNL) provides a high 
performance computing resource and, in 2009, will continue the 
development of its world class facility with over 80 percent of its 
resources being made available to unclassified scientific research. In 
addition, the National Energy Research Scientific Computing Center 
(NERSC) operated by Lawrence Berkeley National Laboratory, and the 
Energy Sciences Network (ESnet) are also important enablers for climate 
research, as is Argonne National Laboratory (ALCF) which is 
strengthening its infrastructure to prepare for future computing 
capacity. These computational and networking resources play a vital 
role in the progress of U.S. climate research.
    The high performance computing facilities for the Office of Science 
serve thousands of scientists throughout the country at laboratories, 
universities, and other Federal agencies. Computing time is awarded to 
research groups based on peer review of submitted proposals. Basic 
research accomplished at these facilities covers a wide range of 
disciplines including climate modeling. ESnet enables researchers at 
laboratories, universities and other institutions to communicate with 
each other using collaborative capabilities that are unparalleled. This 
high-speed network enables geographically distributed research teams to 
collaborate effectively on some of the world's most complex problems. 
Researchers from industry, academia and national labs, through this 
program, share access to unique DOE research facilities, support the 
frequent interactions needed to address complex problems, and speed up 
discovery and innovation.
    LCF, NERSC, and ESnet play complementary roles in advancing the 
complex and challenging science of climate change and other scientific 
areas of extreme importance to the security and quality of life of our 
citizens. I urge the subcommittee to support the President's fiscal 
year 2009 request of $368.82 million for DOE Advanced Scientific 
Computing Research, a 5 percent increase over fiscal year 2008, and to 
enable DOE to apply the entire amount toward planned national 
priorities.
Scientific Discovery Through Advanced Computing (SciDAC)
    BER and ASCR (through its Computational Partnerships program) 
partner to support Scientific Discovery Through Advanced Computing 
(SciDAC), a progressive program that provides the innovations in 
computational research and development for petascale computational and 
data management endeavors, including climate research. Along with very 
broad scientific applications, a current SciDAC goal is to break 
through the uncertainty still challenging researchers concerning the 
role of clouds and aerosols in climate change. Additional SciDAC 
investments address the role of land-ice in the climate system, 
improved representation of ice sheets in global circulation models, and 
understanding of climate extremes in a changing climate. Much of the 
research is designed to provide global community access to the data for 
impact studies as well as national and international assessments (e.g., 
the Intergovernmental Panel on Climate Change) concerning the 
consequences of global warming. This work is becoming increasingly 
critical as evidence mounts that regions of Earth are warming at an 
alarming rate. SciDAC research activities are competed through a merit 
review process and carried out via a synthesis of talent drawn from 
universities, national laboratories, and private institutions.
    BER funding for SciDAC is requested at $7.7 million for fiscal year 
2009 with ACSR supporting SciDAC Computational Partnerships at $52.0 
million. I urge the subcommittee to support the President's fiscal year 
2008 requests within BER and ASCR for overall SciDAC funding.
                                 ______
                                 
                Prepared Statement of RTI International
    I am writing in support of the following subprogram in the fiscal 
year 2009 Energy and Water appropriations measure: Department of 
Energy--Fossil Energy Research and Development: Coal, Fuels and Power 
Systems, Advanced Integrated Gasification Combined Cycle.
    I respectfully request that the President's $69 million request for 
the Advanced Integrated Gasification Combined Cycle subprogram be fully 
funded.
    Congress and the administration have highlighted energy as critical 
to America's economic future and national security. It is all too clear 
that the United States requires cost-effective technologies for clean 
use of coal to generate electricity and fuel vehicles, to save jobs, 
and enable domestic growth in critical industries such as chemicals, 
fertilizer, pulp and paper, metals, and glass.
    Funded by Congress, the Advanced Integrated Gasification Combined 
Cycle subprogram has a historic opportunity to enable such benefits to 
be achieved in a manner that is environmentally responsible.
    DOE's plans for 2009 include scaling up a new technology that 
greatly reduces the cost and improves the performance of a crucial step 
in any clean use of coal: cleaning the synthetic gas--``syngas''--that 
is made from coal. In every opportunity for clean use of coal, the 
first steps are to make and then clean the syngas. The new technology, 
called ``warm-gas clean-up,'' has lower capital and operating costs 
than existing technologies, and does a better job of removing 
pollutants. This technology meets or exceeds requirements in the Energy 
Policy Act of 2005 for reduced sulfur and mercury emissions, 
contributes to meeting the EPACT's requirements for efficiency, and 
enhances the opportunity for carbon capture. Furthermore, this 
technology provides 10 percent greater efficiency compared with current 
technologies for generating electricity from coal, which causes a 10 
percent reduction in carbon dioxide emissions without additional costs 
or equipment.
    The administration has included sufficient funds for DOE's plans to 
scale up this syngas-cleaning technology. DOE's plans are well-timed, 
because there is substantial industry interest in scaling up the 
technology.
    Time is of the essence to lower the costs of gasification. 
Worldwide, electric utilities, chemical companies, and other industries 
are making decisions today about how they will use coal in the near 
future. Better technology at lower costs will enable expanded use of 
gasification, with all of its environmental benefits, instead of 
conventional approaches. For example, gasification for generating 
electricity emits less carbon dioxide than conventional power plants. 
Warm-gas clean-up prevents acid-forming pollutants without the solid 
waste and carbon dioxide problems that come with scrubbing sulfur from 
power plants' emissions. Further, warm-gas clean-up enables a cleaner 
syngas, which means cleaner exhaust gas from the electric generating 
turbine at greater thermal efficiency. That in turn yields benefits 
such as significantly reduced cost to capture carbon (and the EPA 
already notes that carbon capture will be much less costly with 
gasification than with conventional power plants).
    To realize the environmental and economic benefits of gasification, 
DOE must have sufficient funds to implement the bipartisan intent of 
Congress expressed in the Energy Policy Act of 2005.
    I recognize the constraints by which the subcommittee is bound. I 
appreciate your consideration of my request that the Advanced 
Integrated Gasification Combined Cycle subprogram in DOE's Fossil 
Energy Research and Development be funded at or above the President's 
$69 million request for fiscal year 2009.
    If you have any questions or require additional information, please 
feel free to contact me. I look forward to working with you as the 
fiscal year 2009 Energy and Water appropriations bill takes shape.
                                 ______
                                 
             Prepared Statement of Florida State University
    Florida State University is seeking $4,000,000 from the U.S. 
Department of Energy (Electricity Transmission and Distribution) for 
our Electric Power Infrastructure, Security R&D Program.
    Mr. Chairman, I would like to thank you and the members of the 
subcommittee for this opportunity to present testimony before this 
subcommittee. I would like to take a moment to briefly acquaint you 
with Florida State University.
    Located in Tallahassee, Florida's capitol, FSU is a comprehensive 
Research university with a rapidly growing research base. The 
University serves as a center for advanced graduate and professional 
studies, exemplary research, and top-quality undergraduate programs. 
Faculty members at FSU maintain a strong commitment to quality in 
teaching, to performance of research and creative activities, and have 
a strong commitment to public service. Among the current or former 
faculty are numerous recipients of national and international honors 
including Nobel laureates, Pulitzer Prize winners, and several members 
of the National Academy of Science. Our scientists and engineers do 
excellent research, have strong interdisciplinary interests, and often 
work closely with industrial partners in the commercialization of the 
results of their research. Florida State University had over $190 
million this past year in sponsored research awards.
    Florida State University attracts students from every State in the 
Nation and more than 100 foreign countries. The University is committed 
to high admission standards that ensure quality in its student body, 
which currently includes National Merit and National Achievement 
Scholars, as well as students with superior creative talent. Since 
2005, FSU students have won more than 30 nationally competitive 
scholarships and fellowships including 2 Rhodes Scholarships, 2 Truman 
Scholarships, Goldwater, Jack Kent Cooke and 18 Fulbright Fellowships.
    At Florida State University, we are very proud of our successes as 
well as our emerging reputation as one of the Nation's top public 
research universities.
    Mr. Chairman, let me summarize our primary interest today.
    The electric power system is critical as a fundamental enabling 
infrastructure for every aspect of the economy, national security, and 
defense. Large-scale failures in the electrical grid systems of North 
America and Europe have made us aware of the critical nature of our 
dependence on the availability of electrical power. A contributing 
factor to these failures was a lack of detailed understanding of the 
system response to an initial minor disturbance. Lack of investment in 
power systems grids over the last 20-30 years has eroded the redundancy 
traditionally built into the system. Over time, this lack of investment 
in R&D resulted in the loss of many power engineering educational 
programs. The Nation is now facing an acute shortage of power 
engineers.
    This multi-university project will build on existing expertise at 
FSU, other Florida universities, and several of DOE's National 
Laboratories. The research conduced will focus on critical issues 
associated with modernizing the U.S. electric grid to improve 
reliability, security, and efficiency and to support new technologies. 
Much of the research will include industrial partners, thereby ensuring 
rapid technology transfer from research-to-practice. These activities 
include:
  --Employing the real time digital simulator capability at FSU to 
        simulate real-time behavior of regional and local power systems 
        and interconnections and to examine areas of vulnerability to 
        major outages and cascading failures. We plan that this will 
        become a national user facility with remote access capability 
        over high-speed connections.
  --Use of the real-time digital simulator through comparisons of 
        concurrent real time modeling and an actual system to assess 
        new technologies.
  --Investigation into technology needs for enabling wide area 
        measurement, communications, and control advances for improved 
        coordination over large areas.
  --Advanced materials R&D for superconductivity applications in power 
        systems.
    Through coordinated efforts across multiple universities, FSU will 
lead the initiative to address future needs to assure reliable energy. 
We are seeking $4,000,000 in fiscal year 2009 for this important 
project.
                                 ______
                                 
       Prepared Statement of the Ground Water Protection Council
    Honorable Chairman Dorgan and members of the subcommittee, the 
following request by the Ground Water Protection Council (GWPC) is for 
continued funding in fiscal year 2009, of the U.S. Dept of Energy's Oil 
Technologies-Effective Environmental Protection: Risked Based Data 
Management (RBDMS) and Cost Effective Regulatory Approaches (CERA) 
programs. The request for fiscal year 2009 is at the fiscal year 2008 
enacted level of $1.2 million (RBDMS) and $500,000 (Energy Efficiency).
  --RBDMS ACCOMPLISHMENTS.--Data utilities from the Risk Based Data 
        Management System are installed and under use in 25 States and 
        1 Indian Nation. The use of RBDMS streamlines State oil and gas 
        permit and response times, enhances ground water protection, 
        provides improved public and industry joint access to data and 
        records, saves money for State and Federal agencies, reduces 
        paper reporting, increases production for small independent 
        domestic operators, and creates real time efficiencies in State 
        and Federal domestic oil and gas programs. Over the life of 
        this successful program, the States have matched Federal 
        funding with their own funds at a 3:1 ratio. If state in-kind 
        contributions are added, the State-to-Federal participation 
        ratio increases substantially. This has been, and continues to 
        be, a sound investment of Federal funds.
    Fiscal year 2009 funding would provide:
    E-Commerce.--The development of new RBDMS e-commerce applications 
in fiscal year 2009 will increase environmental monitoring and 
compliance and at the same time decrease both cost and time allocation 
for small oil and gas producers. The result is money saved by State 
governments, Federal agencies and increased domestic oil and gas 
production.
  --Cost Effective Regulatory Approaches.--The GWPC will focus on three 
        cost effective priorities: (1) reducing the costs of 
        information exchange between the oil and gas and mining 
        industries and regulatory agencies, (2) eliminating duplicative 
        reporting requirements across State and Federal jurisdictions, 
        while (3) providing the reference data needed to make informed 
        decisions about environmental protection and resource 
        development.
  --Energy-Water Sustainability.--The USDOE has a goal of minimizing 
        water consumption by energy producing industries. The GWPC will 
        develop applications that will aid State agencies in tracking 
        water quality and quantity data related to oil and gas 
        production. This will assist States in the analysis of related 
        water consumption. Public education efforts through our Ground 
        Water Report to the Nation series will emphasize ground water 
        availability facts and realistic short and long term 
        conservation efforts that can be made locally.
  --CO<INF>2</INF> Geo-Sequestration.--Capture of CO<INF>2</INF> from 
        power plants is one potential tool for decreasing the release 
        of this gas to the atmosphere. However, storage or 
        sequestration of its liquid form in geologic formations must be 
        done with protection of underground sources of drinking water 
        in mind. The GWPC will continue to work in cooperation with 
        State and Federal agencies to apply sound science in the 
        development of effective regulations, policy and technical 
        guidance, with a focus on protecting the Nation's invaluable 
        ground water resources. With additional funds we would be able 
        to develop a geo-sequestration volume information tracking 
        system.
    THE GWPC.--GWPC is a respected national organization of State 
ground water, UIC, and oil and gas regulatory agencies with a 
successful track record of providing solutions to ground water 
protection related issues that are environmentally protective, 
scientifically based, cost effective and publicly accepted. We are the 
proud recipient of the Secretary of Energy's ``Energy 100 Award''--
given to the top 100 most successful and publicly beneficial projects 
(RBDMS) in the last 30 years of USDOE. We hope the subcommittee will 
continue to support these efforts in fiscal year 2009 at the fiscal 
year 2008 level of $1.2 million (RBDMS) and $500,000 (Energy 
Efficiency).
    We are grateful for your past support and would like to also 
request that the subcommittee continue to support the USDOE Office of 
Fossil Energy, and the National Energy Technology Lab (NETL). Without 
their national presence not only our successes, but those of many 
others would not have been accomplished. The programs they administer 
serve a valuable purpose and are important to the long term efficiency 
of the front line State and Federal agencies and the small domestic 
operators who would not otherwise have been able to extend the life of 
domestic reservoirs and increase environmental and ground water 
protection at the same time.
                                 ______
                                 
       Prepared Statement of the National Hydropower Association
    The National Hydropower Association (NHA) \1\ appreciates the 
opportunity to submit this statement regarding hydropower funding 
priorities for the fiscal year 2009 appropriations budget cycle. NHA 
requests $54 million in fiscal year 2009 Energy & Water Appropriations 
for the Department of Energy's Waterpower Program.
---------------------------------------------------------------------------
    \1\ NHA is a non-profit, national trade association dedicated to 
promoting the Nation's largest renewable resource and advancing the 
interests of the hydropower and new ocean, tidal and instream 
hydrokinetic industries and the consumers they serve.
---------------------------------------------------------------------------
hydropower's current and future potential as the nation's most robust, 
                       renewable energy resource
    Congress is currently examining the implications of climate change 
on the environment, economy, and energy security of the United States. 
Crucial to the climate debate is the need for policymakers to work 
together to promote the development, deployment and expanded use of 
existing renewable resources, as well as innovative new technologies, 
that can play a significant role in addressing climate issues while 
maintaining a reliable and affordable electricity supply system. 
Hydropower of today and new water power technologies of tomorrow can 
provide significant benefits to these national energy and environmental 
goals.
    Currently, hydropower provides sizeable benefits. As the leading 
renewable energy resource in the country, it accounts for 7 percent of 
all of the Nation's electricity in terms of actual generation and 
approximately 9 percent in terms of actual capacity. Overall, 
hydropower accounts for 77 percent of actual renewable electricity 
generation and 83 percent of the Nation's renewable energy capacity.
    As an important source of electricity, hydropower offers advantages 
over other generation options. Importantly, hydroelectric units are 
able to start, stop, and change output quickly, which provides 
important grid stability and reliability benefits. As such, hydro has 
the ability to firm intermittent resources such as wind and solar, a 
benefit which becomes all the more important as the Nation moves to 
incorporate more renewables in its energy portfolio. Finally, 
hydropower's non-power benefits include water supply, flood control, 
irrigation, navigation and recreation.
    Hydropower's potential contribution is notable--from efficiency 
improvements and capacity upgrades at existing projects, to new 
development at existing non-powered dams, to significant new capacity 
gains from emerging waterpower technologies, such as ocean, tidal and 
instream hydrokinetic projects. According to a March 2007 Electric 
Power Research Institute (EPRI) report titled, ``Assessment of 
Waterpower Potential and Development Needs,'' the potential for 
increases in capacity, mostly without the need to build dams, is 
conservatively estimated at 23,000 MW by 2025, with an overall estimate 
of 85,000 to 95,000 MWs with appropriate public policy support. This 
includes:
  --2,300 MW capacity gains at existing conventional hydropower 
        facilities;
  --5,000 MW of new conventional hydropower at existing non-powered 
        dams;
  --2,700 MW of new small and low head power conventional hydropower 
        (<30 MW installed capacity);
  --10,000 MW from ocean wave energy technologies; and
  --3,000 MW from hydrokinetic technologies (river-based).
    Realization of these capacity gains will require continued and 
increased research, development, demonstration and deployment (RDD&D) 
support and other economic incentives as well as planning, testing and 
impact evaluation assistance. As stipulated in EPAct 2005, the 
Secretary of Energy is required to conduct R&D for conventional and new 
waterpower technologies.\2\
---------------------------------------------------------------------------
    \2\ EPAct 2005, title IX, sec. 931--``Conduct a program of 
research, development, demonstration and commercial application for 
cost competitive technologies that enable the development of new and 
incremental hydropower capacity, adding diversity of the energy supply 
of the United States, including: (i) Fish-friendly large turbines. (ii) 
Advanced technologies to enhance environmental performance and yield 
greater energy efficiencies. (. . .) The Secretary shall conduct 
research, development, demonstration, and commercial application 
programs for--(i) ocean energy, including wave energy (. . .) and (iv) 
kinetic hydro turbines.''
---------------------------------------------------------------------------
   nha's statement requests full funding of the suite of initiatives 
  identified in the epri report under the department of energy's new 
    waterpower r&d program at a level of $54 million per fiscal year
Waterpower Technology Development Needs
    Through direct contact with NHA members, which include hydropower 
owners and operators, ocean, tidal and instream hydrokinetic technology 
developers, and the analysts and experts cited in the EPRI report, NHA 
analyzed the report's suite of development recommendations and 
concluded that the EPRI report provides a useful model, a roadmap from 
which to guide activities under the DOE Waterpower R&D program. As 
such, this statement highlights and summarizes the various R&D 
initiatives outlined in the report. These directives are intended to 
address the needs left unfunded by the previous RDD&D program for 
hydropower and would expand the Department's efforts.
    Waterpower Realization Committee.--To provide the initial guidance 
and future oversight to benchmark results of the RDD&D program in terms 
of real waterpower capacity and generation gains. This committee, made 
up of representatives from industry, government resource agencies and 
non-governmental organizations would guide RDD&D efforts and monitor 
progress to ensure the realization of the capacity gains. The committee 
would measure on an annual basis the capacity gains from the various 
initiatives and make recommendations for refinement of the program, as 
necessary.
    Waterpower Performance Initiatives.--The suite of activities and 
programs available to meet the goals of the program are outlined below.
Advanced Water Energy Science
    Statement of Need.--The industry has identified the need for 
advanced scientific techniques to support the following activities:
  --Advance Water Energy Science
    --Work that would support the industry's need to better predict 
            flow measurement. Accurate flow values are needed for a 
            variety of operation and environmental performance topics.
    --Modeling work to improve hydraulic modeling techniques.
    --Turbine research in order to develop better materials resistant 
            to cavitation and erosion damage.
    --Generator research in order to discover materials suitable for 
            use as stator core; build one prototype stator core; and 
            study it over a period of time.
  --Meteorological Forecasting and Optimal Dispatch of Energy/Water 
        Systems.--Work in this area will examine and determine the 
        benefits of integrating wind and other intermittent renewable 
        energy resources with hydropower and pumped storage resources. 
        Specific work could include:
    --Near-term forecasting of meteorological conditions will help 
            identify needs for improving meteorological data and 
            instrumentation.
    --Long-term projections of global climate change and effects of 
            other cycles and other factors on regional meteorological 
            conditions and future regional electricity and water 
            demand, energy and electricity supply mix, and fuel costs.
    --Research into the integration of meteorological information and 
            load, energy price, and other forecasts with energy and 
            water system operations.
  --Integration and Control of Renewable Energy Technologies.--Greater 
        opportunities to adopt renewable energy technologies and their 
        integration with water resources can be realized if research is 
        provided to develop advanced integration and control 
        mechanisms. Funding could be directed to the development and 
        demonstration of hybrid control systems to include real time 
        pricing, resource optimization and optimal economic value 
        methodologies.
Hydropower Environmental Performance
    Statement of Need.--The following objectives will improve 
hydropower performance by maximizing hydroelectric generation and 
protecting fisheries resources.
  --Complete RDD&D for Fish-Friendly Turbines.--Continued work on fish-
        friendly turbine development offers the opportunity to address 
        energy and environmental impacts and needs. Activities under 
        this category include:
    --Continue prototype Alden/Concepts NREC turbine development in 
            preparation for commercialization. Additional fish survival 
            testing.
    --Continue testing of the advanced turbines at Wanapum dam.
    --Perform power efficiency testing, and
    --Deploy and evaluate the Alden/Concepts NREC design at School 
            Street Project, NY or other location.
  --Bioengineering for Fish Passage and Entrainment Mitigation.--
        Technologies are needed to solve the problem of fish mortality 
        involving hydropower structures. Continued work activities 
        include:
    --Basic research on the effect of hydraulic process on fish 
            movement.
    --Utilize biocriteria in the development of new turbine and fish 
            passage designs.
    --Conduct demonstrations of new technology to determine 
            effectiveness in real-world applications.
  --Water Quality Mitigation Technology.--New and more cost-effective 
        and less water intensive solutions are needed to address 
        dissolved oxygen and water temperature issues involving water 
        quality. Research is needed to:
    --Review state of the art techniques for addressing these issues.
    --Develop new technologies and target test sites for testing.
    --Conduct cost-shared demonstrations of new technologies.
  --Advanced Weirs for Flow Re-regulation and Aeration.--More work is 
        needed to optimize the design of weirs and demonstrate how they 
        can be used to improve the efficiency of existing projects. 
        Research activities could include hydraulic design studies, 
        coupled with model tests and prototype demonstrations.
Hydropower Operational Performance
    Statement of Need.--Improved forecast models and the implementation 
of advanced technologies can play a crucial role in enhancing the 
operational performance of hydropower facilities. The following 
objectives will improve operations at facilities.
  --Hydropower Operation Decision Support Analysis.--Need to understand 
        various hydropower generation sensitivities to various 
        processes. Research activities could include:
    --Determination of sources of hydropower generating variability 
            across spatial and temporal scales.
    --Develop improved climate/meteorological stream flow forecast 
            models.
    --Incorporate understanding and forecast models into optimization 
            and decision support models.
    --Demonstrate benefits of using improved decisions support models.
  --Demonstration Testing of the Advanced Hydropower Turbine System 
        (AHTS) to Increase Use of Efficient Designs.--Demonstration 
        activities will help potential users understand and overcome 
        potential risks of using new technologies.
  --Advanced Electrical Equipment for Renewable Integration.--More 
        research into these technologies would increase efficiency and 
        reliability by providing ancillary services to the electric 
        grid.
    Waterpower Technology Development.--This part of the program would 
use funds to advance hydrokinetic and ocean energy technology in four 
program areas:
Hydrokinetic Resource Assessment
    Statement of Need.--New generation technologies are on the 
threshold of implementation, but require additional site assessment and 
a mapping program to outline the criteria for development. A complete 
resource assessment and criteria protocol for hydrokinetic sites in the 
United States is required and should be available to potential 
developers, similar to the resource assessment for small hydropower 
completed by DOE.
Hydrokinetic Environmental Profiling
    Statement of Need.--Advanced technologies on the threshold of 
implementation often are stalled because prospective users cannot 
justify implementation risks and lack of knowledge among developers 
regarding the environmental and institutional barriers. Research to 
develop minimum time environmental data collection and analysis 
techniques for use in site evaluation of hydrokinetic machines is 
needed. This research would standardize monitoring techniques for 
evaluating the environmental impacts of hydrokinetic technologies and 
help expedite the deployment of these technologies.
Hydrokinetic Technology Improvement
    Statement of Need.--Instream kinetic, tidal/wave energy and kinetic 
hydropower and pressure systems for manmade conduit systems all require 
test support and demonstration funding to support development, 
deployment and realization of their potential. Research is needed to 
determine proof of concepts with single prototype units and demonstrate 
operational viability and environmental effects with pre-commercial 
multiple unit projects. Support is also needed to identify 
universities, labs, and other entities where proof of concepts and 
operational tests can be conducted and environmental effects assessed.
Advanced Ocean Energy
    Statement of Need.--Federal funding of ocean energy RDD&D and 
required regulatory activities would enable the United States to 
develop new domestic energy supplies, create jobs and capture an 
emerging global export market. Research is needed to develop an ocean 
wave energy technology industry to commercial deployment level 
including research into marine resources and converters; energy 
conversion, delivery and storage; environmental and cost monitoring; 
and field deployment.
                               conclusion
    Hydropower is already a major source of energy for the Nation. The 
nascent ocean, tidal and instream hydrokinetic technologies are at the 
beginning stages of commercial deployment. Yet both technologies have a 
tremendous growth potential that could be realized through sustained 
Federal RDD&D support. These renewable resources are clean, climate-
friendly technologies that can provide significant base load power to 
the United States at a time when our demand for electricity continues 
to increase dramatically. By expanding the funding for the DOE 
Waterpower R&D program, the Nation could soon realize the tremendous 
energy and environmental benefits of maximizing existing hydropower 
projects and infrastructure as well as the suite of emerging waterpower 
technologies.
                                 ______
                                 
            Prepared Statement of the Health Physics Society
    This written testimony for the record for fiscal year 2009 requests 
reinstatement of funding for the Nuclear Education program appropriated 
to the Nuclear Regulatory Commission (NRC) in fiscal year 2008 to 
include at least $1.5 million for support of health physics programs, 
students, and faculty. This support is necessary to address the 
shortage of health physicists, which is an issue of extreme importance 
to the safety of our Nation's workers, members of the public, and our 
environment. As explained below, justification by the Office of 
Management and Budget (OMB) to rescind the NRC Nuclear Education 
program is not applicable to the health physics academic programs.
    Health Physics is the profession that specializes in radiation 
safety, which is necessary for the safe and successful operation of the 
Nation's energy, healthcare, homeland security, defense, and 
environmental protection programs. Although radiation safety is 
fundamental to each of these vital national programs, there is no 
single Federal agency that serves as a home and champion for the health 
physics profession as this profession cuts across all these sectors. 
However, health physics is necessary for all these sectors to exist as 
it supports the principle disciplines in these programs that are 
championed by multiple Federal agencies, such as engineers, medical 
professionals, law enforcement professionals, military personnel, and 
environmental scientists.
    As the Nation's development and use of radioactive materials grew 
following the end of World War II, the Nation's demand for health 
physicists increased in the areas of energy, defense, public health, 
and environmental protection. This need was mainly supported by student 
fellowships and scholarships from the Atomic Energy Agency (energy and 
defense) and Public Health Service (public health and environmental 
protection). However, over the years agencies and their missions 
changed, the nuclear power industry faltered and the Department of 
Energy (DOE) nuclear weapons complex downsized following the end of the 
cold war. This resulted in the academic program support from Federal 
agencies dwindling until the last remaining support from DOE was 
terminated in fiscal year 1999. With this dwindling support, the supply 
of new health physicists declined and the age of the existing health 
physics workforce increased despite the continued need for health 
physicists in energy, defense, public health, and environmental 
protection programs as well as an exponential growth in the medical and 
academic community. Due to these circumstances a human capital crisis 
was created in health physics.
    As the health physics human capital crisis grew and loomed in the 
early years of the 21st century, Congress and the DOE took action to 
add support to the nuclear engineering academic programs through DOE 
programs in the Office of Nuclear Energy (NE) and eventually agreed 
that this was an appropriate support mechanism for the health physics 
academic program. In fiscal year 2005, just 4 years ago, Congress 
appropriated money to DOE-NE for a health physics fellowship and 
scholarship program as part of the University Reactor Fuel Assistance 
and Support budget item. Shortly thereafter, Congress reinforced its 
position that DOE needed to support the health physics academic 
programs in provisions of section 954 of the Energy Policy Act of 2005. 
Despite the fact that the need for an increased supply of health 
physics professionals continued to exist, the DOE ceased funding the 
Congressionally authorized DOE-NE health physics fellowship and 
scholarship program after only 2 fiscal years of funding the programs 
at minimal levels.
    In fiscal year 2008, Congress transferred appropriations for a 
Nuclear Education program, including health physics programs, to the 
NRC. The Health Physics Society (HPS) applauds this insightful action. 
The NRC does have a vested interest in the radiation safety associated 
with most of the sectors covered by the health physics profession. 
Although the NRC quickly addressed the demands of starting a new 
education support program by opening two grant opportunities for 
student and faculty support, the administration has not included 
continuation of the program in their budget for fiscal year 2009.
    The OMB has provided a justification for rescission of the Nuclear 
Education program. This OMB assessment is patently wrong with regards 
to health physics programs.
    The OMB states ``. . . target levels for the undergraduate 
enrollment have been met . . .'' and ``Since the 1990s, enrollment 
levels in nuclear education programs have tripled . . .''
    Specific to ``target levels,'' since DOE has only funded health 
physics programs for 2 years, they have never established ``target 
levels'' for health physics program enrollments nor has there been time 
to assess the effect of those 2 years of funding on health physics 
program enrollments. The DOE-NE HP fellowship and scholarship program 
thus far has provided three graduate fellowships in fiscal year 2006 
and zero undergraduate scholarships. In 2004, the HPPDO developed a 
plan for revitalizing the academic programs to a level that could meet 
the projected shortfall of health physicists. The Health Physics 
Program Directors Organization (HPPDO) plan calls for an initial target 
of 20 graduate fellowships and 20 undergraduate scholarships, i.e., 
target levels well above the actual performance of the Nuclear 
Education Programs.
    In addition, the HPS does not feel that undergraduate levels are an 
appropriate metric to measure the success of an academic program. 
Undergraduate levels are not viewed significant by university Deans 
looking to justify graduate programs at the Masters and Doctorate 
level. Furthermore, university administrators will not commit to 
replacing an increasingly large number of retiring health physics 
faculty unless the Federal Government demonstrates its commitment to 
investing in the research and academic health physics infrastructure 
necessary to support new faculty hires in this vital profession.
    The OMB justification also states ``. . . and the number of 
universities offering nuclear-related programs also has increased.'' 
Actually, the number of health physics programs graduating at least 5 
students annually decreased from 20 programs in 1995 to less than half 
that number in 2005, which belies the OMB statement.
    We find the OMB justification ignores the value of Federal long-
term investment in academic infrastructure and ignores the value of 
professional radiation safety professionals to the successful 
protection of workers, members of the public, and the environment while 
benefiting from the use of nuclear technologies.
    We consider it would take approximately $1,000,000 to get to the 
HPPDO plan of 20 fellowships and 20 scholarships in health physics. In 
addition, funding of $500,000 should allow for up to two young faculty 
members in health physics academic programs to receive grant support at 
the level offered by the NRC fiscal year 2008 grant opportunities. 
Considering the DOE budgets for the HP Fellowship and Scholarship 
programs for fiscal year 2005 and fiscal year 2006 combined have 
totaled $500,000 and only produced 3 fellowships, we feel this request 
is very modest while we recognize it will not begin to provide the long 
term support that will eventually be required if we are to have enough 
safety professionals for our energy, healthcare, homeland security, 
defense, and environmental protection programs. However, it will go a 
long way to help building the student and faculty infrastructure needed 
to reach this goal.
    The subcommittee's favorable consideration of this request will 
help meet our Nation's radiation safety needs of the future.
                                 ______
                                 
           Prepared Statement of the Gas Turbine Association
    The Gas Turbine Association (GTA) appreciates the opportunity to 
provide the United States Senate Committee on Appropriations 
Subcommittee on Energy and Water Development with our industry's 
statement regarding fiscal year 2009 Department of Energy (DOE) Office 
of Fossil Energy (FE) Advanced Turbines R&D at $55 million and Energy 
Efficiency and Renewable Energy (EERE) Industrial Technologies Program 
(ITP) Distributed Energy at $60 million funding levels.
    From Connecticut to California, States are working to put in place 
regulations to dramatically reduce greenhouse gas emissions. At the 
same time, our economy will be demanding more electric power to 
maintain its growth. Without new technology, the power generation 
industry will be hard pressed to produce additional electric capacity, 
while at the same time meet the strict greenhouse gas emissions 
standards being set by States and the Federal Government.
    Federal investment in research and technology development for 
advanced gas turbines that are more versatile, cleaner, and have the 
ability to burn hydrogen-bearing reduced carbon synthetic fuels and 
carbon-neutral alternative fuels is needed to ensure the reliable 
supply of electricity in the next several decades. Domestic coal based 
Integrated Gasification Combined Cycle (IGCC) with carbon capture and 
sequestration is one such approach that would significantly supplement 
available supplies of domestic natural gas to guarantee an adequate 
supply of clean and affordable electric power. Alternative fuel choices 
range from imported LNG, coal bed methane, and coal-derived synthetic 
or process gas to biogas, waste-derived gases and hydrogen. Research is 
needed to improve the efficiency, reduce capital and operating costs, 
and reduce emissions.

    ----------------------------------------------------------------

                $55 million for doe fe advanced turbines
            $60 million for doe eere itp distributed energy
    Supporting these programs provides the following benefits:
  --Efficient and reliable turbine technologies for alternative fuel, 
        near-zero-emission power plants
  --Energy security by utilizing domestic energy sources to reduce the 
        demand for foreign energy imports
  --Globally competitive electricity prices for U.S. industries, 
        businesses and homes, with reduced greenhouse gas emissions 
        from power plants

    ----------------------------------------------------------------

    Because policy makers have begun implementing rigid CO<INF>2</INF> 
regulatory mandates, failure to invest now will translate into stifled 
economic growth and the loss of our global competitiveness later. The 
Advanced Turbines program needs $55 million and the Distributed Energy 
budget needs to be restored to $60 million in fiscal year 2009 to 
ensure a smooth transition into a low-carbon economy.
              gas turbines reduce greenhouse gas emissions
    The gas turbine industry's R&D partnership with the Federal 
Government has steadily increased power plant efficiency to the point 
where natural gas fired turbines can reach combined cycle efficiencies 
of 60 percent, and quick-start simple cycle peaking units can reach 46 
percent. The gas turbine's clean exhaust can be used to create hot 
water, steam, or even chilled water. In such combined heat and power 
applications, overall system efficiency levels can reach 60 to 85 
percent LHV. This compares to 40-45 percent for even the most advanced 
thermal steam cycles (most of which are coal fired).

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Gas turbines already play a very significant role in minimizing 
greenhouse gas emissions worldwide. Gas turbines are both more 
efficient and typically burn lower carbon fuels compared to other types 
of combustion-based power generation and mechanical drive applications. 
The Nation needs to reinvigorate the gas turbine/government partnership 
in order to develop new, low carbon power plant solutions without 
increasing our reliance on natural gas. This can be done by funding 
research to make gas turbines more capable to utilize hydrogen and 
synthetic fuels as well as increasing the efficiency, durability and 
emissions capability of natural gas fired turbines. If Congress 
provides adequate funding to DOE's turbine R&D efforts, technology 
development and deployment will be accelerated to a pace that will 
allow the United States to achieve its emissions and energy security 
goals.
technologies for advanced igcc/h<INF>2</INF> gas turbine--reducing the 
                   penalty for co<INF>2</INF> capture
    The turbines and related technologies being developed under the DOE 
FE Advanced Turbines program will directly advance the performance and 
capabilities of future power generation with CO<INF>2</INF> capture and 
sequestration. Advances are needed to offset part of the power plant 
efficiency and output reductions associated with CO<INF>2</INF> 
capture. Program funding is required to cost-share in the technology 
development of advanced hydrogen/syngas combustors and other components 
to realize the DOE goals.
    Several GTA member companies are working cost-share programs with 
the DOE to develop technologies for advanced gas turbine power plants 
with carbon capture. These technologies will: (1) increase plant 
efficiency; (2) increase outputs; and (3) allow further reductions in 
combustion emissions of hydrogen rich fuels associated with 
CO<INF>2</INF> capture and sequestration. This will help offset some of 
the efficiency and output penalties associated with CO<INF>2</INF> 
capture. These programs are funding technology advancement at a much 
more rapid rate than industry can do on their own.
    The need for increased levels of Federal cost-share funding is 
immediate. The fiscal year 2009 funding request for the Advanced 
Turbines program is inadequate to meet DOE's 2010 Advanced Power System 
goal of an IGCC power system with high efficiency (45-50 percent HHV), 
near-zero emissions and competitive capital cost. To meet this 2010 
goal, the researchers must demonstrate a 2 to 3 percentage point 
improvement in combined cycle efficiency above current state-of-the-art 
Combined Cycle turbines in IGCC applications.
    The plan for the IGCC-based FutureGen-type application is to 
develop the flexibility in this same machine with modifications to 
operate on pure hydrogen as the primary energy source while maintaining 
the same levels of performance in terms efficiency and emissions. The 
goal is to develop the fundamental technologies needed for advanced 
hydrogen turbines and to integrate this technology with CO<INF>2</INF> 
separation, capture, and sequestration into a near-zero emission 
configuration that can provide electricity with less than a 10 percent 
increase in cost over conventional plants by 2012.
    The Advanced Turbines program is also developing oxygen-fired (oxy-
fuel) turbines and combustors that are expected to achieve efficiencies 
in the 44-46 percent range, with near-100 percent CO<INF>2</INF> 
capture and near-zero NO<INF>X</INF> emissions. The development and 
integrated testing of a new combustor, turbine components, advanced 
cooling technology, and materials in oxy-fuel combustors and turbines 
is needed to make these systems commercially viable.
    The knowledge and confidence that generating equipment will operate 
reliably and efficiently on varying fuels is essential for the 
deployment of new technology. Years of continued under funding of the 
Advanced Turbines program has already delayed the completion dates for 
turbine R&D necessary for advanced IGCC, as well as timing for a 
FutureGen-type plant validation.
                      mega-watt scale turbine r&d
    In the 2005 Enabling Turbine Technologies for High-Hydrogen Fuels 
solicitation, the Office of Fossil Energy included a topic area 
entitled ``Development of Highly Efficient Zero Emission Hydrogen 
Combustion Technology for Mega-Watt Scale Turbines''. Turbine 
manufacturers and combustion system developers responded favorably to 
this topic, but DOE funding constraints did not allow any contract 
awards. The turbine industry recommends a follow-up to this 
solicitation topic that would allow the developed combustion technology 
to be tested in machines at full scale conditions and allow for 
additional combustion technology and combustor development for high-
hydrogen fuels.
    The turbine industry believes that this technology is highly 
relevant to industrial coal gasification applications: (1) site-
hardened black-start capability for integrated gasification combined 
cycle applications (the ability to restart an IGCC power plant when the 
electric grid has collapsed); (2) supplying plant electric load fueled 
on syngas or hydrogen; (3) increasing plant steam cycle capacity on hot 
days when large amounts of additional power are needed; and (4) in gas 
turbines for compression of high-hydrogen fuels for pipeline 
transportation. The development of MW-scale turbines (1-100 MW) fueled 
with high-hydrogen fuels will promote the sustainable use of coal. In 
addition, highly efficient aeroderivative megawatt scale engines 
operate under different conditions than their larger counterparts and 
are installed for peaking or distributed generation applications. LNG, 
syngas and hydrogen combustion are issues for new sites and the legacy 
fleet. Funding is required to design efficient and low emissions 
combustors that accommodate the new fuels.
         high-efficiency, alternative-fueled distributed energy
    The administration's budget request recognizes the need for the 
development of alternate and dual fueled combined heat and power gas 
turbines systems. The budget document states ``ITP would also pursue 
the growth opportunity in traditional industry CHP applications below 
20 MW, including medium-sized plants that require both power and 
process heat. Specific activities would include the development of 
alternative/dual fuel capability for turbines that meet the most 
stringent NO<INF>X</INF> and CO regulations (e.g., those in southern 
California)''.
    However, there are insufficient funds allocated in the request to 
do any work in this area. The administration's justification contends 
``full consideration of the new DG/CHP activity within the context of 
the fiscal year 2009 request was not possible''. If the United States 
is serious about transitioning to a low-carbon economy, we must restore 
the Distributed Energy budget to $60 million in fiscal year 2009 to 
allow DOE to fund partnerships to develop ultra-high efficiency 
alternative and dual fuel CHP systems.
           university turbine systems research (utsr) program
    Under the UTSR program, a consortium of 111 U.S. universities 
located across 42 States conducts fundamental and applied research to 
resolve critical knowledge gaps identified by the 17 industrial 
partners that sit on the UTSR program's Industrial Review Board and by 
the DOE in support of the IGCC/FutureGen program. The UTSR program has 
been described as a model for university/government/industry 
collaboration that is tightly focused on the research needed to support 
widespread use of syngas and hydrogen fueled gas turbines for power 
production.
    This DOE/industry/university partnership is needed to help power 
producers cleanly and efficiently produce electric power from gasified 
coal, biomass and hydrogen, as well as natural gas. The UTSR program is 
the only federally-funded university-based program in the gas turbine 
area. The UTSR program's critical research efforts is needed to meet 
the Advanced Turbine program goals of preparing low-cost, high-
efficiency, high-reliability, low-emission gas turbines for electricity 
production using IGCC-derived fuels. The UTSR program provides critical 
gas turbine research expertise in the United States and graduates with 
knowledge and training. Without adequate DOE funding, universities will 
de-emphasize this area in their own research investments and 
curriculums and the United States will lose its competitive advantage 
in this critical industry.
    The Advanced Turbines program needs $55 million and the Distributed 
Energy budget needs to be restored to $60 Million in fiscal year 2009 
to keep pace with the rapidly approaching Climate Change emissions 
mandates.
                                 ______
                                 
   Prepared Statement of SNM--Advancing Molecular Imaging and Therapy
    SNM, formerly known as the Society of Nuclear Medicine, appreciates 
the opportunity to submit written comments for the record regarding 
funding in fiscal year 2009 at the Department of Energy (DOE). SNM is 
an international scientific and professional organization of over 
16,000 members dedicated to promoting the science, technology, and 
practical applications of molecular imaging and therapy.
    In fiscal year 2008, Congress restored funding for nuclear medicine 
research, after the Federal Government abandoned its over 50-year 
commitment to funding vital nuclear medicine research by eliminating 
funding in fiscal year 2006 for the research at the Department of 
Energy (DOE) and making no accommodation to transition nuclear medicine 
programs to other Government organizations. In past years, nuclear 
researchers have used Federal funding within DOE to make major 
accomplishments benefiting millions of patients with heart, cancer, and 
brain diseases. The loss of Federal funding for nuclear research 
adversely impacted future innovation in the field. With the restoration 
of funding last year and the continuation of funding in fiscal year 
2009 we will be able to get this research back on track. For that 
reason, SNM advocates the continuation of funding for fiscal year 2009 
at the level of $17.5 million for the nuclear medicine research program 
now housed under the Office of Science's Biological Research Life 
Science Radiochemistry and Instrumentation program \1\ in the fiscal 
year 2009 Energy and Water Appropriations bill.
---------------------------------------------------------------------------
    \1\ Previously nuclear medicine research was funded under the DOE's 
Office of Science, Biological and Environmental Research (BER) 
program's Medical Applications and Measurement Science. The BER program 
has been restructured, as directed by Congress, into two separate sub 
programs--Biological Research and Climate Change Research. Biological 
Research included activities in Life Sciences which is where this 
research is now housed. They also renamed it to Radiochemistry and 
Instrumentation.
---------------------------------------------------------------------------
                       what is nuclear medicine?
    Nuclear medicine is an established specialty that performs non-
invasive molecular imaging procedures to diagnose and treat diseases 
and to determine the effectiveness of therapeutic treatments--whether 
surgical, chemical, or radiation. It contributes extensively to the 
management of patients with cancers of the brain, breast, blood, bone, 
bone marrow, liver, lungs, pancreas, thyroid, ovaries, and prostate, 
and serious disorders of the heart, brain, and kidneys, to name a few. 
In fact, recent advances in the diagnosis of Alzheimer's disease can be 
attributed to nuclear medicine imaging procedures.
    Annually, more than 20 million men, women, and children need 
noninvasive molecular/nuclear medicine procedures. These safe, cost-
effective procedures include positron emission tomography (PET) scans 
to diagnose and monitor treatment in cancer, cardiac stress tests to 
analyze heart function, bone scans for orthopedic injuries, and lung 
scans for blood clots. Patients undergo procedures to diagnose liver 
and gall bladder functional abnormalities and to diagnose and treat 
hyperthyroidism and thyroid cancer.
          lack of federal funding threatens future innovations
    The goal of the DOE's nuclear medicine research program is to 
deliver relevant scientific knowledge that will lead to innovative 
diagnostic and treatment technologies for human health. The modern era 
of nuclear medicine is an outgrowth of the original charge of the 
Atomic Energy Commission (AEC) to exploit nuclear energy to promote 
human health. This program supports directed nuclear medicine research 
through radiopharmaceutical development and molecular nuclear medicine 
activities to study uses of radionuclides for non-invasive diagnosis 
and targeted, internal molecular radiotherapy.
    Over the years, the DOE nuclear medicine research program has 
generated advances in the field of molecular/nuclear medicine. For 
example, DOE funding provided the resources necessary for molecular/
nuclear medicine professionals to develop PET scanners to diagnose and 
monitor treatment in cancer. PET scans offer significant advantages 
over CT and MRI scans in diagnosing disease and are more effective in 
identifying whether cancer is present or not, if it has spread, if it 
is responding to treatment, and if a person is cancer free after 
treatment. In fact, the DOE has stated that this program supports 
``research in universities and in the National Laboratories, occupies a 
critical and unique niche in the field of radiopharmaceutical research. 
The NIH relies on our basic research to enable them to initiate 
clinical trials.''
    The majority of the advances in molecular/nuclear medicine have 
been sponsored by the DOE, including:
  --Smaller, More Versatile PET Scanners.--Brookhaven National 
        Laboratory (BNL) has completed a prototype mobile PET scanner, 
        which will record images in the awake animal. The mobile PET 
        will be able to acquire positron-generated images in the 
        absence of anesthesia-induced coma and correct for motion of 
        the animal. The long-term goal is to develop PET 
        instrumentation able to diagnose neuro-psychiatric disorders in 
        children.
  --Highest Resolution PET Scanner Developed.--Scientists at the 
        Lawrence Berkeley National Laboratory (LBNL) have developed the 
        world's most sensitive PET scanner. The instrument is 10-times 
        more sensitive than a conventional PET scanner and became 
        operational in 2005.
  --Imaging Gene Expression in Cancer Cells.--Images of tumors in whole 
        animals that detect the expression of three cancer genes were 
        accomplished for the first time by investigators at Thomas 
        Jefferson University and the University of Massachusetts 
        Medical Center. This advanced imaging technology will lead to 
        the detection of cancer in humans using cancer cell genetic 
        profiling.
  --Modeling Radiation Damage to the Lung.--Treatment of thyroid 
        disease and lymphomas using radioisotopes can cause disabling 
        lung disease. Investigators at Johns Hopkins University have 
        developed a Monte Carlo model that can be used to determine the 
        probability of lung toxicity and be incorporated into a 
        therapeutic regimen. This model will optimize the dose of 
        radioactivity delivered to cancer cells and avoid untoward 
        effects on the lung.
  --New Radiopharmaceuticals with Important Clinical Applications.--The 
        DOE radiopharmaceutical science program has developed a number 
        of innovative radiotracers at the University of California at 
        Irvine for the early diagnosis of neuro-psychiatric illnesses, 
        including Alzheimer's disease, schizophrenia, depression, and 
        anxiety disorders.
  --Rapid Preparation of Radiopharmaceuticals for Clinical Use.--The 
        DOE-sponsored program at the University of Tennessee has 
        developed a new method for preparing radiopharmaceuticals by 
        placing a boron-based salt at the position that will be 
        occupied by the radiohalogen. The method has been used to 
        prepare a variety of cancer-imaging agents.
    With continued DOE funding, essential molecular/nuclear medicine 
research will continue at universities, research institutions, national 
laboratories, and small businesses. Moreover, research with 
radiochemistry, genomic sciences, and structural biology will be able 
to usher in a new era of mapping the human brain and using specific 
radiotracers and instruments, to more precisely diagnose neuro-
psychiatric illnesses and cancer.
    In addition, to gain the full benefits of nuclear medicine, it is 
important to ensure that nuclear medicine researchers have a steady 
supply of radionuclides. One way to accomplish this goal would be to 
create a National Radionuclide Enhancement Production program at the 
DOE that would meet the Nation's medical and homeland security needs.
 nas study recommends enhanced federal commitment to nuclear medicine 
                                research
    On September 20, 2007, the National Academy of Sciences (NAS) 
released a report sponsored by the Department of Energy (DOE) and 
National Institutes of Health (NIH), entitled Advancing Nuclear 
Medicine Through Innovation. The charge of the NAS study was to provide 
findings and recommendations on the state of the science in nuclear 
medicine.
    As one of the important findings, the report highlighted the 
detrimental loss of Federal commitment to nuclear medicine research, as 
evidenced by the large cuts in funding for the basic sciences related 
to nuclear medicine in the DOE Office of Science Office of Biological 
and Environmental Research (OBER) Medical Applications and Measurement 
Science (MAMS) program in fiscal years 2006 and 2007.
    As a result, says the report, ``there is now no short- or long-term 
programmatic commitment by any agency to funding chemistry, physics, 
engineering research and associated high-technology infrastructure 
(accelerators, instrumentation, and imaging physics), which are at the 
heart of nuclear medicine technology research and development.''
    There are countless new innovations on the horizon in this area 
that promise to improve patient care through new therapeutic isotopes 
to cure disease, earlier diagnosis of Alzheimer's disease and cancer, 
detection of the effectiveness of cancer therapies, development of the 
next generation of imaging technologies, and more. However, without 
ongoing funding for basic nuclear medicine research at DOE Office of 
Science, these breakthroughs may never materialize.
    To enhance Federal commitment, the NAS report recommended that 
``reinstating support for the DOE-OBER nuclear medicine research 
program should be considered.'' Additionally, the report recommends ``a 
national nuclear medicine research program should be coordinated by the 
DOE and the National Institutes of Health with the former emphasizing 
the general development of technology and the latter disease-specific 
applications.''
    The report also states, ``Although the scientific opportunities 
have never been greater or more exciting, the infrastructure on which 
future innovations in nuclear medicine depend hangs in the balance. If 
the promise of the field is to be fulfilled, a federally supported 
infrastructure for basic and translational research in nuclear medicine 
should be considered.''
    We are at a critical juncture in nuclear medicine. In order to 
capitalize on groundbreaking research that will improve and save lives, 
Federal support for basic nuclear medicine research at DOE Office of 
Science must continue. Therefore, SNM calls on Congress to support the 
DOE Office of Science's Radiochemistry and Instrumentations programs 
with $17.5 million in funding for nuclear medicine research for fiscal 
year 2009.
                               conclusion
    By continuing funding for the DOE's Radiochemistry and 
Instrumentation nuclear medicine research program at the DOE, policy 
makers will keep our Nation at the forefront of nuclear medicine 
research and innovation. We thank you for the opportunity to present 
our views on funding for these initiatives at the DOE and would be 
pleased to answer any questions you may have.

</pre></body></html>
